No. 20In the

Supreme Court of the United States
DAVID CASSIRER, et al.,
Petitioners,
v.
THYSSEN-BORNEMISZA COLLECTION FOUNDATION,
an agency or instrumentality of the Kingdom of Spain
Respondent.
On Petition for Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Stephen N. Zack
A ndrew S. Brenner
Rossana Baeza
Boies Schiller Flexner LLP
100 SE Second Street, Suite 2800
Miami, FL 33131
(305) 539-8400

David Boies
Counsel of Record
Boies Schiller Flexner LLP
333 Main Street
Armonk, NY 10504
(914) 749 8200
dboies@bsfllp.com

Samuel J. Dubbin, P.A.
Dubbin & Kravetz, LLP
1200 Anastasia Avenue, Suite 300
Coral Gables, FL 33134
(305) 371-4700

David A. Barrett
Boies Schiller Flexner LLP
55 Hudson Yards
New York, NY 10001
(212) 446-2300

Laura W. Brill
Nicholas Daum
Kendall Brill & Kelly LLP
10100 Santa Monica Boulevard
Los Angeles, CA 90067
(310) 556-2700
Counsel for Petitioners
304280

QUESTION PRESENTED
The Foreign Sovereign Immunities Act, 28 U.S.C. §§ 1602–1611 (“FSIA”),
provides that where a foreign nation is not immune from jurisdiction in the courts of
the United States or of any State, it “shall be liable in the same manner and to the
same extent as a private individual under like circumstances.” Id. § 1606. In four
circuits, the courts of appeals have held that this statutory requirement of parity with
private litigation means that a federal court hearing an FSIA case must apply the
choice-of-law rules of the State in which it is sitting. But the Ninth Circuit has
held—repeatedly and without meaningful analysis, including in the decision
below—that choice of law in FSIA cases is determined by application of federal
common law.
The choice of law issue is critical in this case, in which the family of a
Holocaust survivor seeks the return of a painting stolen by the Nazis. Under
California law, a holder of stolen property (such as the Spanish state museum here)
can never acquire good title, while under Spanish law, an adverse possession rule
protects the museum’s title.
The question presented is:
Whether a federal court hearing state law claims brought under the FSIA
must apply the forum state’s choice-of-law rules to determine what
substantive law governs the claims at issue, or whether it may apply federal
common law.

i

PARTIES TO THE PROCEEDING
Petitioners, all of whom were plaintiffs in the district court and appellants in
the court of appeals, are David Cassirer, the Estate of Ava Cassirer, and the Jewish
Federation of San Diego County.
Respondent is the Thyssen-Bornemisza Collection Foundation, an agency or
instrumentality of the Kingdom of Spain (“TBC”), which was the defendant in the
district court and appellee in the court of appeals.

ii

CORPORATE DISCLOSURE STATEMENT
United Jewish Federation of San Diego is a nonprofit corporation with no
parent corporation and no stock.

iii

RELATED PROCEEDINGS
Cassirer v. Kingdom of Spain, et al., Nos. 06-56325, 06-56406, U.S. Court of
Appeals for the Ninth Circuit. Judgment entered September 8, 2009. En banc
judgment entered August 12, 2010. (“Cassirer I”)
Kingdom of Spain, et al. v. Estate of Claude Cassirer, No. 10-786, U.S. Supreme
Court. Petition for writ of certiorari denied June 27, 2011.
Cassirer, et al., v. Thyssen-Bornemisza Collection Foundation, No. 12-56159, U.S.
Court of Appeals for the Ninth Circuit. Judgment entered Dec. 9, 2013. Petition for
panel rehearing and rehearing en banc denied February 11, 2014. (“Cassirer II”)
Cassirer, et al., v. Thyssen-Bornemisza Collection Foundation, Nos. 15-55550, 1555951, 15-55977, U.S. Court of Appeals for the Ninth Circuit. Judgment entered
July 10, 2017. Petition for panel rehearing and rehearing en banc denied December
5, 2017. (“Cassirer III”)
Cassirer, et al., v. Thyssen-Bornemisza Collection Foundation, No. 17-1245, U.S.
Supreme Court. Petition for writ of certiorari denied May 14, 2018.
Cassirer, et al., v. Kingdom of Spain, No. 05-cv-3549, U.S. District Court for the
Central District of California. Judgment entered May 17, 2019.
Cassirer, et al., v. Thyssen-Bornemisza Collection Foundation, No.19-55616, U.S.
Court of Appeals for the Ninth Circuit. Judgment entered August 17, 2020. Petition
for panel rehearing and rehearing en banc denied December 7, 2020. (“Cassirer IV”)

iv

TABLE OF CONTENTS
Page
QUESTION PRESENTED .........................................................................................i
PARTIES TO THE PROCEEDING ......................................................................... ii
CORPORATE DISCLOSURE STATEMENT ....................................................... iii
RELATED PROCEEDINGS ....................................................................................iv
TABLE OF APPENDICES ......................................................................................vi
TABLE OF AUTHORITIES .................................................................................. vii
OPINIONS BELOW .................................................................................................. 1
JURISDICTION......................................................................................................... 1
RELEVANT STATUTORY PROVISIONS ............................................................. 1
INTRODUCTION ..................................................................................................... 2
STATEMENT OF THE CASE .................................................................................. 4
A.

Respondents’ Unsuccessful Procedural Defenses ................................. 5

B.

Choice-of-Law and Substantive Rulings Below ................................... 7

REASONS FOR GRANTING THE PETITION ....................................................... 9
I.

THIS COURT SHOULD RESOLVE THE ENTRENCHED
CIRCUIT SPLIT ON AN IMPORTANT ISSUE OF
FEDERAL STATUTORY INTERPRETATION, NAMELY
WHETHER THE FSIA REQUIRES APPLICATION OF
STATE LAW OR FEDERAL COMMON LAW TO
DETERMINE CHOICE-OF-LAW ....................................................... 9

CONCLUSION ........................................................................................................ 23

v

TABLE OF APPENDICES
APPENDIX A – OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, FILED AUGUST 17, 2020
APPENDIX B – OPINION OF THE UNITED STATES DISTRICT
COURT CENTRAL DISTRICT OF CALIFORNIA, FILED
APRIL 30, 2019
APPENDIX C – OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, DATED JULY 10, 2017
APPENDIX D – OPINION OF THE UNITED STATES DISTRICT
COURT CENTRAL DISTRICT OF CALIFORNIA, FILED
JUNE 4, 2015
APPENDIX E – DENIAL OF REHEARING OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT, FILED
DECEMBER 7, 2020
APPENDIX F – RELEVANT STATUTORY PROVISIONS – FOREIGN
SOVEREIGN IMMUNITIES ACT, 28 U.S.C. §§ 1602–1605, 1606

vi

TABLE OF AUTHORITIES
Page(s)
Cases:
Bakalian v. Central Bank of Republic of Turkey,
932 F.3d 1229 (9th Cir. 2019) ...............................................................................9
Bank of New York v. Yugoimport,
745 F.3d 599 (2d Cir. 2014).......................................................................... 10, 13
Barkanic v.
General Admin. of Civil Aviation of the People’s Republic of China,
923 F.2d 957 (2d Cir. 1991).............................................................. 10, 13, 14, 15
Bernstein v. N.V. Nederlandsche-Amerikaansche Stoomvart-Maatschappij,
210 F.2d 375 (2d Cir. 1954).................................................................................21
Cassirer v. Kingdom of Spain,
616 F.3d 1019 (9th Cir. 2010) ...........................................................................5, 6
Cassirer v.Thyssen-Bornemisza Collection Found.,
153 F. Supp. 3d 1148 (C.D. Cal. 2015) ...................................................... 1, 7, 20
Cassirer v. Thyssen-Bornemisza Collection Found.,
737 F.3d 613 (9th Cir. 2013) .................................................................................6
Cassirer v. Thyssen-Bornemisza Collection Foundation,
824 F. App’x 452 (9th Cir. 2020) ............................................................... 1, 9, 22
Cassirer v. Thyssen-Bornemisza Collection Foundation,
862 F.3d 951 (9th Cir. 2017) ....................................................................... passim
Chuidian v. Philippine Nat. Bank,
976 F.2d 561 (9th Cir. 1992) ...............................................................................10
Corporacion Venezolana de Fomento v. Vintero Sales Corp.,
629 F.2d 786 (2d Cir. 1980).................................................................................12
Crocker Nat’l Bank v. Byrne & McDonnell,
178 Cal. 329 (1918) .............................................................................................18
Federal Republic of Germany v. Philipp,
592 U.S. __ (2021) .................................................................................................6

vii

First Nat. City Bank v. Banco Para El Comercio Exterior de Cuba,
462 U.S. 611 (1983) .............................................................................................13
Griffin v. McCoach,
313 U.S. 498 (1941) ...................................................................................... 18, 22
ABF Cap. Corp. v. Grove Properties Co.,
126 Cal. App. 4th 204 (2005) ..............................................................................14
Harris v. Polskie Linie Lotnicze,
820 F.2d 1000 (9th Cir. 1987) ...................................................................... 11, 12
Kasel v. Remington Arms Co.,
24 Cal. App. 3d 711 (1972) .......................................................................... 18, 22
Kearney v. Salomon Smith Barney, Inc.,
39 Cal. 4th 95 (2006) .............................................................................. 17, 18, 21
Kingdom of Spain v. Estate of Claude Cassirer,
564 U.S. 1037 (2011) .............................................................................................6
Klaxon Co. v. Stentor Elec. Mfg. Co.,
313 U.S. 487 (1941) .............................................................................................11
Liu v. Republic of China,
892 F.2d 1419 (9th Cir.1989) ....................................................................... 11, 12
Nnaka v. Federal Republic of Nigeria,
756 F. App’x 16 (D.C. Cir. 2019) ........................................................................10
Northrop Grumman Ship Sys., Inc. v.
Ministry of Def. of Republic of Venezuela,
575 F.3d 491 (5th Cir. 2009) ...............................................................................10
O’Bryan v. Holy See,
556 F.3d 361 (6th Cir. 2009) ........................................................................ 10, 14
Oveissi v. Islamic Republic of Iran,
573 F.3d 835 (D.C. Cir. 2009) ...................................................................... 10, 15
People v. Smith,
2004 WL 2240112 (Cal. Ct. App. Oct. 6, 2004) .................................................18
Pescatore v. Pan American World Airways, Inc.,
97 F.3d 1 (2d Cir. 1996).......................................................................................14

viii

Pittston Co. v. Allianz Ins. Co.,
795 F. Supp. 678 (D.N.J. 1992) ...........................................................................11
Republic of Austria v. Altmann,
541 U.S. 677 (2004) ...................................................................................... 14, 21
Rodriguez v. Federal Deposit Ins. Corp,
140 S. Ct. 713 (2018) ...........................................................................................16
Schoenberg v. Exportadora de Sal, S.A. de C.V.,
930 F.2d 777 (9th Cir. 1991) ...........................................................................8, 11
Strassberg v. New England Mut. Life Ins. Co.,
575 F.2d 1262 (9th Cir. 1978) .............................................................................18
Verlinden B.V. v. Central Bank of Nigeria,
647 F.2d 320 (2d Cir.1981)..................................................................................15
Von Saher v. Norton Simon Museum of Art at Pasadena,
754 F.3d 712 (9th Cir. 2014) ...............................................................................20
Statutes & Other Authorities:
28 U.S.C. § 1254(1) ...................................................................................................1
28 U.S.C. §§ 1602–1611 ........................................................................................1, 3
28 U.S.C. § 1602 ...................................................................................................... 15
28 U.S.C. § 1605(a)(3) ...........................................................................................5, 6
28 U.S.C. § 1606 .............................................................................................. passim
Pub. L. No. 114-308, 130 Stat. 1524 (2016) (“HEAR Act”)........................ 6, 19, 20
CAL. CIV. PROC. CODE § 338(c)(3)(A)..................................................................... 18
Restatement (Second) of Conflict of Laws ................................................... 8, 16, 22
Terezin Declaration on Holocaust Era Assets and Related Issues,
U.S. DEP’T OF STATE (June 30, 2009), https://www.state.gov/
prague-holocaust-era-assets-conference-terezin-declaration/................. 20, 21, 22
Washington Conference Principles on Nazi-Confiscated Art, U.S. DEP’T OF STATE
(Dec. 3, 1998), https://www.state.gov/washington-conference-principles-onnazi-confiscated-art/ ................................................................................ 20, 21, 22

ix

OPINIONS BELOW
The opinions of the Ninth Circuit directly at issue in this appeal are published
at 824 F. App’x 452 (9th Cir. 2020) (“Cassirer IV”) and 862 F.3d 951 (9th Cir. 2017)
(“Cassirer III”), and are reproduced at Appendix A and Appendix C respectively.
The district court decision from which the 2020 appeal was taken is unpublished and
is reproduced at Appendix B; the 2017 appeal was taken from a district court
decision published at 153 F. Supp. 3d 1148 (C.D. Cal. 2015) and is reproduced at
Appendix D.
JURISDICTION
The Ninth Circuit decision affirming the final judgment that respondent TBC
is the lawful owner of the stolen artwork was issued on August 17, 2020. Petitioners’
timely-filed Petition for Panel Rehearing or Rehearing En Banc was denied on
December 7, 2020. By Order of March 19, 2020, this Court extended the time to
file a petition for a writ of certiorari to and including May 6, 2021.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISIONS
The relevant provisions of the Foreign Sovereign Immunities Act, 28 U.S.C.
§§ 1602–1611, are reproduced at App. F.

1

INTRODUCTION
This appeal arises from a two-decade quest by the family of Holocaust
survivor Lilly Cassirer to recover a family treasure, Rue Saint-Honoré, Afternoon,
Rain Effect, an 1897 oil painting by the renowned French impressionist Jacob
Abraham Camille Pissarro (the “Painting”). It is undisputed that the Nazis stole the
Painting from Lilly in 1939, and the record shows that it was smuggled out of
Germany into California after World War II in violation of U.S. Military law, and
traded privately in the United States between 1951 and 1976.
The Painting presently is in the possession of defendant-respondent TBC, an
instrumentality of the Kingdom of Spain. TBC purchased it in 1993 from Baron
Hans Heinrich von Thyssen-Bornemisza, the scion of the German Thyssen steel
empire, who had bought it under suspicious circumstances from a New York gallery
in 1976.
Although the United States Court of Restitution Appeals (“CORA”) found
that Lilly was the rightful owner in proceedings she brought, the Painting was
assumed at that time to have been lost or destroyed in the War. It was not until 2000
that Lilly’s grandson Claude Cassirer (a survivor himself and the original plaintiff
in this action) learned that the Painting not only still existed but was in TBC’s
possession. Claude became a U.S. citizen in 1947, worked as a photographer in
Cleveland, Ohio, and retired to San Diego, California in 1980.
2

In response to Claude’s request for restitution, the Kingdom of Spain—
flouting its professed adherence to international commitments to resolve claims to
Nazi-stolen art “expeditiously” and “on the facts and merits” to “achieve a just and
fair solution”—refused to return the Painting.
Claude accordingly sued TBC in 2005 under the Foreign Sovereign
Immunities Act, 28 U.S.C. §§ 1602–1611, in the District Court for the Central
District of California asserting claims under California law.1 A decade of procedural
maneuvering by TBC ensued, including extensive district court proceedings, three
earlier appeals to the Ninth Circuit, and two petitions for certiorari by TBC. When
the courts below finally reached the merits, they decided to apply Spanish
substantive law and, after a trial, found that TBC was entitled to keep the Painting
under Spain’s adverse possession or “acquisitive prescription” laws, which,
according to the rulings below, effectively override the principle in most common
law jurisdictions that even a good faith purchaser can never acquire good title to
stolen property.

Claude Cassirer passed away in 2010. Claude’s interest in and claim for recovery
of the Painting passed to his children David Cassirer and Ava Cassirer, and to the
United Jewish Federation of San Diego County, who were substituted as plaintiffs.
Following Ava’s death in 2018, her Estate was substituted as a plaintiff. The
Kingdom of Spain was originally named as a defendant and voluntarily dismissed in
2011.
3
1

This appeal focuses on the Ninth Circuit’s decision—in direct conflict with
four other circuits—that federal common law governs choice-of-law questions in
FSIA cases. Without ever undertaking any meaningful analysis, the Ninth Circuit
has persisted in applying that rule for decades, ignoring multiple thoughtful and
reasoned decisions based on the intent of the FSIA and this Court’s interpretations
of it, in which the Second, Fifth, Sixth and D.C. Circuits have held that the choiceof-law rules of the forum state must be applied to determine the substantive law
applicable to state law claims brought under the FSIA.
The time is ripe for the Court to address this Circuit conflict over an important
issue of federal statutory interpretation.

This case presents an appropriate

opportunity to resolve the conflict because application of California substantive law
would dictate return of the Painting to Petitioners, rather than allowing TBC to retain
property that its Nazi predecessors in interest stole under the horrific conditions of
the Holocaust.
STATEMENT OF THE CASE
In the nineteenth and early twentieth centuries, the Cassirers were one of
Europe’s most prominent families. Paul Cassirer bought Rue Saint-Honoré in 1900
directly from Pissarro’s primary agent. Lilly inherited the Painting in 1926 and
displayed it prominently in her parlor, where her grandson, Claude Cassirer, played
as a child. See generally App. B at 2.
4

In 1939, the Nazis forced Lilly to “sell” the Painting for the equivalent of $360
(paid to a blocked account she could never access) so that she could obtain exit visas
for herself and her husband to flee Germany. Lilly attempted to recover the Painting
in Germany after the War, and while the CORA declared Lilly to be the rightful
owner, it was believed that the Painting itself had been lost or destroyed in the War.
Id. at 2–3.
Claude attempted through friends and associates to locate the Painting without
success until the year 2000, when he learned that it was being held by TBC. Claude
petitioned Spain and TBC to return the Painting, but they refused. Id. at 19–20.
Although TBC does not deny the Nazis’ theft or most other underlying facts, it is
claiming ownership by adverse possession, or “acquisitive prescription” under
Spanish law.
A. Respondents’ Unsuccessful Procedural Defenses
Claude filed this action in 2005, and in 2010, the Ninth Circuit upheld FSIA
jurisdiction under the “expropriation exception” in 28 U.S.C. § 1605(a)(3), because
the Painting was stolen from Lilly by Germany in violation of international law,2

As the Ninth Circuit found: “In 1939 Lilly decided she had no choice but to leave
Germany. By that time—as the district court judicially noticed—German Jews had
been deprived of their civil rights, including their German citizenship; their property
was being ‘Aryanized’; and the Kristallnacht pogroms had taken place throughout
the country.” Cassirer I, 616 F.3d at 1023. The district court’s determination that
Lilly was no longer regarded by Germany as a German citizen is not challenged on
2

5

and TBC had engaged in substantial commercial activities in the United States.
Cassirer v. Kingdom of Spain, 616 F.3d 1019, 1032, 1037 (9th Cir. 2010) (en banc)
(“Cassirer I”).3
In 2013, the Ninth Circuit rejected TBC’s statute of limitations defense. It
held California’s six-year limitations period for claims specifically to recover stolen
fine art from a museum was not preempted by U.S. foreign policy and did not violate
TBC’s First Amendment rights. Cassirer v. Thyssen-Bornemisza Collection Found.,
737 F.3d 613, 621 (9th Cir. 2013) (“Cassirer II”). It also held TBC’s due process
arguments could not be resolved on a motion to dismiss. Id.4

appeal.” Id. at 1023 n.2. Consequently, this Court’s decision in Federal Republic of
Germany v. Philipp, 592 U.S. __ (2021) does not affect this case.
The Ninth Circuit also rejected Spain and TBC’s argument that they were not
covered by § 1605(a)(3) as it was Germany, not Spain, that expropriated the Painting
in violation of international law. Cassirer I, 616 F.3d at 1031. The court held: “[W]e
conclude that §1605(a)(3) does not require that the foreign state against whom suit
is brought be the foreign state that took the property in violation of international
law.” Id. at 1032. This Court denied Spain and TBC’s petition for certiorari on this
issue. See Kingdom of Spain v. Estate of Claude Cassirer, 564 U.S. 1037 (2011);
2011 WL 2135028 (Brief of the United States as Amicus Curiae in support of the
Cassirers).
3

4

The dispute over the California limitations period was mooted by Congress’
enactment of the Holocaust Expropriated Art Recovery Act of 2016, Pub. L. No.
114-308, 130 Stat. 1524 (2016) (the “HEAR Act”). The HEAR Act established a
national six-year limitations period from the date of the plaintiff’s “actual discovery”
to commence a claim for Nazi-looted artworks, which expressly applied to any case
“pending in any court on the date of enactment.” Id. § 5(a), 5(d)(1). The Ninth
Circuit held that this case is timely under the HEAR Act. App. C at 16; Cassirer III,
6

B. Choice-of-Law and Substantive Rulings Below
On cross-motions for summary judgment, the district court found in June 2015
that Spanish law governed the parties’ dispute, rather than the law of California, the
forum state. App. D at 11; Cassirer v. Thyssen-Bornemisza Collection Found., 153
F. Supp. 3d 1148, 1160 (C.D. Cal. 2015). It then applied the Spanish law doctrine
of acquisitive prescription and held that the undisputed evidence entitled TBC to
summary judgment on that basis. Id.
On appeal, the Ninth Circuit upheld the district court’s decision to apply
Spanish law. App. C at 60–61; Cassirer III, 862 F.3d at 981. It then went on to
reverse the award of summary judgment, finding that the district court had
incorrectly interpreted and applied Spanish law, and that the Cassirers’ evidence had
created a genuine issue of material fact as to whether TBC was an “encubridor”—
roughly, an accessory after the fact to the Nazis’ theft of the Painting, which would
have precluded application of TBC’s acquisitive prescription defense here. Id.
With respect to choice-of-law, the court of appeals made no attempt even to
consider California’s choice-of-law principles.

Rather, with no reasoning or

explanation, the Ninth Circuit’s entire discussion of which choice-of-law rule to
apply comprised the following two sentences:

862 F.3d at 959–60. As discussed below, the court of appeals erred in finding that
the Act “does not alter the choice of law analysis.” App. C. at 26; id. at 964.
7

This Court has held that, when jurisdiction is based on the FSIA,
“federal common law applies to the choice of law rule determination.
Federal common law follows the approach of the Restatement (Second)
of Conflict of Laws.”
App. C at 19; Cassirer III, 862 F.3d at 961 (quoting Schoenberg v. Exportadora de
Sal, S.A. de C.V., 930 F.2d 777, 782 (9th Cir. 1991) (citations omitted)). As will be
demonstrated below, the cited Schoenberg case is equally devoid of reasoning, as
are all of the other Ninth Circuit cases on the subject dating back to the 1980s. By
contrast, the four circuits that have reached the conflicting outcome—that state
choice-of-law rules apply to FSIA claims—base their decisions on thorough analysis
and consideration of the statutory language and purpose.
The Ninth Circuit then decided the choice-of-law issue using its mistaken
federal common law approach, relying primarily on application of §§ 6, 222 and 246
of the Restatement (Second) of Conflict of Laws. App. C at 20–26; Cassirer III, 862
F.3d at 962–64. It concluded that Spanish law applied and remanded the case for
trial on that basis. App. C at 60; Id. at 981.
Following a trial, the district court found in favor of TBC and issued findings
of fact and conclusions of law on April 30, 2019, see App. B, and entered final
judgment on May 17, 2019. Although the district court determined that Baron
Thyssen-Bornemisza had not purchased the Painting in good faith and therefore did
not pass good title to TBC, it nonetheless found that TBC lacked “actual knowledge”

8

that the Painting was stolen, which was, under the court’s view of Spanish law,
sufficient to allow TBC to keep the stolen Painting. App. B at 20–30, 35.
The Cassirers timely filed a notice of appeal on May 29, 2019. Petitioners
again argued that the district court should have applied California law, as well as
that the court had erred in its findings and application of Spanish law.
The Ninth Circuit affirmed the trial court’s award of title to TBC under
Spanish law in a decision dated August 17, 2020. App. A at 7–9; Cassirer IV, 824
F. App’x 452, 457 (9th Cir. 2020). Petitioners timely filed a Petition for Panel
Rehearing or Rehearing En Banc, which raised the choice-of-law issues. It was
denied on December 7, 2020. App. E.
REASONS FOR GRANTING THE PETITION
I.

THIS COURT SHOULD RESOLVE THE ENTRENCHED
CIRCUIT SPLIT ON AN IMPORTANT ISSUE OF FEDERAL
STATUTORY INTERPRETATION, NAMELY WHETHER THE
FSIA REQUIRES APPLICATION OF STATE LAW OR FEDERAL
COMMON LAW TO DETERMINE CHOICE-OF-LAW
As this case demonstrates, the Ninth Circuit is unalterably committed to

applying federal common law to decide choice-of-law questions in FSIA cases. See
App. C at 19; Cassirer III, 862 F.3d at 961 (“when jurisdiction is based on the FSIA,
federal common law applies to the choice of law rule determination”) (internal quote
and citation omitted). See, e.g., Bakalian v. Central Bank of Republic of Turkey, 932
F.3d 1229, 1233–34 (9th Cir. 2019) (“Because the plaintiffs assert statutory
9

jurisdiction under the FSIA, we apply federal common law choice of law rules to
determine the applicable statute of limitations.”); Chuidian v. Philippine Nat. Bank,
976 F.2d 561, 564 (9th Cir. 1992) (“federal common law choice of law rules apply,
not the choice of law rules of the forum state”).
In stark contrast, the Second, Fifth, Sixth and D.C. Circuits agree that the law
of the forum state governs the choice-of-law analysis for state law claims brought
under the FSIA. See, e.g., Bank of New York v. Yugoimport, 745 F.3d 599, 608–09
(2d Cir. 2014) (“When subject matter jurisdiction is based on the Foreign Sovereign
Immunities Act (the ‘FSIA’), we apply the choice-of-law rules of the forum
state . . . .”); Barkanic v. General Admin. of Civil Aviation of the People’s Republic
of China, 923 F.2d 957, 960–61 (2d Cir. 1991) (“we conclude that the FSIA requires
courts to apply the choice of law rules of the forum state”); Northrop Grumman Ship
Sys., Inc. v. Ministry of Def. of Republic of Venezuela, 575 F.3d 491, 498 (5th Cir.
2009) (“Because this case arises under the FSIA, we apply the choice-of-law rules
of the forum state.”); O’Bryan v. Holy See, 556 F.3d 361, 381 n.8 (6th Cir. 2009)
(“in FSIA cases, we use the forum state’s choice of law rules to resolve ‘all issues,’
except jurisdictional ones” (citations omitted)); Nnaka v. Federal Republic of
Nigeria, 756 F. App’x. 16, 18 (D.C. Cir. 2019) (“the FSIA requires us to apply the
choice-of-law rules of the forum state”); Oveissi v. Islamic Republic of Iran, 573
F.3d 835, 841 (D.C. Cir. 2009) (“We thus agree with the Second Circuit that
10

applying the forum state’s choice-of-law principles, rather than constructing a set of
federal common law principles, better effectuates Congress’ intent that foreign states
be ‘liable in the same manner and to the same extent as a private individual’ in FSIA
actions” (quoting 28 U.S.C. § 1606)); Pittston Co. v. Allianz Ins. Co., 795 F. Supp.
678, 682 (D.N.J. 1992) (“the Court agrees with the Second Circuit that state choiceof-law rules should be applied” to FSIA cases).
Rather than discuss any of these well-reasoned decisions, the Ninth Circuit
here held that “when jurisdiction is based on the FSIA, federal common law applies
to the choice of law rule determination.” App. C at 19; Cassirer III, 862 F.3d at 961.
The only supporting authority that the court cited was its own 1991 decision in
Schoenberg v. Exportadora de Sal, S.A. de C.V., 930 F.2d 777, 782 (9th Cir. 1991).
But to the extent that Schoenberg provides any explanation for applying federal
common law, it is virtually meaningless. Schoenberg acknowledged that Klaxon
Co. v. Stentor Elec. Mfg. Co., 313 U.S. 487, 496 (1941), requires federal courts
sitting in diversity to apply state choice-of-law rules. Schoenberg, 930 F.2d at 782.
Immediately thereafter, however, the Ninth Circuit propounded the following ipse
dixit: “jurisdiction in this case is based on FSIA, not diversity. Therefore, federal
common law applies to the choice of law rule determination,” citing Harris v.
Polskie Linie Lotnicze, 820 F.2d 1000, 1002 (9th Cir. 1987) and Liu v. Republic of
China, 892 F.2d 1419, 1425–26 (9th Cir.1989). Schoenberg, 930 F.2d at 782.
11

But those cases, in turn, added nothing whatsoever of substance. The cited
page in the Liu decision merely referenced the same citation to Harris as did
Schoenberg. The sum total of reasoning on the issue in Harris was that (i) Klaxon
was not literally applicable because after the FSIA’s enactment, “federal courts no
longer have diversity jurisdiction over foreign states as defendants. The FSIA is the
exclusive source of federal jurisdiction,” 820 F.2d at 1002 (citations omitted); and
(ii) “In the absence of specific statutory guidance, we prefer to resort to the federal
common law for a choice-of-law rule.” Id. at 1003 (emphasis added). At that point
Harris cited a Second Circuit case, Corporacion Venezolana de Fomento v. Vintero
Sales Corp., 629 F.2d 786, 795 (2d Cir. 1980), which Harris described as “resorting
to federal common law choice-of-law rules in a federal question case.” But Harris
ignored that Fomento involved the “specialized area” of “nationally chartered
banks.” 629 F.2d at 795. It did not address a statute like the FSIA which is intended
to treat foreign states identically to private litigants in U.S. courts, and in fact does
contain “statutory guidance” in 28 U.S.C. § 1606, which directs that “the foreign
state shall be liable in the same manner and to the same extent as a private individual
under like circumstances.” Thus, upon analysis, the Ninth Circuit’s application of
federal common law to decide FSIA choice-of-law issues rests on nothing more than
a “preference” (“we prefer,” in the words of Harris) that was adopted based on a
wholly untenable comparison to federal question jurisdiction.
12

The contrast between the Ninth Circuit’s superficial approach, and the
thorough analyses of the four circuits that have reached a conflicting result—i.e.,
that the forum state’s choice-of-law rules apply—could not be more stark.
For example, the Second Circuit’s determination that the FSIA requires
application of state choice-of-law rules is explicitly tied to the statutory mandate that
a “foreign state shall be liable in the same manner and to the same extent as a private
individual under like circumstances.” 28 U.S.C. § 1606. See Barkanic v. Gen.
Admin. of Civil Aviation of the People’s Republic of China, 923 F.2d 957, 959–60
(2d Cir. 1991). As the Second Circuit recognized, it was “[b]ased on this language”
that this Court “has held that, as a general matter, state substantive law is controlling
in FSIA cases.” Id. at 960 (citing First Nat. City Bank v. Banco Para El Comercio
Exterior de Cuba, 462 U.S. 611, 622 n.11 (1983) (“[W]here state law provides a rule
of liability governing private individuals, the FSIA requires the application of that
rule to foreign states in like circumstances.”)).
In light of the fact that the FSIA is a pass-through jurisdictional statute, the
Second Circuit and other courts have reasoned that the rules of decision should be
based on the forum state’s choice-of-law rules. As the Second Circuit observed in
Bank of New York v. Yugoimport, 745 F.3d 599, 609 n.8 (2d Cir. 2014):
The FSIA operates as a pass-through, granting federal courts
jurisdiction over otherwise ordinary actions brought against foreign
states. It provides foreign states and their instrumentalities access to
13

federal courts only to ensure uniform application of the doctrine of
sovereign immunity.
See O’Bryan v. Holy See, 556 F.3d 361, 381 (6th Cir. 2009) (the FSIA was intended
to operate as a “‘pass-through’ to state law principles” (citing Pescatore v. Pan
American World Airways, Inc., 97 F.3d 1, 12 (2d Cir. 1996)). Of course, when an
action is brought in state court, the forum state’s choice-of-law rules apply. See,
e.g., ABF Cap. Corp. v. Grove Properties Co., 126 Cal. App. 4th 204, 215 (2005)
(“If there is no contractual choice-of-law provision, and California is the forum state,
California employs a three-step examination to determine which law to apply . . . .”).
Because the FSIA’s goal is to “apply[] identical substantive laws to foreign
states and private individuals,” Barkanic, 923 F.2d at 959–60, this Congressional
goal of equal treatment of foreign states “cannot be achieved unless a federal court
utilizes the same choice-of-law analysis in FSIA cases as it would apply if all the
parties to the action were private.” Id. And that is the choice-of-law rule of the forum
state.
Application of the forum state’s choice-of-law rules also comports with the
Congressional framework because the FSIA “codifies, as a matter of federal law, the
restrictive theory of sovereign immunity,” Republic of Austria v. Altmann, 541 U.S.
677, 691 (2004), and directs its application in both state and federal courts. Id.
(FSIA’s “preamble states that ‘henceforth,’ both federal and state courts should

14

decide claims of sovereign immunity in conformity with the Act’s principles. 28
U.S.C. §1602.”).
The Second Circuit in Barkanic analyzed the FSIA’s history at length:
Our conclusion that forum law provides the proper choice of law rules
for FSIA cases is supported by the statute’s legislative history. As we
noted in Verlinden B.V. v. Central Bank of Nigeria, 647 F.2d 320 (2d
Cir.1981), rev’d on other grounds, 461 U.S. 480 (1983), when
Congress created the FSIA, it did not intend to alter the substantive law
of liability or “to create new federal causes of action,” but sought only
“to provide ‘access to the courts in order to resolve ordinary legal
disputes.’” Id. at 326 (quoting legislative history) (emphasis omitted).
Based on that goal, we suggested in dicta that “‘state substantive law,
including choice of law rules, will be applied if the issue before the
court is non-federal.’” Id. at 326 n.19 (quoting legislative history)
(emphasis added). Any other conclusion would permit courts to apply
different substantive laws than those that would control if jurisdiction
over the foreign state were based on diversity of citizenship—as it was
before the FSIA was enacted—and would therefore alter the
substantive law of liability in violation of congressional intent.
923 F.2d at 960 (emphasis added). Alteration of “the substantive law of liability”
is, of course, what occurred here under the Ninth Circuit’s federal common law
approach. See Oveissi v. Islamic Republic of Iran, 573 F.3d 835, 841 (D.C. Cir.
2009) (“We thus agree with the Second Circuit that applying the forum state’s
choice-of-law principles, rather than constructing a set of federal common law
principles, better effectuates Congress’ intent that foreign states be ‘liable in the
same manner and to the same extent as a private individual’ in FSIA actions. 28
U.S.C. § 1606.”). By contrast, the Ninth Circuit’s “federal common law” rule means
that the same FSIA claim would be subject to a different choice-of-law rule if
15

brought in federal court, since a state court hearing the same claim would apply its
state’s choice-of-law rules, thereby defeating Congress’ mandate for consistency in
the liability standards for foreign sovereigns and private parties.
Furthermore, the Ninth Circuit’s position that “federal common law” governs
choice-of-law for state law FSIA claims violates this Court’s proscription against
federal courts applying federal common law except in situations where it is
“necessary to protect uniquely federal interests.” Rodriguez v. Federal Deposit Ins.
Corp, 140 S. Ct. 713, 717 (2018) (“there is ‘no federal general common law,’” and
“common lawmaking must be ‘necessary to protect uniquely federal interests’”
(citations omitted)).
Nothing in the court of appeals’ choice-of-law analysis, either in this case or
in prior Ninth Circuit decisions, identifies a “uniquely federal interest” that is
“necessary to protect” through the application of federal common law. As this Court
succinctly stated in Rodriguez, “Nothing like that exists here.” Id. To the contrary,
the FSIA expressly identifies an interest in ensuring that foreign nations are “liable
in the same manner and to the same extent as a private individual” in FSIA actions.
28 U.S.C. § 1606. As this case demonstrates, the Ninth Circuit’s rule grants TBC
protection that a private gallery sued in California state court would not receive,
namely the benefit of choice-of-law analysis under federal common law and the
Restatement.
16

Finally, proper application of California choice-of-law principles requires
application of California substantive law, which indisputably voids TPC’s title to the
Painting. See App. C at 18; Cassirer III, 862 F.3d at 960 (“Under California law,
thieves cannot pass good title to anyone, including a good faith purchaser.”).
Although the district court did make an alternative finding that Spanish substantive
law would apply under California’s choice-of-law test, the court of appeals did not
reach this issue. See App. C at 20 n.9; id. at 962 n.9.
California uses the three-step governmental interest test for choice-of-law
issues. Kearney v. Salomon Smith Barney, Inc., 39 Cal. 4th 95, 107 (2006).
First, “the court determines whether the relevant law of each of the potentially
affected jurisdictions [here, California and Spain] with regard to the particular issue
in question is the same or different.” Id. There is no dispute that the difference here
is profound—California law recognizes that victims of theft may recover their
property from a transferee in virtually all circumstances, while Spain’s doctrine of
acquisitive prescription imposes a far higher burden on the victim.
Second, the court examines whether each state has an interest “in the
application of its own law under the circumstances of the particular case to determine
whether a true conflict exists.” Id. at 107–08.
Third, if a “true conflict” exists between the interests of the respective states,
the court “carefully evaluates and compares the nature and strength” of each state’s
17

interests, and, will apply the state’s law whose interest would be “more impaired if
its law were not applied.” Id. at 108. In doing so, California law “will be displaced
only if there is a compelling reason for doing so.” Kasel v. Remington Arms Co., 24
Cal. App. 3d 711, 731 (1972); see Strassberg v. New England Mut. Life Ins. Co., 575
F.2d 1262, 1264 (9th Cir. 1978). In addition, “a state is not required to enforce a
law obnoxious to its public policy.” Griffin v. McCoach, 313 U.S. 498, 507 (1941).
It is undisputed that California has a strong interest in preventing the transfer
of stolen personal property and ensuring its return to the victim of the theft. For
example, under California law thieves cannot transfer good title, see Crocker Nat’l
Bank v. Byrne & McDonnell, 178 Cal. 329, 332 (1918); and adverse possession does
not apply to personal property, People v. Smith, 2004 WL 2240112, at *4 (Cal. Ct.
App. Oct. 6, 2004).
Similarly, California’s adoption of CIV. PROC. CODE § 338(c)(3)(A), pursuant
to which the statute of limitations for restitution of stolen artworks begins to run only
upon “actual discovery” is an expression of California’s strong policy interest in
protecting the rights of victims such as Petitioners. The fact that this extended
limitations period applies only to claims against museums (and galleries, auctioneers
and dealers)—but not against private individuals—further demonstrates that the
Legislature made a deliberate policy decision as to where a fair balance rests as

18

between the victim of theft and even an innocent purchaser.5 In doing so, California
was rejecting a policy (like Spain’s here) which allows the retention of stolen art
based merely on the passage of time.
Similarly, in adopting the HEAR Act, Congress made it the policy of the
United States to allow enforcement of claims for Nazi looted artworks for six years
following “actual discovery.” Congress identified the “Purposes” of the Act as
including:
To ensure that laws governing claims to Nazi-confiscated art and other
property further United States policy as set forth in the Washington
Conference Principles on Nazi-Confiscated Art, the Holocaust Victims
Redress Act, and the Terezin Declaration.
HEAR Act, § 3(1), 130 Stat. 1525–26. Of particular significance here, Congress
expressly decreed that such claims may be pursued “Notwithstanding . . . any
defense at law relating to the passage of time.” Id. § 5(a).
In this case, the district court decided that Spain’s interest in applying its
acquisitive prescription rule would not be “more impaired” than California’s
interests under the state’s choice-of-law rules. But acquisitive prescription is a
defense “relating to the passage of time” in the words of the HEAR Act. This is
confirmed by the district court’s enumeration of Spain’s relevant interests as being:

5

For example, a museum or dealer generally has far greater expertise and access to
relevant information concerning a work of questionable provenance than a private
purchaser.
19

“certainty of title, protecting defendants from stale claims, and encouraging
plaintiffs not to sleep on their rights.” App. D at 8; Cassirer v. Thyssen-Bornemisza
Collection Found., 153 F. Supp. 3d 1148, 1157 (C.D. Cal. 2015) (emphasis added).
All of these interests plainly relate to and derive from the mere “passage of time,”
and as such, the acquisitive presumption defense cannot be enforced in United States
courts under the HEAR Act.
Moreover, the “purpose” of the HEAR Act was to “ensure that laws governing
claims to Nazi-confiscated art further” the policies set forth in the Washington
Principles and Terezin Declaration.6 HEAR Act, § 3(1) 130 Stat. 1525–26. Those

See Terezin Declaration on Holocaust Era Assets and Related Issues, U.S. DEP’T
OF STATE (June 30, 2009) (“Terezin Declaration”), https://www.state.gov/pragueholocaust-era-assets-conference-terezin-declaration/, and Washington Conference
Principles on Nazi-Confiscated Art (“Washington Principles”), U.S. DEP’T OF STATE
(Dec. 3, 1998), https://www.state.gov/washington-conference-principles-on-naziconfiscated-art/. The Terezin Declaration and Washington Principles are federal
policies that charge participating countries (including the United States and Spain)
with the responsibility of ensuring that Nations remedy—not perpetuate—the
injustices of the Nazi regime, including by protecting victims from wrongful
property dispossession. See Terezin Declaration; Washington Principles; Von Saher
v. Norton Simon Museum of Art at Pasadena, 754 F.3d 712, 721 (9th Cir. 2014)
(Washington Principles and Terezin Declaration constitute “federal policy.”)
6

Federal policy supporting Americans’ rights to recover property looted by the
Nazis in U.S. courts dates back at least to the April 13, 1949 Letter from Jack B.
Tate, Acting Legal Advisor, Department of State: “The letter . . . states that it is this
Government’s policy to undo the forced transfers and restitute identifiable property
to the victims of Nazi persecution wrongfully deprived of such property; and sets
forth that the policy of the Executive, with respect to claims asserted in the United
States for restitution of such property, is to relieve American courts from any
20

same policies were adopted by Spain when it ratified the Washington Principles and
Terezin Declaration.

Spain’s adoption of these policies constitutes public,

international acknowledgement, made outside the context of particular litigation
considerations, that its interests in the restitution of Nazi looted art is in alignment
with, and not contrary to, the interests of California and the United States. Spain,
like the United States, is committed to “achieve just and fair solutions” to “make
certain that claims to recover such art are resolved . . . based on the facts and merits
of the claims.” Terezin Declaration. Thus, notwithstanding the applicability of
Spain’s acquisitive prescription rule to personal property generally, Spain has
effectively adopted a national policy eschewing the pursuit of that interest in cases
of Nazi-confiscated art.
In light of Spain’s policy position as evidenced by its adoption of these
international agreements, it is clear that the specific, targeted interests of California
and the United States in allowing claims against museums for the return of Nazistolen artworks would be “more impaired,” Kearney, 39 Cal. 4th at 108, by
enforcement of Spain’s adverse possession rule, as compared to Spain’s interest in

restraint upon the exercise of their jurisdiction to pass upon the validity of the acts
of Nazi officials.” Bernstein v. N.V. Nederlandsche-Amerikaansche StoomvartMaatschappij, 210 F.2d 375, 376 (2d Cir. 1954) (quoting Tate Letter). The State
Department’s issuance of the Tate Letter in 1949 is regarded as the official
cornerstone of the United States’ formal adoption of the “restricted” view of
sovereign immunity, the basis of Congress’ eventual enactment of the FSIA in 1976.
See generally Republic of Austria v. Altmann, 541 U.S. 677, 691 (2004).
21

enforcing that general rule of property law.

Indeed, application of Spain’s

acquisitive prescription rule not only directly impairs the express policy interests of
California and the United States, it also contravenes Spain’s own endorsement of the
principles of restitution relating to the Nazi genocide in the Washington Principles
and Terezin Declaration. In this context, those principles are not, as the courts below
asserted, see App. A at 8–9 n.3; Cassirer IV, 824 F. App’x at 457 n.3; App. B at 33,
merely “moral” imperatives that justify hand-wringing but not effective action.
Rather, they have meaningful legal significance in the application of California’s
choice-of-law rules. Likewise, for the foregoing reasons, the requisite “compelling
reason” does not exist for California to “displace” its own rules, Kasel, 24 Cal. App.
3d at 731, and California need not “enforce a law obnoxious to its public policy.”
Griffin, 313 U.S. at 507.7
Under proper application of California choice-of-law rules, California
substantive law must be applied in this case, and the Cassirers’ claim to the Painting
upheld.

Even if the court of appeals were correct in applying federal common law, it erred
in its evaluation of the choice-of law factors in the Restatement (Second) of Conflict
of Laws, among other reasons, by failing to give appropriate weight to the interests
discussed in the text.
22
7

CONCLUSION
For the foregoing reasons, the Petition for Certiorari should be granted.
Respectfully submitted,
STEPHEN N. ZACK
ANDREW S. BRENNER
ROSSANA BAEZA
BOIES SCHILLER FLEXNER LLP
100 SE Second Street, Suite 2800
Miami, FL 33131
(305) 539-8400

DAVID BOIES
Counsel of Record
BOIES SCHILLER FLEXNER LLP
333 Main Street
Armonk, NY 10504
(914) 749 8200
dboies@bsfllp.com

SAMUEL J. DUBBIN, P.A.
DUBBIN & KRAVETZ LLP
1200 Anastasia Avenue, Suite 300
Coral Gables, FL 33134
(305) 371-4700

DAVID A. BARRETT
BOIES SCHILLER FLEXNER LLP
55 Hudson Yards
New York, NY 10001
(212) 446-2300

LAURA W. BRILL
NICHOLAS DAUM
Kendall Brill & Kelly LL P
10100 Santa Monica Boulevard
Los Angeles, CA 90067
(310) 556-2700
Counsel for Petitioners
Dated: May 6, 2021

23

APPENDIX A

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 1 of 9

FILED

NOT FOR PUBLICATION

AUG 17 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
DAVID CASSIRER; et al.,
Plaintiffs-Appellants,

No.

U.S. COURT OF APPEALS

19-55616

D.C. No.
2:05-cv-03459-JFW-E

v.
THYSSEN-BORNEMISZA COLLECTION
FOUNDATION, an agency or
instrumentality of the Kingdom of Spain,

MEMORANDUM*

Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
John F. Walter, District Judge, Presiding
Argued and Submitted July 7, 2020
Pasadena, California
Before: CALLAHAN, BEA, and IKUTA, Circuit Judges.
Plaintiffs David Cassirer, the estate of Ava Cassirer, and the United Jewish
Federation of San Diego County (collectively “the Cassirers”) appeal from the
district court’s judgment, entered after a bench trial, in favor of Defendant ThyssenBornemisza Collection Foundation (“TBC”) in the Cassirers’ action to recover a

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 2 of 9

painting by Camille Pissarro, a French Impressionist, which was stolen from their
ancestors by the Nazi regime in 1939 (“the Painting”). In a prior appeal, we reversed
the district court’s grant of summary judgment in favor of TBC because there were
genuine issues of material fact whether TBC knew the Painting was stolen when it
purchased the Painting from the Baron Hans Heinrich Thyssen-Bornemisza (the
“Baron”) in 1993.1 Cassirer v. Thyssen-Bornemisza Collection Foundation, 862
F.3d 951, 973 (9th Cir. 2017). In that prior appeal, we explained that if TBC had
actual knowledge the Painting was stolen, TBC could be found by the trier of fact to
be an encubridor (an “accessory after the fact”) under Spain Civil Code Article 1956
(“Article 1956”) who could not have acquired title to the Painting through
acquisitive prescription. Id. at 972–73. After a bench trial, the district court
concluded that TBC acquired title to the Painting pursuant to Spain’s law of
prescriptive acquisition because TBC did not have actual knowledge that the
Painting was stolen when it purchased the Painting from the Baron in 1993.
We have jurisdiction over the district court’s final judgment pursuant to 28
U.S.C. § 1291. We review the district court’s factual findings for clear error and the
district court’s conclusions of law de novo. Kohler v. Presidio Int’l, Inc., 782 F.3d
1064, 1068 (9th Cir. 2015). We affirm.

1

TBC purchased the Painting from Favorita Trustees Limited, an entity of the
Baron. We refer to Favorita and the Baron collectively as “the Baron.”
2

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 3 of 9

1.

As a threshold matter, the Cassirers request that our 2017 decision be

revisited en banc. The Cassirers argue that we erred in holding that (1) Spanish law
governs their substantive claims; (2) the Holocaust Expropriated Art Recovery Act
does not bar Spain’s acquisitive prescriptive defense; (3) Spain’s Historical Heritage
Law does not prevent TBC from acquiring the Painting by acquisitive prescription;
(4) Spain’s acquisitive prescription laws did not violate the European Convention on
Human Rights; (5) and Spain satisfied the element of public possession necessary to
establish acquisitive prescription under Spanish law. Our prior holdings are both
law of the case and binding precedent that we must follow in this appeal. See
Nordstrom v. Ryan, 856 F.3d 1265, 1270 (9th Cir. 2017). Because the Cassirers
have not identified any new factual or legal developments since our prior decision
that require us to reconsider any of those five holdings, we disagree that our 2017
decision should be revisited en banc and will not take any steps toward en banc
review.
2.

The district court applied the correct legal standard for determining

actual knowledge under Article 1956. A litigant may satisfy Article 1956’s actualknowledge requirement through proof of willful blindness on the part of the receiver
of stolen property. See Spanish Supreme Court Judgment (“SSCJ”), Feb. 24, 2009
(RJ 2009/449); SSCJ, June 28, 2000 (RJ 2000/6080). According to the Cassirers,
there are two alternative tests for willful blindness: (1) the “high risk or

3

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 4 of 9

likelihood” test, which considers whether “the illicit origin of the chattel is highly
probable in light of the existing circumstances,” and (2) the “perfectly imagined”
test, which considers whether “the perpetrator could have perfectly imagined the
possibility” “that the goods have their origin in a crime against personal property or
socio-economic order.” SSCJ, Feb. 24, 2009 (RJ 2009\449). The Cassirers argue
the district court should have applied the perfectly imagined test rather than the high
risk or likelihood test to determine whether TBC was willfully blind to the illicit
origin of the Painting because the perfectly imagined test has a lower standard of
proof. We disagree.
We are not convinced that the perfectly imagined and high risk or likelihood
tests are different tests for willful blindness or that the perfectly imagined test has a
lower standard of proof than the high risk or likelihood test used by the district court.
Both appear to be verbal formulas that require the trier of fact to evaluate
circumstantial evidence after taking into account objective indications, if any, of
prior theft of the object, as well as the subjective knowledge and experience of the
accused encubridor. To the extent the perfectly imagined test is a different, lower
standard of proof than the high risk or likelihood test for willful blindness, the district
court’s failure to address the perfectly imagined test is harmless because the Spanish
Supreme Court has not mentioned or applied the perfectly imagined test for willful
blindness in a case analogous to the present case. Although the Cassirers and Amici

4

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 5 of 9

rely on several Spanish decisions that mention or apply the perfectly imagined test
for willful blindness, none of those decisions involve stolen artwork or a receiver
who purchased stolen goods from a seller that had an invoice reflecting that he had
purchased the stolen goods from an established and well-known art gallery. See
SSCJ, Nov. 4, 2009 (RJ 2010/1996) (concluding the receiver of a stolen handbag
“could not have been unaware of the illegal origin” of the handbag because it
contained an identification card and bracelet belonging to someone other than the
seller of the handbag); SSCJ, Feb. 24, 2009 (RJ 2009/449) (reciting, but not stating
whether it applied, the perfectly imagined test where the defendant purchased stolen
cars from a dealer he knew, produced documentation to get licenses for the cars in
Belgium using false numbers, stored the cars in his garage spaces, and sold the cars
in Malaga, Spain); SSCJ, June 28, 2000 (RJ 2000/6080) (concluding a receiver of
stolen jewelry “could have perfectly imagined” that the jewelry was stolen because
he purchased the jewelry from a seller he did not know, “did not ask for proof or
explanation of” the seller’s possession of the jewelry, and sold the jewelry at an
auction to “profit without any risk”); Álava Provincial Court, May 13, 2019, JUR
2019/224552 (holding the receiver of a stolen cellphone knew or could have
imagined the cellphone was stolen because he purchased it at a street market without
a box, charger, or warranty for less than half of the cellphone’s fair market value and
then sold it in a different town through a proxy); Las Palmas de Gran Canaria

5

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 6 of 9

Provincial Court, March 1, 2019, JUR 2019/194217 (concluding the defendant had
knowingly received stolen clothes because the anti-theft magnetic strips were still
attached to the clothes). Thus, we reject the Cassirers’ argument that the district
court applied the incorrect test for actual knowledge under Article 1956; or even if
the district court applied the incorrect test, any error was harmless.
3.

The district court’s finding that the Baron lacked actual knowledge that

the Painting was stolen was not clearly erroneous. Although parts of the record
suggest that the Baron may have had knowledge the Painting was stolen when he
purchased it from the Stephen Hahn Gallery, there is sufficient evidence in the record
from which a trier of fact could conclude that the Baron lacked actual knowledge
that the Painting was stolen.2 The district court found that the Baron lacked actual
knowledge of the theft based in part on evidence that the Baron purchased the
Painting for fair market value from a reputable art dealer while the Painting was

2

The district court found that the Baron’s employee mistakenly recorded false
provenance information about the Painting in the Baron’s purchase notebook: that
the Baron purchased the Painting from the Hahn Gallery in Paris, rather than the
Stephen Hahn Gallery in New York, and listed the name of the Painting as “La Rue
St. Honoré, effet de Soleil, Après-Midi, 1898,” rather than Rue Saint Honoré, aprèsmidi, effet de pluie. The Cassirers accuse the Baron of falsifying the record in his
purchase notebook and argue the district court’s finding that it was a mistake was
clearly erroneous. We reject this argument because there is evidence in the record
from which a trier of fact could find that the erroneous provenance information about
the Painting in the Baron’s purchase notebook was a mistake. Indeed, TBC’s expert
Laurie Stein opined that the false provenance information was a “mistake[],” and
three other paintings, none of which are claimed to have been stolen goods, were
similarly reported as sold in Paris rather than New York.
6

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 7 of 9

publicly displayed and then publicly and frequently exhibited the Painting after
he purchased it, without anyone asserting it had been stolen in the past. Because
the district court’s finding that the Baron lacked actual knowledge that the Painting
was stolen is supported by inferences that may be drawn from facts in the record, it
is not clearly erroneous. See United States v. Hinkson, 585 F.3d 1247, 1262 (9th
Cir. 2009). Therefore, even if the Baron’s knowledge could be imputed to TBC, it
does not cause TBC to have actual knowledge.
The Cassirers argue the district court’s finding that the Baron did not possess
the Painting in good faith under Swiss law satisfies the actual-knowledge
requirement under Article 1956. We reject this argument because lack of good faith
under Swiss law does not equate to having actual knowledge of the theft under
Spanish law. Lack of due diligence in investigating provenance, after proof of
suspicious circumstances, can establish lack of good faith under Swiss law.
Compare Cassirer, 862 F.3d at 975 (citing Swiss Civil Code Articles 3.1, 3.2, and
728) with SSCJ, Nov. 4, 2009 (RJ 2010/1996) (noting that under Spanish law, “[i]t
is . . . not enough to simply suspect the illegal origin; rather, the defendant must be
certain of it”). Thus, even if the Baron’s knowledge of suspicious circumstances is
imputed to TBC, that knowledge does not rise to the level of actual knowledge.
4.

The district court’s finding that TBC lacked actual knowledge that the

Painting was stolen was not clearly erroneous. Although there is evidence in the

7

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 8 of 9

record that suggests TBC had actual knowledge that the Painting was stolen at the
time that it entered the 1993 purchase agreement with the Baron, there is sufficient
evidence in the record from which a trier of fact could find that TBC lacked
actual knowledge that the Painting was stolen.
The district court’s finding that TBC lacked actual knowledge that the
Painting was stolen is based, at least in part, on Fernando Pérez de La Sota’s trial
testimony that, at the time TBC acquired the Painting from the Baron, there was a
“minimal” or “hypothetical” risk that the Baron “did not have good title to the
paintings” that he sold to TBC as reflected in the Baron’s $10 million pledge or
“prenda.” The prenda is not irrefutable evidence that TBC recognized there was a
high risk of defective title to the Painting because the pledge was security for the
satisfaction and performance of all of the Baron’s liabilities and obligations under
the 1993 purchase agreement, not just the Baron’s obligation to sell the paintings
free of claims against title, and the district court weighed other evidence, including
the testimony of de La Sota. Because the district court’s finding that TBC lacked
actual knowledge that the Painting was stolen is supported by inferences that may
be drawn from facts in the record, it is not clearly erroneous.3 See Hinkson, 585 F.3d
at 1262.

3

In 1998, forty-four countries, including the Kingdom of Spain, agreed to
several non-binding principles set forth in the Washington Principles on NaziConfiscated Art. See Washington Conference Principles on Nazi-Confiscated Art,
8

Case: 19-55616, 08/17/2020, ID: 11790597, DktEntry: 62-1, Page 9 of 9

AFFIRMED.

U.S. Department of State (Dec. 3, 1998), https://www.state.gov/washingtonconference-principles-on-nazi-confiscated-art/. The Washington Principles provide,
in relevant part: “If the pre-War owners of art that is found to have been confiscated
by the Nazis and not subsequently restituted, or their heirs, can be identified, steps
should be taken expeditiously to achieve a just and fair solution, recognizing that
this may vary according to the facts and circumstances surrounding a particular
case.” Id. More than 10 years later, in 2009, forty-six countries, including Spain,
reaffirmed their commitment to the Washington Principles by signing the Terezin
Declaration. See Terezin Declaration on Holocaust Era Assets and Related Issues,
U.S. Department of State (June 30, 2009), https://www.state.gov/prague-holocaustera-assets-conference-terezin-declaration/. The Terezin Declaration reiterated that
the Washington Principles “were voluntary commitments that were based upon the
moral principle that art and cultural property confiscated by the Nazis from
Holocaust (Shoah) victims should be returned to them or their heirs, in a manner
consistent with national laws and regulations as well as international obligations, in
order to achieve just and fair solutions.” Id. (emphases added). The Terezin
Declaration “encourage[d] all parties including public and private institutions and
individuals to apply [the Washington Principles].” Id. The preamble to the Terezin
Declaration expressly states that these “moral responsibilities” are “legally nonbinding” principles. Id. (emphasis added).
The district court noted that Spain and TBC’s refusal to return the Painting to
the Cassirers is inconsistent with Spain’s moral commitments under the Washington
Principles and Terezin Declaration. However, the district court found that it could
not force Spain or TBC to comply with these non-binding moral principles, which
counsel for TBC characterized as “guidelines.” It is perhaps unfortunate that a
country and a government can preen as moralistic in its declarations, yet not be
bound by those declarations. But that is the state of the law. See Dunbar v. SegerThomschitz, 615 F.3d 574, 577 (5th Cir. 2010) (“The Terezin Declaration is a
‘legally non-binding’ document.”); see id. at 578 n.2 (referring to the Washington
Principles as “non-binding principles”). We agree with the district court that we
cannot order compliance with the Washington Principles or the Terezin Declaration.
9

APPENDIX B

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 1 of 34 Page ID #:70368

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES -- GENERAL
Case No.

CV 05-3459-JFW (Ex)

Title:

David Cassirer, et al. -v- Thyssen-Bornemisza Collection Foundation

Date: April 30, 2019

PRESENT:
HONORABLE JOHN F. WALTER, UNITED STATES DISTRICT JUDGE
Shannon Reilly
Courtroom Deputy

None Present
Court Reporter

ATTORNEYS PRESENT FOR PLAINTIFFS:
None
PROCEEDINGS (IN CHAMBERS):

ATTORNEYS PRESENT FOR DEFENDANTS:
None

FINDINGS OF FACT AND CONCLUSIONS OF LAW

In this action, Plaintiffs David Cassirer, the Estate of Ava Cassirer (Egidijus Marcinkevicius,
Administrator WWA), and the Jewish Federation of San Diego County (collectively, “Plaintiffs” or
the “Cassirers”) seek to recover the painting, Rue St. Honoré, après midi, effet de pluie, by French
Impressionist Camille Pissarro (the “Painting”). The Painting was wrongfully taken from Plaintiffs’
ancestor Lilly Cassirer Neubauer (“Lilly”),1 by the Nazi regime, and is currently in the possession of
Defendant Thyssen-Bornemisza Collection Foundation (“TBC”), an agency or instrumentality of the
Kingdom of Spain.
After extensive motion practice and three appeals to the Ninth Circuit, this action came
before the Court for trial on December 4, 2018. In accordance with the Ninth Circuit’s instructions
in its most recent remand to this Court, see Cassirer v. Thyssen-Bornemisza Collection
Foundation, 862 F.3d 951 (9th Cir. 2017), the trial was limited to two main questions: (1) Did TBC
have actual knowledge that the Painting was stolen property under Spanish law?; and (2) Did the
Baron Hans Heinrich Thyssen-Bornemisza (the “Baron”) possess the Painting in good faith under
Swiss law?.
Pursuant to the Court’s Second Amended Scheduling and Case Management Order
[Docket No. 351], the parties filed written declarations for each of their witnesses in lieu of their live
direct testimony. Plaintiffs filed declarations for the following six witnesses: (1) David Cassirer; (2)
Jonathan Petropoulos; (3) William H. Smith; (4) Alfredo Guerrero Righetto; (5) Marc-André Renold;
and (6) Gunnar Schnabel. TBC filed declarations for the following eight witnesses: (1) Evelio
Acevedo Carrero; (2) Fernando J. Pérez de la Sota; (3) Laurie A. Stein; (4) Lynn Nicholas; (5)
1

The Court adopts Plaintiffs’ preferred designation and refers to Lilly Cassirer Neubauer as
“Lilly” in its Findings of Fact and Conclusions of Law.
Page 1 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 2 of 34 Page ID #:70369

Mariano Yzquierdo Tolsada; (6) Adriana de Buerba; (7) Dr. Wolfgang Ernst; and (8) Guy Jennings.
The parties also each filed excerpts of the deposition testimony of Claude Cassirer (deceased). All
of Plaintiffs’ and TBC’s declarations and deposition excerpts were admitted into evidence. Trial Tr.
at 6-7.
TBC elected not to cross-examine any of Plaintiffs’ witnesses. Accordingly, none of
Plaintiffs’ witnesses appeared at trial. Plaintiffs elected to cross-examine only four of TBC’s
witnesses -- Mr. Carrero, Mr. de la Sota, Ms. Stein, and Ms. Nicholas. Those witnesses testified at
trial on December 4, 2018.
The parties also offered trial exhibits, numbered from 1-385.2 Although TBC raised
objections to certain of those exhibits at trial, the objections were subsequently withdrawn.
Accordingly, the Court admitted all of the exhibits into evidence.
Post-trial briefing was concluded on February 11, 2019.
After carefully considering all of the evidence, the parties’ trial and post-trial briefs, amicus
curiae briefs, and the arguments of counsel, the Court makes the following findings of fact and
conclusions of law in accordance with Federal Rule of Civil Procedure 52(a)(1):

FINDINGS OF FACT3
I.

THE CASSIRER FAMILY’S OWNERSHIP OF THE PAINTING AND SUBSEQUENT
LOOTING OF THE PAINTING BY THE NAZIS

French Impressionist painter Camille Pissarro completed the Painting in 1897. In 1898,
Pissarro sold the Painting to his primary dealer or agent, Paul Durand-Ruel of Galerie DurandRuel, Paris. On April 11, 1900, Paul Cassirer purchased the Painting from Durand-Ruel. Julius
Cassirer acquired the Painting sometime thereafter.
Lilly Cassirer Neubauer, Plaintiffs’ great-grandmother, inherited the Painting in 1926. As a
Jew, Lilly was subjected to increasing persecution in Germany after the Nazis seized power. In
1939, in order for Lilly and her husband Otto Neubauer to obtain exit visas to flee Germany, Lilly
was forced to transfer the Painting to Jakob Scheidwimmer, a Nazi art appraiser. In “exchange” for
the Painting, Scheidwimmer transferred 900 Reichsmarks (around $360 at 1939 exchange rates),
well below the actual value of the Painting, into a blocked account that Lilly could not access.

2

Some numbers in the sequence were omitted by the parties. The parties also submitted
exhibits related to the 1958 Settlement Agreement, merely to ensure that there is a complete
record for any appeal. The Amended List of Exhibits and Witnesses [Docket No. 591] identifies
each of the exhibits received into evidence.
3

The Court has elected to issue its decision in narrative format because a narrative format
more fully explains the reasons behind the Court’s conclusions. Any finding of fact that constitutes
a conclusion of law is hereby adopted as a conclusion of law, and any conclusion of law that
constitutes a finding of fact is hereby adopted as a finding of fact.

Page 2 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 3 of 34 Page ID #:70370

In 1939, Scheidwimmer participated in a second forced sale involving the Pissarro Painting,
trading it for three German paintings (works by Carl Spitzweg, Heinrich Buerkel, and Franz
Defregger) owned by another German Jew, Julius Sulzbacher, who was also attempting to flee
Germany. Although Sulzbacher obtained possession of the Pissarro Painting, it was ultimately
confiscated by the Gestapo.
In 1943, the Painting was sold at the Lange Auction in Berlin to an unknown purchaser for
95,000 Reichsmarks.
II.

LILLY’S POST-WAR RESTITUTION CLAIM

After the war, the Allies established processes for restoring property to the victims of the
Nazis’ looting. The law in the American Zone of Germany, Military Zone Law No. 59 (“MGL No.
59”), provided for restitution of property, or if the property could not be found, compensation. In
1948, Lilly filed a timely claim against Scheidwimmer under MGL No. 59 for restitution of, or
compensation for, the Painting. Sulzbacher also filed claims under MGL No. 59 seeking restitution
of, or compensation for, the Painting and the three German paintings. In 1954, the Court of High
Restitution Appeals (“CORA”) of the Allied High Commission published a decision that confirmed
that Lilly owned the Painting (“1954 CORA decision”).
In 1957, after the German Federal Republic regained its sovereignty, Germany established
a law governing claims related to Nazi-looted property known as the Brüg. Lilly then dropped her
restitution claim against Scheidwimmer, and initiated a claim against Germany for compensation
based on the wrongful taking of the Painting. Grete Kahn, Sulzbacher’s heir, was also a party to
this action. The parties to the action against Germany, including Lilly, were unaware of the
location of the Painting (and believed that it had been lost or destroyed during the war). In
addition, only two of the German paintings originally owned by Sulzbacher were available for
return. Accordingly, in 1958, the parties entered into a settlement agreement (the “1958
Settlement Agreement”), which provided that: (1) Germany would pay Lilly 120,000 Deutschmarks
(the Painting’s agreed value as of April 1, 1956); (2) Grete Khan would receive 14,000
Deutschmarks from the payment to Lilly; and (3) Scheidwimmer would receive two of Sulzbacher’s
three German paintings. Although Lilly settled her claim for monetary compensation with the
German government, she did not waive her right to seek restitution or return of the Painting. See
Order dated March 13, 2015 [Docket No. 245]; Cassirer v. Thyssen-Bornemisza Collection
Foundation, 862 F.3d 951, 977-79 (9th Cir. 2017).
III.

POST-WAR PROVENANCE

Without Lilly’s knowledge, the Painting surfaced in the United States in 1951. On July 18,
1951, the Frank Perls Gallery of Beverly Hills arranged to sell the Painting to Sidney Brody, an art
collector in Los Angeles, for $14,850. The Frank Perls Gallery received a commission of $3,105
for arranging the sale of the Painting to Mr. Brody. The invoice for the Painting states that it was
purchased for Mr. Brody from “Herr Urban thru Union Bank & Trust Co.” Trial Exhibit 36. It
appears that the Painting came from Herr Urban’s collection in Munich, Germany. Trial Exhibit 65.
Prior to arranging the sale of the Painting to Mr. Brody, Frank Perls and E. Coe Kerr of M.
Knoedler & Co. (“Knoedler”) (an art dealer in New York City) attempted to determine if the
Page 3 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 4 of 34 Page ID #:70371

Painting could have been a looted or stolen artwork. Specifically, it appears that the dealers
reviewed the 1939 Catalogue Raisonné for Camille Pissarro, by Lionello Venturi and Ludovic Rodo
Pissarro (which listed minimal provenance information about the Painting),4 as well as searched a
list of stolen art created after the war.5 Neither of those sources would have revealed that the
Painting had been owned by the Cassirer family or that the Painting had been looted by the Nazis.
Around February 1952, less than a year after Sidney Brody purchased the Painting, Frank
Perls put the Painting back on the art market for Brody, placing it on consignment with Knoedler in
New York. On May 7, 1952, W.F. Davidson of Knoedler wrote to Frank Perls, asking for additional
exhibition and publication information on the Painting. Specifically, Davidson asked Perls: “Any
information you have on collections to complete our pedigree would be very helpful.” Trial Exhibit
42. A handwritten note on the letter indicates, “info given by telephone.” Id.
In May 1952, Sydney Schoenberg, an art collector in St. Louis, Missouri, purchased the
Painting from Knoedler for $16,500. Schoenberg maintained the Painting in his collection in his
hometown of St. Louis. A picture and detailed description of the Painting was included in an article
written by Perry T. Rathbone, the then director of the St. Louis Art Museum, about the Schoenberg
Collection in St. Louis. The article appeared in May 1954 in the London and New York editions of
the Connoisseur magazine. The Connoisseur article did not mention Lilly or the Cassirer family.
Trial Exhibit 26.
The Painting remained in the United States for approximately 25 years from 1951 to 1976.
IV.

THE BARON’S PURCHASE AND POSSESSION OF THE PAINTING
A.

The Baron’s Purchase of the Painting from the Stephen Hahn Gallery in New
York.

In 1975 or 1976, the Painting was sent to the Stephen Hahn Gallery in New York City on
consignment, presumably by the Schoenberg estate. The Stephen Hahn Gallery was a prominent
gallery, specializing in Impressionist and Modern Art, and due to its reputation, was able to
command high prices from collectors. In or around October and November 1976, the Painting was
publicly exhibited at the Stephen Hahn Gallery. Trial Exhibit 320.
In October 1976, Baron Hans Heinrich Thyssen-Bornemisza of Lugano, Switzerland (the
“Baron”) personally visited and saw the Painting at the Stephen Hahn Gallery in New York. The
4

A catalogue raisonné is an annotated publication of all of the known works of an artist, and
usually includes provenance, bibliographic, and exhibition histories for each artwork.
5

In a letter from E. Coe Kerr of Knoedler to Frank Perls dated February 24, 1951, there is a
handwritten note regarding the Painting which states: “#1018 in Venturi & are you sure there is no
wartime juggle? - it is not listed among the stolen pictures.” Trial Exhibit 38. (The Painting was
image #1018 in the 1939 Venturi Catalogue Raisonné). Several months later, in a letter from Kerr
to Perls dated May 11, 1951, there is a handwritten note regarding an unnamed Pissarro which
states: “I find it is in all the books,” apparently a reference to being able to find that painting in the
1939 Venturi Catalogue Raisonné as well as other books. Trial Exhibit 39.
Page 4 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 5 of 34 Page ID #:70372

Baron was a collector of considerable wealth and standing who had an extensive knowledge of the
art market gained over many years. He pored over catalogues and art books before purchasing
art works, and employed curators and other experts to assist him in evaluating the works he was
interested in acquiring. The Baron was undoubtedly aware that there had been massive looting of
art by the Nazis, and it was “generally known” that the Baron’s family (although not the Baron
specifically) had a history of purchasing art and other property that had been confiscated by the
Nazis. Trial Tr. at 81:25-82:6, 116:17-117:2.
The Baron offered Stephen Hahn $300,000 for the Painting. On October 27, 1976, Hahn
wrote to the Baron and advised him that his offer of $300,000 was accepted. $25,000 of that
purchase price was a commission that would be paid to Stephen Hahn. The Baron purchased
three other artworks from the Stephen Hahn Gallery at the same time, specifically, paintings by
Jean-Baptiste-Camille Corot, Paul Cézanne, and Fernando Léger.6
1.

The Baron paid fair market value for the Painting.

The Court finds that the Baron paid fair market value for the Painting in 1976, and that the
commission paid to Hahn (of just under 10% of the purchase price) was consistent with market
norms.
Fair market value is established by market data comparison using similar and like works
wherever possible which have been sold within a similar time frame. Attention is paid to medium,
size, subject matter, date of the work, importance in the artist’s oeuvre, and condition where it is
known. The Painting was completed in 1897, measures 81 cm x 65 cm, and depicts a Parisian
street scene in the rain. There is public information about three sales of comparable Pissarro
paintings for the time frame in question (1976):
(1)

On July 1, 1975, Camille Pissarro’s Soleil, après-midi, la rue de l’Épicerie, Rouen,
81.9 cm x 65.4 cm (1898) was sold by Sotheby’s London for £120,000 (or $262,800;
£1=$2.19). This was the highest publicly reported price paid for a work by Pissarro in
1975.

(2)

On March 17, 1976, Camille Pissarro’s La Mère Jolly raccommodant, 103 cm x 80.7
cm (1874) was sold at Sotheby Parke Bernet for $230,000. This was the highest
publicly reported price paid for a work by Pissarro in 1976. Although this work was
completed earlier than the Painting, it is somewhat larger than the Painting.

(3)

In May 1977, Camille Pissarro’s Boulevard de Montmartre, après-midi, temps de
pluie, 52.5 cm x 66 cm (1897), a work very comparable to the Painting, was sold by
Christie’s New York for $275,000. This was the highest publicly reported price paid
for a Pissarro in 1977. It was completed in the same year as the Painting and

6

With respect to the Cézanne, which the Baron purchased for $1.5 million, Baron was later
quoted in an interview as saying “I neither remember where nor from whom I bought it, nor any
story related to it, only that I always wanted to have a Cézanne and I believe I bought it in Paris.”
Trial Exhibit 343 at 34.
Page 5 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 6 of 34 Page ID #:70373

depicts the same meteorological conditions, namely the wet, glistening, Parisian
streets after a rain. It is somewhat smaller than the Painting but depicts the more
iconic Boulevard de Montmartre.
Based on these comparable Pissarro paintings, and the opinions expressed by TBC’s
expert, Guy Jennings, the Court finds that the price of $275,000 plus the $25,000 commission was
“entirely in line with the prevailing prices at the upper end of the Pissarro market in the mid 1970s.”
Declaration of Guy Jennings [Docket No. 394] at ¶ 37.
The Court finds the contrary opinions of Plaintiffs’ expert William H. Smith unpersuasive.
Mr. Smith opined that the Baron paid far below fair market value for the Painting, and, specifically,
that the Stephen Hahn Gallery should have sold the Painting to the Baron for between $510,000 to
$600,000. Although Mr. Smith agreed that at least two of the above artworks were comparable to
the Painting, he believed that, because the Painting was sold through a dealer, rather than at an
auction, the fair market price should be much higher: “All dealers mark up the price of their
artworks to sell at a profit. This is different from art work sold at auction, the price of which
contains no additional mark up (because there is no dealer) . . . . [A] small gallery operating in a
cheap location might charge a small percentage profit margin – commonly 30-40% on cost, while a
gallery in an expensive location [like the Stephen Hahn Gallery] would likely charge 70-100% on
cost.” Declaration of William H. Smith [Docket No. 408] at ¶¶ 13 -14. However, as pointed out by
TBC’s expert Guy Jennings, Mr. Smith failed to take into account that the Painting was on
consignment and that Stephen Hahn did not own the Painting. Declaration of Guy Jennings
[Docket No. 394] at ¶¶ 31-36. According to Mr. Jennings, when an artwork is on consignment, “a
commission of just under 10% for acting as an agent is entirely consistent with market norms.” Id.
at ¶ 38. Mr. Smith did not testify to the contrary. Instead, Mr. Smith completely disregarded the
$25,000 commission as “irrelevant” because it appeared to be an “advisory commission” paid to a
Lichtenstein entity “Art Council Establishment Vaduz,” rather than a commission paid to Stephen
Hahn. See Declaration of William H. Smith [Docket No. 408] at ¶ 18 n.1. However, as more
recently discovered evidence demonstrates and as Plaintiffs’ admit, the $25,000 commission was
in fact a dealer’s commission, rather than an “advisory commission.” See Trial Exhibit 320;
Stipulated Facts [Docket No. 377] at ¶ 27.
For the foregoing reasons, the Court finds that the Baron paid fair market value for the
Painting in 1976.
2.

The Baron likely saw the remnants of numerous labels on the verso of the
Painting, including a partial remnant of a label from the Cassirer gallery.

The Baron likely inspected both the front and back (or verso) of the Painting before
purchasing it. Trial Tr. 84:14-17. At the time the Baron inspected the Painting, there were
remnants of numerous labels on the verso of the Painting,7 including a remnant of a label from a
gallery owned by members of the Cassirer family, specifically, a gallery run by Bruno and Paul

7

When a master work of art goes to a gallery or exhibition, the establishment places a label
on the verso (back) of the work, typically on the stretcher boards or frame.
Page 6 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 7 of 34 Page ID #:70374

Cassirer in Berlin, Germany.8 The remnant of the label from the Bruno and Paul Cassirer Gallery
bears the partial address “VICTO” of Victoriastrasse 35, refers to “BERLIN”, and bears the partial
German words “KUNST UND VE” (or fully Kunst Und Verlagsanstalt, or Art and Publishing
Establishment), unique to the Bruno and Paul Cassirer Gallery operated between 1898 and 1901.9
Although the partial label from the Cassirer Gallery referenced Berlin, the provenance information
provided to the Baron did not indicate that the Painting had ever been located in Germany.
Indeed, the provenance information provided by the Stephen Hahn Gallery only referenced the
gallery Durand-Ruel in Paris, where the painting was exhibited in 1898 and 1899.
There were no Nazi labels, markings, writings, or suspicious customs stamps on the frame,
verso, or any other part of the Painting. However, some of the labels on the verso of the Painting
appear to have been intentionally torn off or removed. See Trial Exhibits 348, 379.
Despite the minimal provenance information provided to the Baron by the Stephen Hahn
Gallery, the presence of what appear to be intentionally removed labels, and the presence of a torn
label demonstrating that the Painting had been in Berlin, there is no evidence that the Baron made
any inquiries regarding the Painting’s provenance or conducted any investigation of the Painting’s
provenance before purchasing it.10
3.

The Baron’s employee mistakenly recorded that the Painting had been
purchased in Paris.

On November 22, 1976, the Baron received an invoice from the Stephen Hahn Gallery in
New York, reflecting his purchase of the Painting. However, in a notebook recording the Baron’s
purchases, an employee or agent of the Baron erroneously recorded the name of the Painting as

8

In 1898, Paul and Bruno Cassirer opened an art gallery and publishing house, “Bruno und
Paul Cassirer, Kunst und Verlagsanstalt” at Victoriastrasse 35 in Berlin, Germany. In 1901, Bruno
Cassirer left the business to open a separate publishing house, leaving Paul Cassirer to run the art
gallery at Victoriastrasse 35. The Cassirer Gallery, which operated under varying names over the
years, remained in business until 1935.
9

Walter Feilchenfeldt, son of the original Cassirer gallerist Feilchenfeldt (also named Walter)
did not recognize the partial label. Declaration of Laurie A. Stein [Docket No. 412] at ¶ 100.
However, a Cassirer gallery scholar, Bernd Echte, recognized it as a partial label from the Bruno
and Paul Cassirer gallery. Id. at ¶ 102.
10

It does not appear that the Baron customarily conducted detailed investigations into the
prior ownership or whereabouts of the artworks he acquired. According to a New York Times
article, “[i]n 1972, the Italians custom police accused the Baron and some associates of having
played a role in the illegal export of art works from Italy,” but the charges were later dropped or
suspended. Trial Exhibit 367. The Baron reportedly said, “I hope none of the pictures in my gallery
was painted in Switzerland. They were all painted abroad. I buy the stuff in Switzerland and the
United States, but how it gets there I don’t know. I can’t check all that.” Id.
Page 7 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 8 of 34 Page ID #:70375

“La Rue St. Honoré, effet de Soleil, Après-Midi, 1898” (an entirely different Pissarro painting),11 and
as having been purchased from the “Hahn Gallery, Paris” (rather than the Stephen Hahn Gallery in
New York). Trial Exhibit 322. There is a different gallery in Paris, “Galerie Joseph Hahn,” owned
by Stephen Hahn’s father, Joseph Hahn. There is no evidence that the Baron ever owned
Pissarro’s La Rue St. Honoré, effet de Soleil, Après-Midi, 1898” and there is no evidence that the
Painting was ever located at the Galerie Joseph Hahn in Paris.
Later, the provenance for the Painting in publications that accompanied certain of the
Baron’s exhibitions erroneously stated that the Painting was acquired from the “Galerie Joseph
Hahn, Paris” or “Private Collection, Paris,” rather than from the Stephen Hahn Gallery in New York.
Trial Exhibits 172, 174, 176. The name of the Painting, however, had been corrected to reflect that
the Painting was “Rue Saint-Honore, Afternoon: Effect of the Rain”. See, e.g., Trial Exhibit 172.
The Court finds that the mistaken or incorrect provenance recorded in the purchase
notebook was unintentional, and was likely the result of carelessness. The initial incorrect
provenance information likely resulted from the employee’s confusion between the Stephen Hahn
Gallery and the similarly-named gallery in Paris, the Galerie Joseph Hahn. That incorrect
provenance information was then likely copied and repeated in subsequent publications.12
Moreover, an intentional misrepresentation regarding the provenance of the Painting is
inconsistent with, and not supported by, other evidence. For example, on March 21, 1989, Irene
Martin, the Administrative Director and Curator of the Baron’s collection, wrote to John Rewald, a
noted Pissarro expert, and invited him to curate an exhibition at Villa Favorita (scheduled for 1990)
and to prepare a “scholarly and scientific” catalogue on certain paintings in the collection including
the Painting. Trial Exhibit 210. Ms. Martin anticipated that it would take three years to complete
the catalogue. Id. at 1-3. Mr. Rewald, a noted Pissarro expert, declined the invitation in a letter
dated April 13,1989, stating that he could not commit to this task because of pre-existing
commitments. Id. at 4. Had Mr. Rewald accepted Ms. Martin’s offer, he might have discovered
that the Baron had purchased the painting from the Stephen Hahn Gallery in New York, rather than
in Paris (and, as discussed infra, might have even discovered that the Painting had been stolen
from Lilly). Accordingly, had the Baron intended to misrepresent the provenance of the Painting, it
is highly unlikely that he would have asked Rewald to research the Painting, which might have
resulted in the discovery of his misrepresentation.
Furthermore, the provenance information for the other three paintings that the Baron
purchased from the Stephen Hahn Gallery in October 1976 also incorrectly stated that the
paintings were purchased from “Galerie Hahn, Paris” or “Galerie Joseph Hahn, Paris” and not from

11

“La Rue St. Honoré, effet de Soleil, Apres-Midi, 1898" reflects the “effect of sun” in the
afternoon on St. Honoré street, whereas the Painting (Rue St. Honoré, après midi, effet de pluie)
reflects the “effect of rain” in the afternoon on St. Honoré street.
12

Although the Court recognizes that at least one publication stated that the Painting was
acquired from a “Private Collection, Paris” (instead of from Galerie Joseph Hahn, Paris as recorded
in the Baron’s notebook), the Court does not find this misstatement any more significant than the
misstatement that the Painting had been acquired from Galerie Joseph Hahn.
Page 8 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 9 of 34 Page ID #:70376

the Stephen Hahn Gallery in New York. Stipulated Facts [Docket No. 377] at ¶ 30.13 There has
been no claim that any of these three paintings had been looted by the Nazis, and, thus, no
rational reason to obscure their provenance.
Accordingly, the Court finds that carelessness better explains the error in provenance,
rather than intentional misrepresentation. As TBC’s expert Laurie Stein states, “[s]ometimes, an
error in documentation is a simple error in documentation.” Declaration of Laurie A. Stein [Docket
No. 412] at ¶ 153.
B.

The Baron’s Possession of the Painting

Once acquired by the Baron, the Painting was maintained as part of the ThyssenBornemisza Collection (the “TB Collection”) at his Villa Favorita estate in Lugano, Switzerland until
1992, except when it was on public display in exhibitions outside of Switzerland.
In the July 1988 edition of Architectural Digest, The International Magazine of Fine Interior
Design, a 9-page article titled “The Collectors: Baron Hans Heinrich Thyssen-Bornemisza, The
Villa Favorita in Lugano,” featured the Painting and specifically identified it as “Pissarro’s Rue
Saint-Honoré, Effet de Pluie: Après-Midi, 1897.” Trial Exhibit 327. At the time of the article in
Architectural Digest, the Painting hung in the Baron’s dressing room. Although the galleries at Villa
Favorita had been opened to the public on weekends for seven months of the year and on
weekdays when special exhibitions were on display, it is unclear whether visitors would have been
allowed to tour the Baron’s dressing room.
The Painting, however, was often publicly exhibited by the Baron. Specifically, it was
featured in at least one exhibition at Villa Favorita in 1990 as well as several exhibitions around the
world, including ones in Australia and New Zealand in 1979 and 1981; in Tokyo, Japan from May
to July 1984; in London at the Royal Academy of Arts in 1984; in Florence, Italy at the Palazzo Pitti
in 1985; in Dusseldorf and Nuremburg, Germany in 1985; in Paris, France at the City of Paris
Modern Art Museum in 1985 to 1986; and in Spain from February 10 to April 6, 1986. The Painting
was pictured in publications accompanying these exhibitions. As noted supra, the provenance for
the Painting in certain of these publications, however, erroneously stated that the Painting was
acquired from the “Galerie Joseph Hahn, Paris” or “Private Collection, Paris,” rather than from the
Stephen Hahn Gallery in New York. Trial Exhibits 172, 174, 176.
V.

THE LOAN OF THE PAINTING TO THE KINGDOM OF SPAIN

In 1988, Favorita Trustees Limited (“Favorita”), an entity created by the Baron, and the
Kingdom of Spain reached an agreement that the Baron would loan a large portion of the TB
Collection (the “Loan Collection”), including the Painting, to the Kingdom of Spain, for a period of

13

The parties stipulated that TBC’s provenance report for the four paintings that the Baron
purchased from the Stephen Hahn Gallery in October 1976 (including the Painting) incorrectly
stated that they were purchased from the Baron from “Galerie Hahn, Paris” or “Galerie Joseph
Hahn Paris” and not from the Stephen Hahn Gallery in New York. Presumably, the incorrect
provenance information in TBC’s report came from provenance information provided by the Baron.
Page 9 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 10 of 34 Page ID #:70377

up to nine and a half years. Pursuant to that agreement (the “Loan Agreement”), the Kingdom of
Spain created TBC14 to maintain, conserve, publicly exhibit, and promote the Loan Collection’s
artworks (which consisted of 787 artworks). The Kingdom of Spain agreed to display the Loan
Collection at the Villahermosa Palace in Madrid, Spain, which would be restored and redesigned
for its new purpose as the Thyssen-Bornemisza Museum (the “Museum”).15 In addition, in
consideration of the loan, the Kingdom of Spain agreed to pay Favorita $5 million U.S. dollars per
year (that amount to be annually indexed to the U.S. Consumer Price Index).
In the Loan Agreement, Favorita expressly warranted to the Kingdom of Spain that it “owns
the [p]aintings [being loaned] and is entitled to lend the [p]aintings.” Trial Exhibit 83, Clause 32.3.
In addition, as a condition precedent or “suspensive condition” to making the loan, Favorita was
required to provide a certificate to the Kingdom of Spain stating that “it owns directly all [p]aintings
forming part of the Loan Collection.” Id. at Clause 5.1(c). The loan of the paintings was also
conditioned on the Kingdom of Spain receiving legal opinions by its Bermuda, U.K., and Swiss
advisors, among others, that Favorita had the authority to enter into and perform the Loan
Agreement (i.e. deliver the paintings to the borrower). Stipulated Facts [Docket No. 377] at ¶ 57;
Trial Exhibit 83, Clause 5.1(c).
Accordingly, in 1989, the Kingdom of Spain, through its legal counsel, conducted an
investigation to verify that Favorita had clear and marketable title to the Loan Collection. The
Kingdom of Spain’s Swiss counsel was primarily responsible for the investigation of title because
the majority of the artworks in the Loan Collection were located in Switzerland.
The Kingdom of Spain and its counsel decided to assume that Favorita had ownership of
the works acquired prior to 1980, and only investigated works that were acquired after 1980.
Counsel selected 1980 as a “root of title” based on the following factors:
(1)

Counsel considered it “almost inconceivable that the family would have made
fraudulent arrangements in regard to ownership of the paintings as far back as 1980
with the intention of frustrating a deal with the Kingdom of Spain eight years later.”
Trial Exhibit 84 at 2-3; see also Trial Exhibit 223 at 490.

(2)

Counsel considered that “any fraud or theft affecting title to the paintings which had
taken place before the paintings were acquired by the family would be unlikely to
affect more than a single painting, or a small group of paintings,” see Trial Exhibit 223
at 489-90, because “presumably [the paintings] will on the whole have been
purchased on a ‘piece meal’ basis from different owners.” Trial Exhibit 84 at 3.

14

TBC is an agency or instrumentality of the Kingdom of Spain, which the Ninth Circuit
previously recognized in Cassirer v. Kingdom of Spain, 616 F.3d 1019, 1027 (9th Cir. 2010). TBC’s
initial board of directors had five members appointed by the Kingdom of Spain and five members
appointed by the Baron.
15

The Kingdom of Spain spent approximately $27 million to refurbish the Villahermosa
Palace and approximately $16 million for costs associated with acquiring and furnishing it with the
necessary equipment, hardware, installations, IT, etc. Stipulated Facts [Docket No. 377] at ¶ 49.
Page 10 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 11 of 34 Page ID #:70378

(3)

Swiss counsel advised that the paintings which belonged to the TB collection in 1980
(and the acquisition of which was regulated by Swiss law) could be assumed to be
owned by Favorita pursuant to the Swiss laws of acquisitive prescription “if, despite
an earlier irregularity, the Baron had acquired the paintings in good faith.” Trial
Exhibit 85. The five year limitation on any potential claims under Swiss law would
have already expired in 1988, and assuming that the Baron had acquired the
paintings in good faith, ownership over those paintings would have “definitely” been
acquired. Trial Exhibit 85; see also Trial Exhibit 223 at 490.

(4)

The Kingdom of Spain was “not actually buying the [paintings] themselves” and
would have “an indemnity and certificate of ownership in any event.” Trial Exhibit 84
at 2.

(5)

The “documentary” title investigation (not including the physical inspection of the
paintings) had to be completed within a short time frame (60 days) in order for the
legal opinions to be issued as required by the Loan Agreement. See Declaration of
Fernando J. Pérez de la Sota [Docket No. 405] at ¶ 50; Trial Exhibit 83, Clause 5.1.

Based on these factors, the Kingdom of Spain and its counsel decided not to conduct any
investigation as to the artworks acquired before 1980. Because the Baron had acquired the
Painting prior to 1980, the Kingdom of Spain and its counsel conducted no investigation of the
Painting’s provenance or title. The Kingdom of Spain and its counsel were aware, however, that if
the Baron had acquired any of artworks (including the Painting) in “bad faith,” or, in other words, if
he “knew or should have known of the lacking right of the transferor,” ownership could not have
been acquired by him. Trial Exhibit 85 at 3. In such a case, “[t]he rightful owner keeps his rights at
all times to claim recovery of the object.” Id. The Kingdom of Spain assumed that the Baron acted
in good faith, because “we simply had no reason to believe otherwise.” Declaration of Fernando J.
Pérez de la Sota [Docket No. 405] at ¶ 56.
Although no investigation was conducted with respect to artworks acquired prior to 1980,
the Kingdom of Spain and its counsel did investigate artworks acquired after that date. Counsel
inspected documents relating to transfers within the Baron’s family structure since 1980 as well as
records in Lugano for paintings acquired after January 1, 1980, including invoices, purchase
agreements, internal memos, payment orders, bank transfers, and confirmation letters.
Documentation regarding acquisitions made after 1983 were more closely scrutinized because the
five-year limitation period on any potential claims under Swiss law had not yet expired. According
to Mr. de la Sota, 164 paintings (50 old masters and 114 modern masters), roughly one fifth of the
Loan Collection, were investigated. Declaration of Fernando J. Pérez de la Sota [Docket No. 405]
at ¶ 96; Trial Exhibit 98; Trial Tr. at 25:20-27:8. None of these investigations revealed any
evidence that the Baron had acted in bad faith.
On February 28, 1989, following their “documentary” investigation, Swiss counsel provided
an opinion to the Kingdom of Spain that stated: “As at the date of hereof all the Paintings of the
Loan Collection are owned by FAVORITA TRUSTEES LIMITED.” Trial Exhibit 51 at 6. This
opinion was specifically limited by the “qualification that it is based on the assumption that no third
party outside of the group of entities controlled by [the Baron] has any claim under any applicable

Page 11 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 12 of 34 Page ID #:70379

law to recover an object on the basis of prior theft, embezzlement, abuse of trust and similar
reasons or on the acquisition or possession in bad faith by [the Baron] or the entities he controls.”
Id. at 7.
On June 22, 1992, the Museum received the Painting. TBC’s art experts inspected and
analyzed the condition of the Painting on June 26, 1992, which included an inspection of the front
and back of the Painting. Tr. Transcript 33:13-34:17; Trial Exhibit 217. The purpose of the
inspection was to determine if the Painting had been damaged during its transfer from Switzerland
to Spain. Declaration of Fernando J. Pérez de la Sota [Docket No. 405] at ¶¶ 67-69; Trial Tr.
33:13-35:12.
On October 10, 1992, the Museum opened to the public with the Painting on display.
VI.

TBC’S PURCHASE AND POSSESSION OF THE PAINTING

The Kingdom of Spain later sought to purchase the Loan Collection (hereinafter, the
“Collection”). On June 18, 1993, the Spanish cabinet passed Real Decreto-Ley 11/1993,
authorizing the government to enter into a contract allowing TBC to purchase the 775 artworks that
comprised the Collection. In accordance with Real Decreto-Ley 11/1993, on June 21, 1993, the
Kingdom of Spain, TBC, and Favorita entered into an Acquisition Agreement, by which Favorita
sold the Collection, including the Painting, to TBC.
A.

TBC’s Purchase Price and the Value of the Collection

Pursuant to the Acquisition Agreement, TBC purchased the Collection for $338,216,958.09.
The total purchase price was $350,000,000, but the amount paid in connection with the loan
(approximately $12,000,000) was subtracted from that price. TBC’s purchase of the Collection was
entirely funded by the Kingdom of Spain.
In addition to the purchase price, TBC also incurred several onerous obligations, including,
for example, that it would: (1) use the Palace Villahermosa as the “Thyssen-Bornemisza Museum”
in perpetuity; (2) not sell, exchange, charge, pledge, or otherwise alienate, encumber, or dispose of
any artwork in the Collection in any manner whatsoever; (3) with limited exceptions, exhibit the
whole of the Collection to the public at the Museum; (4) with limited exceptions, not exhibit any
work of art which does not form part of the Collection with the Collection at the Museum; (5) keep
the Museum up to standards consistent with best practices of European museums of international
standing, and ensure that the promotion and publicity of the Collection would always be consistent
with the highest standards of artistic merit; (6) arrange for up to ten exhibitions of paintings from
the Collection at the Villa Favorita in Lugano, Switzerland; and (7) maintain specific and exacting
standards for the environmental conditions of the Museum, including restrictions on light, humidity,
temperature, air ventilation and filtration, vibration levels, and security. Trial Exhibit 96. In addition,
as part of the Acquisition Agreement, TBC agreed to amend its by-laws such that: (1) the Thyssen
family would be entitled to appoint one third of the positions on the board of trustees of TBC in
perpetuity; and (2) those Thyssen trustees would have veto power over a number of matters
including the standards of the Museum and the amendment of the by-laws where their rights were
affected.

Page 12 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 13 of 34 Page ID #:70380

Prior to entering into the Acquisition Agreement, both Favorita and TBC requested opinions
as to the value of the Collection. At the request of Favorita, Sotheby’s prepared a mid-estimate
auction value of the Collection as of January 1, 1993, taking into account TBC’s obligations to
purchase, maintain, and house the Collection together as a unit. To arrive at the appraised value,
Sotheby’s began by considering the total “insurance value” for each painting in the Collection as of
1990. The 1990 insurance value of the Collection was $1,692,659,500. Trial Exhibits 214, 342.
Sotheby’s then applied several correcting factors. First, Sotheby’s converted insurance values for
each artwork into mid-auction values as follows: Old Masters and British Pictures pre-1980,
Continental paintings, Prints, and Modern British paintings were discounted by 40% of the
insurance value; Impressionist and Contemporary paintings were discounted by 30% of the
insurance value; and Early American and Contemporary-American paintings were discounted by
25% of the insurance value. Trial Exhibit 214. The 1990 mid-auction values were then adjusted to
reflect the general downtown in the art market between 1990 and 1993 (the date of the new
appraisal) as follows: Contemporary paintings were given a 35% discount; Prints and
Contemporary-American paintings were given a 30% discount; and Impressionist and Continental
paintings were given a 25% discount, including the Painting. Trial Exhibit 214. The 1993 midauction value was then adjusted to reflect the restrictions placed on the purchase of the Collection,
including that the Collection had to be purchased, maintained, and housed together as a unit.
Sotheby’s determined that these restrictive conditions would reduce the total value by some 30 to
50%. Trial Exhibits 214, 229. As a result of these correcting factors, Sotheby’s appraised the
value of the Collection between $495 million and $693 million. Trial Exhibits 229, 241. Sotheby’s
emphasized that “whilst this opinion has been reached after careful consideration, we are not
aware of any directly comparable property disposals on which to base this opinion.” Trial Exhibit
229 at 2.
The Sotheby’s valuation was independently verified, in whole and part, by three
internationally recognized experts selected and appointed by the Kingdom of Spain. One expert,
William B. Jordan, valued the Old Masters. He opined, in relevant part:
The question of the collection’s value becomes something else when taking into
account the conditions of this particular sale – that it must be executed en bloc and
that no paintings may ever be sold by the buyer. . . . . Sotheby’s estimate of a 30%50% discount in the value of the collection to account for the purchase en bloc and
the conveyance of restricted title seems to me entirely justified.
Trial Exhibit 230 at 3. Another expert, Theodore E. Stebbins, provided an opinion on the American
paintings in the Collection, both Early and Contemporary. He opined that the 30% reduction for
Contemporary American Paintings is reasonable and that the Sotheby’s reduction for Early
American paintings should be reduced further. He also opined that: “[t]he[ ] very onerous
conditions [in the Acquisition Agreement] would significantly reduce the monetary value of the
Collection. In my opinion, a further deduction for these conditions of fifty percent (50%) would be
entirely reasonable.” Trial Exhibit 234 at 1. Another expert, François Daulte, was asked to
consider the impressionist, post-impressionist, and modern paintings in the collection (excepting
those paintings by American artists). Daulte stated in a letter to the Spanish Minister of Culture
that the proposed sale price of $350,000,000 seems “realistic and justified.” He based this opinion
on the same factors considered by Sotheby’s as well as TBC’s additional obligation to refurbish

Page 13 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 14 of 34 Page ID #:70381

and use the Palace Villahermosa as a museum for the collection, and the fact that the Baron and
his family would be members on TBC’s board with significant rights. Trial Exhibit 232.
The Kingdom of Spain also asked Juan G. Dominguez Macias, a prominent Spanish
registered auditor, to calculate the value of the main additional obligations which Spain and TBC
had agreed to undertake (other than the purchase price), such as, for example, the refurbishment
of the Palace Villahermosa and its use for the Museum on a permanent basis. Macias established
the value of these additional obligations at roughly 27 billion Spanish pesetas (over $200 million).
Trial Exhibit 238.
Based on the foregoing opinions on valuation, the parties represented and warranted in the
Acquisition Agreement that they each, having been separately advised, “independently formed the
view that the consideration for the purchase of the [Collection] provided by [TBC] is a fair arm’s
length consideration having regard to that advice and the substantial obligations undertaken by
[TBC] under and pursuant to this Agreement and the documents entered into this Agreement and
comprised in the consideration provided by it and all other relevant factors.” Trial Exhibit 96 at 26
(Clause 11.6.6); see also id. at 5.
Based on the evidence, the Court finds that the purchase price paid by TBC for the
Collection – in light of the other commitments and restrictions agreed to by TBC – was fair and
reasonable. The Court rejects Plaintiffs’ claimed valuation of $1 to 2 billion, because it fails to take
into account the additional commitments and restrictions undertaken by TBC.16
B.

Favorita’s Representations and Warranties Regarding Ownership and the
“Pledge” or “Prenda”

As part of the Acquisition Agreement, Favorita represented and warranted to TBC that it
was “the legal owner” of the artworks in the Collection and that TBC would become “the absolute
beneficial owner” of those artworks, including the Painting. Trial Exhibit 96, Clause 11.1.1;
Stipulated Facts [Docket No. 377] at ¶ 69. Favorita also represented and warranted that “[i]t is not
engaged in any litigation or arbitration proceedings which could in any way directly or indirectly

16

Plaintiffs did not retain an expert to independently value the Collection (as of 1993), but
instead merely rely on: (1) a printout from TBC’s website which states that the Collection had an
estimated value of “between one and one and a half billion dollars;” and (2) an article from the Los
Angeles Times, which states that the Collection was valued at $2 billion. Trial Exhibits 53, 132 at
6. However, neither of these sources takes into account TBC’s additional obligations. In fact,
TBC’s website expressly acknowledges that the valuation of one to one and a half billion does not
take into account TBC’s additional obligations: “At that time, the collection was said to have an
estimated value of between one and one and a half billion dollars, a figure calculated taking into
account the prices paid for acquisitions and applying complex indices, comparing them with
insurance figures, looking at transactions on the open market for similar works of art, etc.
However, the Spanish state was no ordinary purchaser, but would acquire a series of obligations
concerning the future of the collection, including the most important obligation: an agreement not to
sell any of the works purchased.” Trial Exhibit 132 at 6.
Page 14 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 15 of 34 Page ID #:70382

affect title to or right to quiet enjoyment” of TBC “to any of the Paintings or any of the provenance
files or the right or title of [Favorita] to the consideration hereunder and it does not know of any
such proceedings pending or threatened or anything which is likely to lead to such proceedings.”
Trial Exhibit 96, Clause 11.6.4. In addition, Favorita represented and warranted that “[n]one of the
Paintings has, to [Favorita’s] actual knowledge (without its having made any enquiry) been illegally
exported from Spain in the past.” Trial Exhibit 96, Clause 11.1.3. Favorita, however, refused to
make any representation or warranty as to “the absence (or otherwise) of knowledge of illegal
exports from any jurisdiction other than Spain.” Trial Exhibit 223 at 487.
In addition, as part of the Acquisition Agreement, Favorita executed a “deed of pledge” or
“prenda” for paintings not included in the Collection with a total value of $10 million as security for
Favorita’s performance under the terms of the Acquisition Agreement. TBC and the Kingdom of
Spain requested this pledge, in part, in order to protect themselves against the risk that there might
be a painting or small group of paintings that could have a title issue. The term of the pledge –
three years – intentionally corresponded to Spain’s three-year good faith acquisitive prescription
period as provided in Article 1955 of Spain’s Civil Code. Declaration of Fernando J. Pérez de la
Sota [Docket No. 405] at ¶ 101.
C.

TBC’s 1993 Title Investigation

The Acquisition Agreement included a condition precedent or “suspensive condition” that
the Kingdom of Spain and TBC receive, and be reasonably satisfied with, legal opinions from its
Swiss counsel and its UK counsel, among others. Trial Exhibit 96, Clause 4.1.6. It also included a
condition precedent or “suspensive condition” that the Kingdom of Spain and TBC be satisfied that
“inspection of the relevant provenance files and title documents and other investigations have not
given rise to serious doubt about [Favorita’s] ability . . . to complete the sale of any of the Paintings
. . . .” Trial Exhibit 96, Clause 4.1.2.
Accordingly, as contemplated by the Acquisition Agreement, the Kingdom of Spain and TBC
conducted a further investigation of title in connection with the purchase of the Collection. The
1989 title investigation was used as a starting point. The Kingdom of Spain’s and TBC’s counsel
again generally assumed that the Baron had acted in good faith and that Favorita owned the works
acquired prior to 1980 based on the Swiss laws of acquisitive prescription. Declaration of Fernando
J. Pérez de la Sota [Docket No. 405] at ¶¶ 96-106; Trial Exhibits 54, 98. Counsel believed that
their assumption regarding ownership was reasonable, given that four additional years had
elapsed since the 1989 investigation and there had been no claims challenging title to the artworks
during that time. Declaration of Fernando J. Pérez de la Sota [Docket No. 405] at ¶ 97; Trial Tr.
46:20-47:15.
Counsel decided that the 1993 title investigation should cover four main categories of
artworks: (1) paintings which had been transferred between members of the Thyssen family or
group after 1980 but which had not been covered by the 1989 title investigation (affecting
approximately 50 paintings); (2) paintings which had been added to the Collection between 1989
and 1993; (3) paintings which would be subject to the pledge by Favorita (even if those paintings
were acquired before 1980); and (4) the 30 most iconic paintings of the Collection (even if those

Page 15 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 16 of 34 Page ID #:70383

paintings were acquired before 1980) (the “Iconic Paintings”).17 Declaration of Fernando J. Pérez
de la Sota [Docket No. 405] at ¶ 103; Trial Tr. 28:18-25, 29:25-30:7; 31:3-9. The investigation of
the Iconic Paintings and the paintings subject to the pledge included an examination of provenance
files and title documents. Trial Exhibits 54, 254 In addition, for all paintings acquired after 1988 for
which counsel could not rely on the Swiss laws of acquisitive prescription, counsel searched the
Art Loss Register to determine whether any of the paintings had been registered as stolen.
Declaration of Fernando J. Pérez de la Sota [Docket No. 405] at ¶ 103. All of the searches were
“clear” – none of the paintings acquired after 1988 had been registered as stolen. Id.
The Painting was not included in any of the categories of artworks investigated by counsel
in 1993. Although counsel’s 1993 title investigation revealed some minor issues,18 no evidence of
the Baron acting in bad faith came to light.
On August 2, 1993, following the 1993 title investigation, Swiss counsel provided an opinion
to TBC and the Kingdom of Spain, which stated that:
1.

As of the date hereof, all the paintings of the Permanent Collection
(Schedule 1 and 2 of the Agreement) as well as all paintings listed in
Appendix 3 of this legal opinion and which are to be subject to the
notarial deed of Prenda are owned by [Favorita].

2.

[Favorita] has title to transfer the ownership of the Permanent Collection
to [TBC] and to put in pledge the paintings which are to be subject to
the notarial deed of Prenda.

Trial Exhibit 54 at 7. The Painting was included on Schedule 2.
Swiss counsel’s opinions, however, were expressly based on an assumption that the Baron
had acquired the artworks in good faith. Indeed, the opinion stated: “All acquisitions are assumed
to have occurred in good faith, bad faith never having been indicated to, nor discovered by us.” Id.
at 11 (emphasis added). Swiss counsel’s opinions were also subject to the following “reservation:”
“No opinion is expressed as to title to any painting of the Permanent Collection and to any painting
selected to be subject to the Prenda which on the basis of bad faith or by reasons not disclosed to
us is subject to any encumbrance or right of third parties to which the painting may be subject in
the hands of [Favorita].” Id. at 13.

17

27 of the 30 Iconic Paintings were acquired before 1980. Trial Tr. 30:9-10, 31:10-12.

18

For example, there was no proof of acquisition for two of the Iconic Paintings but TBC did
not consider this lack of proof problematic because both had been acquired by the Baron’s father
and had appeared in the 1937 catalogue of the TB Collection. Declaration of Fernando J. Pérez
de la Sota [Docket No. 405] at ¶ 105.
Page 16 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 17 of 34 Page ID #:70384

D.

TBC’s Possession of the Painting

The Painting has been on public display at TBC’s Museum in Madrid, Spain since the
Museum’s opening on October 10, 1992, except when on public display during a 1996 exhibition
outside of Spain; while on loan at the Caixa Forum in Barcelona, Spain from October 2013 to
January 2014; and once again while on loan at the Caixa Forum in Barcelona from October 2016
to February 2017.
Since TBC purchased the Painting in 1993, the Painting’s location and TBC’s “ownership”
have been identified in several publications including: (1) Wivel, Mikael: Ordrupgaard. Selected
Works. Copenhague, Ordrupgaard, 1993, p. 44; (2) Rosenblum, Robert: “Impressionism. The City
and Modern Life”. En Impressionists in Town. [Cat. Exp.]. Copenhague, Ordrupgaard, 1996, n. 17,
pp. 16-17, il. 61.; (3) Llorens, Tomas; Borobia, Mar y Alarcó, Paloma: Obras Maestras. Museo
Thyssen-Bornemisza. Madrid, Fundación Collectión Thyssen-Bornemisza, 2000, p. 156, il. p. 157;
and (4) Perez-Jofre, T.: Grandes obras de arte. Museo Thyssen-Bornemisza. Colonia, Tascnen,
2001, p. 540, il. p. 541. Declaration of Evelio Acevedo Carrero [Docket No. 411] at ¶ 32.
Even though TBC possessed the invoice showing that the Baron had purchased the
Painting from the Stephen Hahn Gallery in New York, TBC published the same incorrect
provenance information as the Baron, i.e., that the Painting had been purchased from the Galerie
Joseph Hahn in Paris. Trial Exhibits 57, 109. TBC did not correct the provenance information for
the Painting until after this action was filed.
TBC’s provenance report for the other three paintings that the Baron purchased from
Stephen Hahn in October 1976, all of which were acquired by TBC, also incorrectly states that the
paintings were purchased from “Galerie Hahn, Paris” or “Galerie Joseph Hahn, Paris” and not from
the Stephen Hahn Gallery in New York. Stipulated Facts [Docket No. 377] at ¶ 30. There has
never been a claim that any of these three paintings had been looted by the Nazis.
To date, TBC has receive no claims against any artworks in the Collection, other than the
Painting.
VII.

AVAILABLE INFORMATION REGARDING THE PROVENANCE OF THE PAINTING IN
1976 AND 1993

As indicated supra, neither the Baron nor TBC conducted any investigation into the
provenance of the Painting in 1976 or 1993. However, even if they had, the Court finds that it
would have been extraordinarily difficult for the Baron or TBC to have determined that the Painting
was stolen or looted property.
As an initial matter, the Court finds that the partial label for the Cassirer gallery on the verso
of the Painting would not have led the Baron or TBC to discover that the Painting had been stolen
from the Cassirer family. At most, the Baron and TBC would have been able to trace the label to
the Bruno and Paul Cassirer Gallery operated between 1898 and 1901 in Berlin. However, that
partial label, even if traced to the Bruno and Paul Cassirer Gallery, would not necessarily have
demonstrated that the Cassirer family had even owned the Painting, let alone that it had been

Page 17 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 18 of 34 Page ID #:70385

looted by the Nazis more than thirty years later. Indeed, the Cassirer gallery exhibited a large
number of works in the period around 1900, and many of those works would have had a label from
the Cassirer gallery. More importantly, had TBC or the Baron contacted the son of the original
Cassirer gallerist, Walter Feilchenfeldt, they would have learned that there were no Cassirer
records from that early period, and that there were no existing records indicating that the Cassirer
gallery had ever acquired or owned the Painting. Declaration of Laurie A. Stein [Docket No. 412]
at ¶¶ 100-101.
Moreover, in 1976 and 1993, there was limited published, or accessible, information about
the Painting’s prior ownership. Indeed, despite the fact that the Cassirer family had owned the
Painting for thirty-nine years before the Painting was looted by the Nazis, the 1939 Catalogue
Raisonné for Camille Pissarro, by Lionello Venturi and Ludovic Rodo Pissarro, only mentioned the
early exhibitions of the Painting at the gallery Durand-Ruel in 1898 and 1899. Trial Exhibit 32. It
did not include any reference to Lilly Cassirer Neubauer, the Cassirer Gallery in Berlin, or any other
member of the Cassirer family in the provenance or exhibition history of the Painting.
In the immediate post war years, hundreds of lists and inventories of losses, recoveries,
claims, and missing works were created by the Allied Collection Points (where looted art was
gathered), the recuperation agencies of each country, and investigatory agencies. The Painting
was not on the French lists published during 1947-49, known as Le Répertoire des biens spoliés
en France durant la guerre 1939-1945, nor was it on the lists created by the Munich, Wiesbaden,
and associated Collection Points. The Painting was also not included in any “Stolen Art Alerts,” the
Art Loss Register, or on any other databases of lost or looted art as of 1976 or 1993.
The Painting was included in two 1950 publications about Camille Pissarro (by Gotthard
Jedlicka and Thadée Natanson), but no provenance or ownership history was provided. Although a
picture and detailed description of the Painting was included in the May 1954 article in
Connoisseur magazine about the Schoenberg Collection in St. Louis, it did not mention the
Cassirer family or Lilly.
Moreover, although the 1954 CORA decision confirmed that Lilly owned the Painting, the
published law reporter containing the decision was not widely available (except in specialized law
libraries) and was not a typical resource for provenance researchers. More importantly, the
reporter was indexed by party name (e.g., Lilly Neubauer), not by the name of the artwork or
property at issue, making a search for the Painting in the 12 volume reporter a virtual impossibility
in 1976 and 1993. Unless the investigator knew the name of the parties involved in the case, there
was no practical method to search for the Painting in this set of reporters. Moreover, even if one
recognized the Cassirer label on the back of the Painting, the 1954 CORA decision refers to Lilly
as “Lilly Neubauer” or “Neubauer;” it makes no reference to the name Cassirer.
The CORA decision in the Neubauer case was described by Walter Schwarz in his book,
Rückerstattung nach den Gesetzen der Alliierten Mächte (Restitution under the laws of the Allied
Powers), published by C.H. Beck in 1974. Trial Exhibit 314. However, the book’s description of
the Neubauer case refers only to an untitled Pissarro, and the litigants are not referred to by name
but only as “A” and “B.” The CORA source for the decision is merely cited in a footnote. No
mention is made of Lilly or the Cassirer family.

Page 18 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 19 of 34 Page ID #:70386

A photo card among the Frick Art Library Photo Archive19 resources in New York City
references Schoenberg’s ownership of the Painting and refers to the Connoisseur article. Again,
there is no mention of Lilly or the Cassirer family.
In 1974, John Rewald of the Museum of Modern Art in New York published a study called
Camille Pissarro. The Painting is shown in this book as Figure 41. There is no reference in this
book to Lilly, or the Cassirer family’s ownership of the Painting. However, had the Baron or TBC
contacted Rewald, a noted expert on Pissarro, it is possible that they would have learned that the
Painting had been stolen from Lilly. Rewald was responsible for updating the 1939 Catalogue
Raisonné, which he took over from Pissarro’s son, Ludovic Rodo Pissarro (“Rodo Pissarro”), who
had passed away in 1952. After Rodo Pissarro’s death, Rewald inherited his Pissarro archives,
including a “Photo Card” for the Painting, which noted in handwritten French that the Painting “was
stolen from Madame Lilly Neubauer (Jewish, during the war in Germany), currently 18 Norham Rd,
Oxford.” Trial Exhibit 143 at 2. The source of the information is not recorded on the card. It is not
known if John Rewald ever reviewed Rodo Pissarro’s Photo Cards or if he was aware of the
notations on the Photo Card. However, had the Baron or TBC asked Rewald for provenance
information with respect to the Painting, it is possible that Rewald would have reviewed the Photo
Card and advised that the Painting had been stolen from Lilly.
John Rewald died in 1994, and the project to update the 1939 Catalogue Raisonné was not
completed until the publication of the updated Catalogue Raisonné by Claire Durand-Ruel
Snollaerts and Joachim Pissarro, who jointly worked on the project with the Wildenstein Institute in
Paris, in 2005. The updated 2005 Catalogue Raisonné references the Cassirer family and Lilly in
the provenance information for the Painting, as well as the Nazis’ looting of the Painting. Snollaerts
had discovered the Photo Card referencing the theft of the Painting from Lilly Neubauer in the late
1990s in Rodo Pissarro’s archives (which had been acquired by the Wildenstein Institute after
Rewald’s death). Other than the reference on the Photo Card, there were no other references to
Lilly Neubauer (or the Cassirers) in the Pissarro archives or materials located at the Wildenstein
Institute. According to Snollaerts, she did not become aware of any connection between Neubauer
and the Cassirer family until late 2000, when she was contacted at the Wildenstein Institute by
Connie Lowenthal and Evie Joselow of the Commission for Art Recovery, with inquiries about the
provenance of the Painting.
Significantly, except for the 1954 CORA decision, there was no published information about
Lilly’s ownership of the Painting prior to the 2005 publication of the updated Catalogue Raisonné.
VIII.

CLAUDE CASSIRER’S DISCOVERY OF THE WHEREABOUTS OF THE PAINTING AND
THE ENSUING LITIGATION

Neither Lilly nor any of her heirs attempted to locate the Painting between 1958 and late
1999, because they believed that the Painting had been lost or destroyed during the war. Claude
Cassirer, Lilly’s heir, discovered that the Painting was on display at the Museum sometime in 2000.

19

The Frick Art Library Photo Archive is one of the principal sources for provenance
research.
Page 19 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 20 of 34 Page ID #:70387

On May 3, 2001, Claude Cassirer filed a Petition with the Kingdom of Spain and TBC,
seeking return of the Painting. On May 10, 2005, after his Petition to return the Painting was
rejected, Claude Cassirer filed this action against the Kingdom of Spain and TBC, seeking the
return of the Painting, or an award of damages in the event the Court is unable to order the return
of the Painting.20
CONCLUSIONS OF LAW AND ULTIMATE FINDINGS
It is undisputed that the Nazis stole the Painting from Lilly. Under California law and
common law, thieves cannot pass good title to anyone, including a good faith purchaser. See
Cassirer v. Thyssen-Bornemisza Collection Foundation, 862 F.3d 951, 960 (9th Cir. 2017).
However, as this Court held, and the Ninth Circuit agreed, California law and common law do not
apply in this case. Id. at 960-64. Instead, the Court must apply Spanish law. Id. And, under
Spanish law, TBC is the lawful owner of the Painting.
I.

THE BARON DID NOT POSSESS THE PAINTING IN GOOD FAITH UNDER SWISS LAW
AND THUS DID NOT PASS GOOD TITLE TO TBC.

TBC argues that it acquired ownership of the Painting based on a conveyance from the
Baron (via the 1993 Acquisition Agreement). The effect of the Baron’s conveyance to TBC is
governed by Spanish law, and, under Spanish law, a consensual transfer of ownership requires
title and transfer of possession. Cassirer, 862 F.3d at 974. At the time of the 1993 Acquisition
Agreement, possession of the Painting had already been transferred to TBC pursuant to the Loan
Agreement. Accordingly, as the Ninth Circuit held, “if the Baron had good title to the Painting when
he sold it to TBC, then TBC became the lawful owner of the Painting through the acquisition
agreement.” Cassirer, 862 F.3d at 974. Because Spain applies the law of the situs for movable
property, Spanish law would look to Swiss law to determine whether the Baron acquired title to the
Painting while he possessed it in Switzerland between 1976 and 1992. Id.
TBC argues that the Baron acquired title to the Painting through the Swiss law of acquisitive
prescription. “Under Swiss law, to acquire title to movable property through acquisitive prescription,
a person must possess the chattel in good faith for a five-year period.” Cassirer, 862 F.3d at 975;
see also Swiss Civil Code (ZGB) Art. 728. As the Ninth Circuit held, “[t]he Baron completed the
five-year period of possession between 1976 and 1981.” Cassirer, 862 F.3d at 975.
However, in order for the Baron to have acquired title to the Painting through acquisitive

20

Claude Cassirer died on September 25, 2010, and David Cassirer, Ava Cassirer, and
United Jewish Federation of San Diego County were substituted as plaintiffs in this action. Ava
Cassirer died on March 2, 2018, and the Estate of Ava Cassirer, Egidijus Marcinkevicius,
Administrator WWA, was substituted as a plaintiff in this action. Pursuant to the stipulation of the
parties, the Kingdom of Spain was dismissed without prejudice in August 2011.

Page 20 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 21 of 34 Page ID #:70388

prescription, he must have also possessed the Painting in good faith during the relevant time
period. Under Swiss law, “good faith” is presumed. Swiss Civil Code (ZGB) Art. 3(1). But good
faith can be rebutted by showing that a person “failed to exercise the diligence required by the
circumstances.” See Swiss Civil Code (ZGB) Art. 3(2). Plaintiffs have the burden of
demonstrating that the Baron failed to exercise the diligence required by the circumstances.
Declaration of Dr. Wolfgang Ernst [Docket No. 396] at ¶ 38; Swiss Federal Court Judgment of 18
April 2013, BGE 139 III 305, E 3.2.2.
“The degree of attention, which can be demanded from the buyer, is determined by the
circumstances. What this means in a particular case is largely a matter of discretion.” Swiss
Federal Court Judgment of 18 April 2013, BGE 139 III 305, E 3.2.2 (English translation). In
general, under Swiss law, a purchaser does not have a duty to conduct inquiries as to the seller’s
title; he only has such a duty if there are actual and concrete reasons for suspicion. See, e.g.,
Swiss Federal Court Judgment of 29 March 2018, 5A_962/2017 E. 5.1. In determining whether
there are actual and concrete reasons for suspicion, the Court only considers the circumstances
existing at the time of the transaction. Declaration of Dr. Wolfgang Ernst [Docket No. 396] at ¶¶
42-43.
A.

There were sufficient suspicious circumstances or “red flags”, such that the
Baron had a duty to investigate.

The Court finds that there were sufficient suspicious circumstances or “red flags” which
should have prompted the Baron to conduct additional inquiries as to the seller’s title. Specifically,
the Court finds that the following circumstances, when considered together, should have caused
the Baron, a sophisticated art collector, to conduct additional inquiries: (1) the presence of
intentionally removed labels and a torn label demonstrating that the Painting had been in Berlin; (2)
the minimal provenance information provided by the Stephen Hahn Gallery, which included no
information from the crucial World War II era and which, contrary to the partial label, did not show
that the Painting had ever been in Berlin or Germany;21 (3) the well-known history and pervasive
nature of the Nazi looting of fine art during the World War II; and (4) the fact that Pissarro paintings
were often looted by the Nazis.
Most importantly, the Court finds that the presence of intentionally-removed labels should
have been suspicious to the Baron. According to Plaintiffs’ expert Dr. Jonathan Petropoulos,
“[t]here is no legitimate reason to tear off [ ] labels as they serve the dual purpose of fortifying an
artwork’s authenticity and increasing its value. The removal of such labels is like filing off the serial
number on a stolen gun – clear cause for concern.” Declaration of Jonathan Petropoulos [Docket
No. 417] at ¶ 114. According to TBC’s expert Lynn Nicholas, on the other hand, the fact that
“some labels have been removed or have fallen off in the course of the 100 years since the
Painting was created” is “normal.” Declaration of Lynn Nicholas [Docket No. 399] at ¶ 42. “Labels

21

The Court acknowledges that the minimal provenance information provided by Stephen
Hahn, by itself, would not be cause for concern. In the 1970s, provenance was usually only
referenced if tied to a distinguished or remarkable collection. See Declaration of Laurie A. Stein
[Docket No. 412] at ¶¶ 30, 145.
Page 21 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 22 of 34 Page ID #:70389

are affixed for many reasons. They are not proof of ownership, exhibition or sale. Many dealers
put one on each time a work passes, even temporarily, through their hands in order to keep track
of inventory. Other labels are affixed for exhibitions and shipping, by conservators, for estate
purposes and for auctions. Museums normally have their own labels placed by their registrars.”
Declaration of Lynn Nicholas [Docket No. 399] at ¶ 43. Ms. Nicholas, however, never satisfactorily
explained why such labels would be intentionally removed.
Likewise, TBC’s expert Laurie A. Stein never satisfactorily explained why labels would be
intentionally removed. According to Ms. Stein, “[i]n provenance research, any trace information
from extant labels and markings is an important source of information, a bonus that can lead to key
findings on occasion. However, given the nature of the label materials and the passage of time,
loss of labels and illegibility of verso information is not considered a ‘red flag.’” Declaration of
Laurie A. Stein [Docket No. 412] at ¶ 185. Ms. Stein’s direct testimony was limited to the “loss of
labels” and “illegibility of verso” information, and failed to specifically address the intentional
removal of labels. In addition, when cross-examined, Ms. Stein carefully worded her answers in an
effort to avoid this issue. When asked if people regularly “remove” labels from paintings, she
testified, “[i]n my experience, over the hundred years or so that – of a painting’s existence and the
many places that a painting has been, where it has been exhibited or who’s had it, there are many
instances where labels are no longer present that were once present.” Trial Tr. at 123:8-14
(emphasis added). When asked if it would be suspicious if labels were removed from a painting,
Ms. Stein testified, “[n]ot necessarily, no.” Trial Tr. at 123:2-7. Ultimately, she conceded that a
label which is removed or scraped off could be suspicious under certain circumstances, and that
one would have to investigate or learn why those labels had been removed, where the work had
been, and what those labels might have been. Trial Tr. at 123:15-124:12. Based on Dr.
Petropoulos’s unequivocal testimony and the failure of TBC’s experts to directly confront this issue,
the Court finds that an intentionally removed or torn label should have, at the very least, raised
some suspicion in the Baron, especially in the post-World War II era. That suspicion should have
been heightened by the fact that there was a torn label demonstrating that the Painting had been in
Berlin, that the minimal provenance information provided by the Stephen Hahn Gallery did not
mention that the Painting had ever been in Germany, and that there was no provenance
information available for the World War II period.
In addition, the fact that the Painting was painted by Camille Pissarro should have also
heightened the Baron’s suspicions. According to Plaintiffs’ expert Dr. Petropolous, Pissarro
paintings were “immediately of suspect provenance” because they were favored by European
Jewish collectors and often looted by the Nazis. Declaration of Jonathan Petropolous [Docket No.
417] at ¶¶ 86-96. Indeed, as noted by Dr. Petropolous, the French Ministry of Culture in 1947
published a compendium of French cultural losses during World War II that included forty-six works
by Pissarro that were looted by the Nazis (and have yet to be recovered).22 Id. at ¶ 93.

22

Although TBC’s expert Lynn Nicholas disputed the fact that Pissarro paintings were
“immediately of suspect provenance,” the Court finds that her opinion was not well supported. For
example, she claimed that “[a]nalysis of collections worldwide do not indicate that Pissarro’s works
have been collected more by Jews than by others.” Declaration of Lynn Nicholas [Docket No. 399]
at ¶ 60. However, a current analysis of collections worldwide does not necessarily mean that
Page 22 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 23 of 34 Page ID #:70390

Finally, it is undisputed that the Baron was a very sophisticated art collector. The Baron’s
“familiarity with [the art] segment is important with regard to the diligence requirements imposed on
him.” Swiss Federal Court Judgment of 18 April 2013, BGE 139 III 305, E. 5.2.2 (English
translation). Because he was a sophisticated art collector, the Baron would have recognized and
understood the suspicious circumstances surrounding the Painting.
After carefully considering all of the evidence presented on this issue, the Court concludes
that there were sufficiently suspicious circumstances to trigger a duty to investigate under Swiss
law. Indeed, the Court finds it especially significant that these same facts known to the Frank Perls
Gallery and Knoedler in 1951 (in addition to Frank Perls’ knowledge that the Painting was being
sold from Herr Urban’s collection in Munich, Germany) appear to have been sufficient to trigger
their suspicions, and led them to inquire as to whether the Painting was a looted or stolen artwork.
The Court acknowledges that there were other circumstances surrounding the sale of the Painting
that were not suspicious, including, for example, the respected reputation of the Stephen Hahn
Gallery at the time23 and the price that the Baron paid for the Painting. However, these
circumstances, while they tend to demonstrate that the Baron did not have actual knowledge that
the Painting was stolen, do not outweigh the other suspicious circumstances triggering a duty to
investigate.
.
B.
The Baron failed to exercise the diligence required by the circumstances
Despite the Baron’s duty to inquire further regarding the provenance of the Painting, there is
no evidence that the Baron took any steps to allay any suspicions that he may have had.
However, “the failure to pay due attention is only important, if it is causal for the lack of knowledge
about the defect of title; otherwise, it is negligible.” Swiss Federal Court Judgment of 18 April
2013, BGE 139 III 305, E. 3.2.2 (English translation). In other words, “[a]ccording to decisions of
the Federal Supreme Court of Switzerland, failure to undertake research may only be construed as
the lack of good faith, if the applicable precautions would have led to uncovering the deficient
disposal authorization of the seller.” Id. at E. 5.4.2. This causation requirement has been
interpreted to mean that the “research measure under consideration must be objectively suitable to
discover the defect in the disposal authorization.” Id. at E 5.4.2 and E 5.4.3 (emphasis added).

Pissarro works were not historically favored by European Jewish collectors, especially considering
that more than 70 years have passed since the end of World War II and, even more importantly,
that works belonging to European Jewish collectors were plundered during the war. She also
claimed that “evidence does not support the allegation that more Pissarros were stolen by the
Nazis than anything else,” citing the fact that, in the Répertoire des Bien Spoliés, the 715 page
listing of art looted in France, there are 66 works by Renoir (who, unlike Pissarro, was not Jewish)
and 46 by Pissarro. Declaration of Lynn Nicholas [Docket No. 399] at ¶ 61. Without knowing how
prolific each of the artists were, this does little to demonstrate that Pissarro works were not more
frequently looted by the Nazis than Renoir works. Moreover, this evidence may simply mean that
Renoir works were also often frequently looted by the Nazis.
23

The Stephen Hahn Gallery has sold at least one other work looted by the Nazis. However,
that fact would not have been known to the Baron in 1976.
Page 23 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 24 of 34 Page ID #:70391

See also Swiss Federal Court Judgment of 29 March 2018, 5A_962/2017 E. 5.2; Declaration of Dr.
Wolfgang Ernst [Docket No. 396] at ¶¶ 89, 91. “However, the hypothetic result of such
investigations does not matter. It may very well be that the objectively suitable investigations could
not have solidified the suspicions. In other words, the one, who does not undertake seemingly
suitable and reasonable measures, cannot rely on his good faith.” Swiss Federal Court Judgment
of 29 March 2018, 5A_962/2017 E. 5.2 (English translation).
The Court finds that the Baron failed to conduct suitable and reasonable inquiries in order to
discover the seller’s lack of title. Specifically, it would have been suitable and reasonable for the
Baron (or one of his employees) to contact John Rewald, a noted expert on Pissarro, in an attempt
to determine if the Painting had been stolen. Rewald would have been a logical source of
information as he had recently published a study called Camille Pissarro and was responsible for
updating the 1939 Catalogue Raisonné. Rewald was known to the Baron, as Rewald visited the
Baron’s collection at the Baron’s home in Switzerland in July 1976, just three months before the
Baron purchased the Painting.24 None of TBC’s experts dispute that it would have been
reasonable for the Baron to contact Rewald. Cf. Declaration of Lynn Nicholas [Docket No. 399] at
¶¶ 138-139; Declaration of Laurie A. Stein [Docket No. 412] at ¶ 197; Declaration of Wolfgang
Enrst [Docket No. 396] at ¶¶ 88-109.
Had the Baron contacted Rewald (or even another art expert who might have referred the
Baron to Rewald), he might have learned that the Painting was stolen from Lilly by the Nazis.
Whether such an inquiry would have, in fact, revealed that the Painting was stolen will never be
known, but it is also irrelevant. Because the Baron did not undertake such a suitable and
reasonable measure, he cannot rely on his good faith. See Swiss Federal Court Judgment of 29
March 2018, 5A_962/2017 E. 5.2 (English translation) (“Whether such inquiries would have
substantiated the suspicion or not, does not need to be clarified because the Defendant, who did
not undertake any measures, which would have seemed adequate and reasonable, cannot rely on
his good faith.”).
Indeed, the Federal Supreme Court of Switzerland, in a case involving the stolen painting,
“Diener mit Samowar” by Russian artist Kasimir Malewitsch, concluded as follows:
In this case, the primary issue is the question whether appellee had to engage
H. or other experts for further clarifications.
Contrary to the appraisal of the appellate court, this is the case. After appellee
heard from H., who he engaged himself as art expert, of a rumor about a painting of
Malewitsch, which had been stolen but which is on the market, there would not be
any question but to ask H. or any other expert for more information about this rumor
or to research this matter further. The measures H. would have undertaken are

24

In fact, as noted supra, in 1989, Irene Martin, the Administrative Director and Curator of
the Baron’s collection, contacted Rewald, inviting him to curate an exhibition at Villa Favorita and
to prepare a “scholarly and scientific” catalogue on certain paintings in the collection, including the
Painting.
Page 24 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 25 of 34 Page ID #:70392

immaterial in this context; retrospectively, it can only be speculated about them. In
addition, it does not matter that he did not know N. (an expert, who verifiably knew
about the theft). It is sufficient that at that former point in time, engaging one or
several experts would have been objectively a suitable (if not even the best) and
reasonable action to take in order to find out more about the rumor and any
deficiencies concerning seller’s authorization to sell. Appellee at least knew H. as
expert, who – if she could not take care of the respective mandate of appellee would
like to engage someone else for it – could have referred him without any problems to
another expert, provided he, as art collector, did not already know them. This
hypothetic result of such research does not matter as it can be the case that such
investigations would not have substantiated the rumor and its connection with the
painting “Diener mit Samowar”. Appellee would have then trusted this information
even if they would have been objectively wrong. If this would have dispelled and
should have dispelled his concerns, his good faith would have had to be protected
because he applied all necessary diligence to investigate the rumor. If, on the other
hand, he would have found out that the rumor actually concerns the painting “Diener
mit Samowar”, then appellee – if he did not want to restrain from the purchase under
these circumstances – would have demand [sic] precise proof that seller is entitled to
sell despite the earlier theft of the work (e.g., good faith purchase abroad).
Because appellee did not undertake this measure, which seems suitable and
reasonable, must lead to the conclusion that he cannot base it on his good faith.
Swiss Federal Court Judgment of 18 April 2013, BGE 139 III 305, E 5.4.3 (English translation).
Similarly, because the Baron did not undertake any reasonable and suitable measures,
such as contacting Rewald or another art expert to allay any suspicions he may (and should) have
had, the Court concludes that the Baron did not possess the Painting in good faith and thus the
Baron (and Favorita) did not acquire good title to the Painting under Swiss law. Accordingly,
because the Baron (and Favorita) did not have good title to the Painting at the time of TBC’s
purchase, the Court concludes that TBC did not become the lawful owner of the Painting via the
1993 Acquisition Agreement.25

25

The Court does not address the many other measures that the Baron could have taken,
such as asking the Stephen Hahn Gallery for more information regarding the Painting’s
provenance, investigating the partial label from the Cassirer gallery on the verso of the Painting, or
searching lists of stolen artworks, because the Court finds that such measures would not have led
the Baron in 1976 to discover that the Painting was stolen from Lilly. “[T]he failure to pay due
attention is only important, if it is causal for the lack of knowledge about the defect of title;
otherwise, it is negligible.” Swiss Federal Court Judgment of 18 April 2013, BGE 139 III 305, E.
3.2.2 (English translation). In any event, there is no evidence that the Baron undertook any of
these measures, and thus TBC cannot rely on them. See Declaration of Dr. Wolfgang Ernst
[Docket No. 396] at ¶ 89 (“The good-faith presumption cannot be relied upon, if measures of
inquiry were omitted, which at the time would have been considered ‘apparently suitable and
reasonable’ . . . . If this were the case, the counter-argument, relying on a counter-factual
hypothetical, that such inquiry would have led to nothing, is not heard.”).
Page 25 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 26 of 34 Page ID #:70393

II.

TBC ACQUIRED OWNERSHIP OF THE PAINTING UNDER SPAIN’S LAWS OF
ACQUISITIVE PRESCRIPTION.

However, the Court concludes, based on all of the evidence, that TBC acquired lawful
ownership of the Painting under Spain’s laws of acquisitive prescription.
Spanish Civil Code Article 1955 provides in relevant part: “Ownership of movable property
prescribes by three years of uninterrupted possession in good faith. Ownership of movable
property also prescribes by six years of uninterrupted possession, without any other condition. . . .”
Spanish Civil Code Art. 1955 (English translation). Possession is defined in Article 1941, which
states: “Possession must be in the capacity of the owner, and must be public, peaceful, and
uninterrupted.” Spanish Civil Code Art. 1941 (English translation).
“Read alone, Article 1955 would seem to vest title in one who gained possession, even
absent good faith, after six years, so long as the possession was in the capacity as owner, public
peaceful, and uninterrupted.” Cassirer, 862 F.3d at 965. As the Court held in its Order Granting
TBC’s Motion for Summary Judgment on June 4, 2015 [Docket No. 315], and as the Ninth Circuit
held in Cassirer, 862 F.3d at 965, TBC has possessed the property as owner publicly, peacefully,
and without interruption for more than 6 years (from 1993 to at least 1999). “Thus, Article 1955,
read in isolation, would seem to bar the Cassirers’ action for recovery of the Painting.” Cassirer,
862 F.3d at 965.
“But the very next article in the Spanish Civil Code, Article 1956, modifies how acquisitive
prescription operates.” Id. Article 1956 provides:
Movable property purloined or stolen may not prescribe in the possession of those
who purloined or stole it, or their accomplices or accessories [encubridores], unless
the crime or misdemeanor or its sentence, and the action to claim civil liability arising
therefrom, should have become barred by the statute of limitations.
Spanish Civil Code Art. 1956 (English translation). “Therefore, as to any principals, accomplices,
or accessories . . . to a robbery or theft, Article 1956 extends the period of possession necessary
to vest title to the time prescribed by Article 1955 plus the statute of limitations on the original crime
and the action to claim civil liability.” Cassirer, 862 F.3d at 966 (citing Spanish Supreme Court
decision of 15 July 2004 (5241/2004)).
Plaintiffs claim that TBC was an accessory (or encubridor) to the theft of the Painting. The
Ninth Circuit concluded:
For the crime of encubrimiento (accessory after the fact) and the crime of receiving
stolen property, the two crimes the Cassirers argue TBC committed when it
purchased the Painting from the Baron in 1993, the criminal limitations period is five
years, 1973 Penal Code Articles 30, 113, 546(bis)(a) and 1995 Penal Code Articles
131, 298, and the civil limitations period is fifteen years, Judgment of January 7, 1982
(RJ 1982/184) and Judgment of July 15, 2004 (no. 5241/2004). Thus, if Article 1956
applies, including the six-year period from Article 1955, TBC would need to possess
the Painting for twenty six years after 1993, until 2019, to acquire title via acquisitive
Page 26 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 27 of 34 Page ID #:70394

prescription. Since the Cassirers petitioned TBC for the Painting in 2001 and filed
this action in 2005, if Article 1956 applies, TBC has not acquired prescriptive title to
the Painting.
Cassirer, 862 F.3d at 966 (emphasis in original) (footnote omitted). Accordingly, if Article 1956
applies, Plaintiffs own the Painting. If Article 1956 does not apply, TBC owns the Painting.
For the reasons that follow, the Court concludes that Article 1956 does not apply and that
TBC owns the Painting pursuant to Article 1955.
A.

TBC is not an “accessory” or encubridor under Article 1956.

“Article 1956 extends the time of possession required for acquisitive prescription only as to
those chattels (1) robbed or stolen [or otherwise misappropriated] from the rightful owner (2) as to
the principals, accomplices or accessories after the fact (‘encubridores’) with actual knowledge of
the robbery or theft.” Cassirer, 862 F.3d at 966 (footnote omitted). The parties agree that the first
requirement is satisfied, i.e., that the Painting was misappropriated from Lilly by Scheidwimmer
and the Nazis. With respect to the second requirement, the parties disagree as to whether TBC is
an “accessory” or “encubridor” within the meaning of Article 1956.26
As the Ninth Circuit held, the term “accessory” or “encubridor” in Article 1956 has the
meaning that term was given it in Spain’s 1870 Penal Code. Cassirer, 862 F.3d at 967-68. Under
the 1870 Penal Code, “a person can be encubridor within the meaning of Article 1956 if he
knowingly receives and benefits from stolen property.” Id. TBC has clearly benefitted from its
possession of the Painting by displaying it at the Museum. The Court, however, must resolve,
based on the evidence presented at trial, whether TBC knowingly received stolen property, and
more specifically, whether TBC had actual knowledge that the Painting was the product of robbery
or theft. See Cassirer, 862 F.3d at 968 n.17 (citing Spanish Supreme Court decision of 23
December 1986 (RJ 1986/7982)). Plaintiffs have the burden of proving TBC’s actual knowledge.
Actual knowledge requires “willful intent” (dolo) and may be proven directly (dolo directo) or
indirectly (dolo eventual).27 See, e.g., Declaration of Adriana de Buerba [Docket No. 402] at ¶ 57;
Declaration of Alfredo Guerrero Righetto [Docket No. 431] at § 3.1. As the Spanish Supreme
Court has held, the crime of receiving stolen property “is a crime that is necessarily carried out with
intent, and may be committed both by direct intent (certain knowledge of the illegal origin of the
items) and by future malicious intent, when the recipient of stolen goods acts despite it being
considered highly probable that the goods have their origin in a property crime or socioeconomic
crime; in other words, when the illegal origin of the stolen goods received appears to be highly
26

it is undisputed that TBC was not a principal or accomplice to the 1939 misappropriation of
the Painting.
27

For the reasons stated in the Declaration of Adriana de Buerba [Docket No. 402] at ¶¶ 5764, the Court rejects Alfredo Guerrero Righetto’s opinion that “gross negligence” or “recklessness,”
(i.e., imprudencia temeraria) may be sufficient to demonstrate actual knowledge, to the extent that
his use of those terms implies a standard less than “dolo eventual” or “willful blindness”.
Page 27 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 28 of 34 Page ID #:70395

probable, in light of the circumstances involved.” Spanish Supreme Court Judgment of May 19,
2016 (no. 429/2016)) (English translation). “The Spanish Supreme Court does not require exact,
thorough or comprehensive knowledge about the previous offense but a state of certainty which
entails knowing beyond mere suspicion or conjecture.” Declaration of Adriana de Buerba [Docket
No. 402] at ¶ 55 (citing Supreme Court Judgment of June 9, 1993 (no. 3818/1993), and Supreme
Court Judgment of November 20, 1995 (no. 5853/1995)). See also Declaration of Alfredo
Guerrero Righetto [Docket No. 431] at § 3.3(A).
“Willful blindness” may also satisfy the actual knowledge requirement. In order to prove
willful blindness, Plaintiffs must prove that: (1) TBC was aware that there was a high risk or
likelihood that its conduct was illegal; (2) TBC completely disregarded that risk and did not act with
the minimum diligence required; and (3) TBC obtained economic profit and therefore wished to
remain ignorant. Declaration of Adriana de Buerba [Docket No. 402] at ¶ 65. See also Spanish
Supreme Court Judgment of March 16, 2012 (RJ 2012/5012).
1.

TBC did not have “actual knowledge” that the Painting was stolen.

After considering all of the evidence presented by the parties, the Court concludes that
Plaintiffs have failed to demonstrate that TBC had actual knowledge that the Painting was stolen
property. The Court finds that TBC lacked actual knowledge, especially in light of the following
evidence: (1) but for the 1954 CORA decision (which would have been virtually impossible to find),
there was no published information about Lilly’s prior ownership of the Painting or that the Nazis
had looted it at the time TBC acquired the Painting; (2) the Kingdom of Spain (and TBC) obtained
legal opinions from reputable law firms to ensure that the Baron held good title and that the
conveyance was lawful; (3) the Kingdom of Spain and TBC (and their counsel) were not aware of
any facts demonstrating that the Baron had acted in bad faith in acquiring any of the paintings in
the Collection; (4) with respect to the paintings that counsel did investigate, counsel did not
discover any evidence that the paintings were stolen or that the Baron had acquired them in bad
faith; (5) the Kingdom of Spain and TBC were aware that the Baron had publicly displayed and
exhibited the Collection, and yet were not aware of any adverse title claims having been made on
any of the paintings in the Collection; (6) Favorita represented and warranted to TBC that it was
“the legal owner” of the artworks in the Collection and that TBC would become “the absolute
beneficial owner” of those artworks, including the Painting; (7) the $350 million paid for the entire
Collection, including the Painting, was reasonable taking into account the restrictions placed on the
purchase and sale of the Collection and TBC’s obligations under the Acquisition Agreement; and
(8) TBC has publicly exhibited the Painting at the Museum since 1992 (with the expectation that
the Museum would have millions of visitors).
This evidence fails to demonstrate that TBC had dolo directo or dolo eventual, or that TBC
was willfully blind. Indeed, although TBC’s legal counsel decided not to conduct any investigation
into the title or provenance of the Painting, it does not appear that they made that decision
because they were afraid of learning the truth or because they believed (or the circumstances
demonstrated) that there was a high risk or probability that the Painting was stolen. Rather, legal
counsel made this decision after careful consideration of various options for the scope of their title
investigation. They believed that the risk was low that pre-1980 paintings had title issues because:
(1) the Baron would have acquired ownership of those paintings via the Swiss laws of acquisitive

Page 28 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 29 of 34 Page ID #:70396

prescription if he had acquired them in good faith; and (2) “any fraud or theft affecting title to the
paintings which had taken place before the paintings were acquired by the family would be unlikely
to affect more than a single painting, or a small group of paintings,” see Trial Exhibit 223 at 489-90,
because “presumably [the paintings] will on the whole have been purchased on a ‘piece meal’
basis from different owners,” see Trial Exhibit 84. Plaintiffs heavily criticize the Kingdom of Spain
and TBC’s counsel for assuming that the Baron acted in good faith without conducting any
investigation. The Court finds, however, that counsel had a sound basis for that assumption.
Indeed, even though the Baron had publicly displayed and exhibited the Collection, there were no
adverse title claims made on any of the paintings in the Collection at the time. Moreover, with
respect to the paintings that counsel did investigate, counsel did not discover any evidence that the
paintings were stolen or that the Baron had acquired them in bad faith.
The Kingdom of Spain and TBC’s counsel did recognize that there was a risk that a painting
or small number of paintings could have a title issue, and decided to cover that “hypothetical” risk
by obtaining the pledge or prenda. But recognizing that a minor risk exists does not equate to dolo
eventual or “willful blindness.” The evidence presented at trial simply failed to demonstrate that
TBC was aware of, or that the circumstances demonstrated, a high risk or probability that a
painting or the Painting was stolen.
Moreover, the Court concludes that, although the presence of the “red flags” identified supra
(i.e., the intentionally removed labels, the minimal provenance information provided, the partial
label demonstrating that the Painting had been in Berlin, and the fact that Pissarros were
frequently the subject of Nazi looting) might have been sufficient to raise TBC’s suspicions with
respect to the Painting, they fall well short of demonstrating TBC’s “actual knowledge,” i.e. that
TBC had certain knowledge that the Painting was stolen, or that there was a high risk or probability
that the Painting was stolen. In other words, although failing to investigate the provenance of the
Painting may have been irresponsible under these circumstances, the Court concludes that it
certainly was not criminal.
2.

The Baron did not have “actual knowlege” that the Painting was stolen.

Plaintiffs argue, under Spanish law, that the Baron’s actual knowledge can be imputed to
TBC. The Court need not resolve that issue of Spanish law, because the Court finds that the Baron
did not have actual knowledge that the Painting was stolen. Specifically, the following evidence
amply supports the Court’s finding that the Baron lacked actual knowledge: (1) the Baron paid fair
market value for the Painting in 1976; (2) the Baron purchased the Painting from the Stephen
Hahn Gallery, which was a reputable art dealer; (3) the Painting was part of a public exhibition at
the Stephen Hahn Gallery when the Baron purchased it; (4) the Baron publicly and frequently
exhibited the Painting in various locations around the world; and (5) in 1976, but for the 1954
CORA decision (which would have been virtually impossible to find), there was no published
information about Lilly’s prior ownership of the Painting or that the Nazis had looted it. Again,
although the “red flags” should have raised the Baron’s suspicions, they fall well short of
demonstrating the Baron’s “actual knowledge,” i.e. that the Baron had certain knowledge that the
Painting was stolen, or that there was a high risk or probability that the Painting was stolen.
Because the Court finds that neither TBC, nor the Baron, had actual knowledge that the

Page 29 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 30 of 34 Page ID #:70397

Painting was stolen, the Court concludes that TBC is not an “accessory” (or encubridor) and that
Article 1956 is not applicable. Because Article 1956 is not applicable, the Court concludes that
TBC acquired ownership of the Painting under Article 1955. See Order Granting TBC’s Motion for
Summary Judgment on June 4, 2015 [Docket No. 315]; Cassirer, 862 F.3d at 965.
B.

TBC’s Remaining Arguments Regarding the Applicability of Article 1956 Fail as
a Matter of Law.

In light of the Court’s determination that TBC is not an accessory or encubridor for the
purposes of Article 1956, the Court need not address TBC’s remaining arguments as to why Article
1956 is inapplicable. However, given that the parties will certainly pursue additional appellate
review, and in the interest of a complete record, the Court considers TBC’s remaining legal
arguments.
TBC argues that Article 1956 cannot apply as a matter of law because: (1) it has not been
charged with, or convicted of, a predicate crime; and (2) it is a legal person, rather than an
individual.28
1.

Article 1956 does not require a criminal conviction.

The Court concludes that Article 1956 does not require a criminal conviction. Indeed, the
clear statutory language demonstrates that a criminal conviction is not required. As noted supra,
Article 1956 provides:
Movable property purloined or stolen may not prescribe in the possession of those
who purloined or stole it, or their accomplices or accessories, unless the crime or
misdemeanor, or its sentence, and the action to claim civil liability arising therefrom,
should have become barred by the statute of limitations.
Spanish Civil Code Art. 1956 (2013) (English translation) (emphasis added).
In accordance with the Spanish rules of statutory construction, the Court construes Article
1956 “according to the proper meaning of [its] wording and in connection with the context, with [its]
historical and legislative background and with the social reality of the time in which [it is] to be
applied, mainly attending to [its] spirit and purpose.” Spanish Civil Code Art. 3.1 (English
Translation). The Court concludes that Article 1956 does not require a conviction according to the
“proper meaning of [its] wording.” Indeed, as persuasively argued by Amici Curiae Comunidad
Judía de Madrid and Federación de Comunidades Judías de España, the express language of
Article 1956 differentiates between two scenarios:
28

TBC did not raise these issues as to the inapplicability of Article 1956 until TBC’s Petition
for Rehearing and Rehearing En Banc or until after the most recent remand to this Court. Plaintiffs
claim that the Court’s consideration of these two new arguments are barred by the mandate rule,
the law of the case doctrine, and/or because TBC waived or forfeited these arguments. The Court
need not address whether TBC’s new arguments are precluded by any of these doctrines because
the Court concludes that TBC’s new arguments fail as a matter of law.
Page 30 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 31 of 34 Page ID #:70398

i. If there is no criminal conviction yet, the statute of limitation to prosecute the crime
or misdemeanor must have elapsed; or
ii. If there is a criminal conviction, the statute of limitation to enforce the sentence of
guilt for a crime or misdemeanor must have elapsed.
Brief of Amici Curiae Comunidad Judía de Madrid and Federación de Comunidades Judías de
España [Docket No. 401-1] at 12.29 “In both cases, the statute of limitations to claim civil liability
arising from the crime or misdemeanor must also have elapsed. . . .” Id.
The Court recognizes that no Spanish court has applied Article 1956 in absence of a
criminal conviction. However, prominent Spanish legal scholars and commentators agree that no
criminal conviction is required. See, e.g. , Manuel Albaladejo García, Comentarios Al Código Civil
y Complicaciones Forales, Tomo XXV, Vol. 1 (1993) (“these individuals are prevented from
consummating such acquisition until the statute of limitations on the crime has expired; if there was
no prosecution for the crime, then the time-barring of the sentence, which was not imposed, does
not come into play . . . .”); Bercovitz Rodríguez-Cano, R. (Coord.), Comentario al Código Civil,
Thomson Reuters Aranzadi (4th ed.) (2013), comment on Article 1956, at 2529 (English
translation) (“In order for [the Article 1956] prohibition to be in effect, no firm conviction is required
in the criminal scope. The dismissal of the criminal process or its extinction by a ruling other than a
sentence will not prevent a civil judge from declaring, if applicable, the existence of a theft or
robbery, though naturally only for civil purposes.”).
For the foregoing reasons, the Court concludes, as a matter of law, that Article 1956 does
not require a criminal conviction.
2.

Article 1956 applies to both natural persons and legal persons.

TBC also argues that a “legal person” or legal entity cannot be declared to be an accessory
or encubridor for the purposes of Article 1956 of the Spanish Civil Code.
As a general rule (except with respect to a limited number of offenses not at issue here),
only individuals – and not legal entities – can be held criminally liable under Spanish criminal law.
However, Article 1956 is a provision of the Spanish Civil Code. And, the provisions of the Spanish
Civil Code regulating acquisitive prescription, including Article 1956, apply to both natural and legal
persons. See Spanish Civil Code Art. 38 (English translation) (“Legal entities may acquire and
possess property of all kinds, and contract obligations and exercise civil and criminal actions, in
accordance with the laws and internal regulations.”); id. at Art. 1931 (“Persons with the capacity to
29

Article 1956’s adoption of these two alternatives for determining when a principal,
accomplice, or accessory can acquire property through acquisitive prescription is not surprising,
given that the Spanish Penal Code identifies prescription of the crime and prescription of the
sentence as different ways of extinguishing criminal liability. Specifically, Article 132 of the 1870
Spanish Penal Code, Article 112 of the 1973 Spanish Penal Code, and Article 130 of the 1995
Spanish Penal Code all provide that criminal liability is extinguished by both prescription of the
crime and prescription of the sentence.
Page 31 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 32 of 34 Page ID #:70399

acquire property or rights by other legitimate means may also acquire them by prescription.”).
Moreover, if TBC’s interpretation of Article 1956 were correct, a thief could entirely escape
the implications of Article 1956 simply by making the acquisitions through a legal entity. Under
Spanish rules of statutory construction, such an absurd interpretation must be rejected. See
Teresa Asunción Jiménez París, Supplementary Sources of Law and Application of Legal Rules at
88; Spanish Supreme Court Judgment of November 21, 1994 (RJ 1994/8542).
Accordingly, the Court concludes, as a matter of law, that Article 1956 can apply to legal
entities.
III.

LACHES

Finally, TBC argues that Plaintiffs’ claims are barred by laches or the similar doctrine under
Spanish law, “Verwirkung.”30 The Ninth Circuit apparently concluded that Spanish law applies to
this defense. See Cassirer v. Thyssen-Bornemisza Collection Foundation, 862 F.3d 951, 977 (9th
Cir 2017). The Ninth Circuit, however, also considered whether TBC was entitled to summary
judgment on its laches defense in the event that California law applied. The Court concludes that,
no matter what law the Court applies to resolve this issue, Plaintiffs’ claims are not barred.
Verwirkung, like laches, is based on a plaintiff’s unreasonable or “objectively unfair” delay in
bringing a claim. See Spanish Supreme Court Judgment of April 26, 2018 (EDJ 2018/54808)
(English translation); Declaration of Mariano Yzquierdo Tolsada [Docket No. 409] at 25 n.10;
Antoni Vaquer, Verwirkung Versus Laches: A Tale of Two Legal Transplants, 21 Tul. Eur. Civ. L.F.
53, 61-66 (2006). The doctrine is premised on the understanding that “[r]ights must be exercised
in accordance with the requirements of good faith.” Spanish Civil Code Art. 7.1 (English
translation). See also Spanish Supreme Court Judgment of April 26, 2018 (EDJ 2018/54808). In
order to apply this doctrine, three requirements must be met:
(1) The passage of a long period of time, during which the holder of the right
remained inactive without exercising it. Nevertheless, unlike what occurs with the
statute of limitations . . ., the mere passage of time is not enough, but rather must be
accompanied by circumstances that make the delay in exercise of the right unfair.
(2) Inactivity by the holder of the right during that period of time, when they could
have exercised it.
(3) And lastly, . . . a legitimate confidence in the passive subject that the right would
not be exercised. It must be the holder of the right that inspires this confidence,
which implies more than mere inactivity.
30

Plaintiffs argue that the Court may not consider TBC’s argument that Plaintiffs’ claims are
barred by laches or Verwirkung because: (1) the Ninth Circuit concluded that Spanish law applies,
not California law; and (2) TBC had previously only raised a laches defense under California law,
not Spanish law. The Court need not resolve this issue, because the Court concludes, on the
merits, that Plaintiffs’ claims are not barred by laches or Verwirkung.
Page 32 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 33 of 34 Page ID #:70400

Spanish Supreme Court Judgment of April 26, 2018 (EDJ 2018/54808) (English translation).
Similarly, “[t]o establish laches a defendant must prove both an unreasonable delay by the
plaintiff and prejudice to itself.” Couveau v. Am. Airlines, Inc., 218 F.3d 1078, 1983 (9th Cir. 2000)
(per curiam). “Ultimately, as an equitable doctrine, the denial of relief on the basis of laches is not
determined by simple rules of thumb or rigid legal rules. Rather, it is determined by a consideration
of the circumstances of each particular case and a balancing of the interests and equities of the
parties.” Saul Zaentz Co. v. Wozniak Travel, Inc., 627 F. Supp. 2d 1096, 1109 (N.D. Cal. 2008)
(quotations and citations omitted).
The Court finds that Plaintiffs’ delay in filing suit was not unfair or unreasonable, and that the
balance of equities favors Plaintiffs. Indeed, the Cassirers moved quickly to enforce their rights.
Three years after the war ended, Lilly sought physical restitution of the Painting. Ultimately, she
dropped her claim for restitution, and after ten years of litigation, settled her claim for monetary
compensation in the 1958 Settlement Agreement. Importantly, the parties to that settlement
agreement all believed that the Painting had been lost or destroyed during the war and that it was
not available for restitution. Accordingly, it was reasonable for Claude Cassirer to continue to rely
on that belief and, thus, not to search for the Painting. Moreover, once Claude Cassirer learned
that the Painting was not lost or destroyed, he acted promptly by filing a Petition with the Kingdom
of Spain and TBC in 2001, and then, after that Petition was denied, an action in this Court in 2005.
Finally, based on the evidence that TBC failed to conduct any investigation into the provenance of
the Painting, the Court finds that Plaintiffs’ actions did not “inspire legitimate confidence” in TBC
that no one would seek the Painting’s return.
Accordingly, the Court concludes that the doctrine of laches or Verwirkung does not bar
Plaintiffs’ claim for return of the Painting.
CONCLUSION
In December 1998, forty-four countries, including the Kingdom of Spain, committed to the
Washington Principles on Nazi-Confiscated Art (the “Washington Principles”). These non-binding
principles appeal to the moral conscience of participating nations and recognize: “If the pre-War
owners of art that is found to have been confiscated by the Nazis and not subsequently restituted,
or their heirs, can be identified, steps should be taken expeditiously to achieve a just and fair
solution, recognizing that this may vary according to the facts and circumstances surrounding a
particular case.”
In 2009, forty-six countries, including the Kingdom of Spain, reaffirmed their commitment to
the Washington Principles by signing the Terezin Declaration. The Terezin Declaration reiterated
that the Washington Principles “were based upon the moral principle that art and cultural property
confiscated by the Nazis from Holocaust (Shoah) victims should be returned to them or their heirs,
in a manner consistent with national laws and regulations as well as international obligations, in
order to achieve just and fair solutions.” The Terezin Declaration also “encouraged all parties
including public and private institutions and individuals to apply [the Washington Principles] as
well.”

Page 33 of 34

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 621 Filed 04/30/19 Page 34 of 34 Page ID #:70401

TBC’s refusal to return the Painting to the Cassirers is inconsistent with the Washington
Principles and the Terezin Declaration. However, the Court has no alternative but to apply
Spanish law and cannot force the Kingdom of Spain or TBC to comply with its moral commitments.
Accordingly, after considering all of the evidence and the arguments of the parties, the Court
concludes that TBC is the lawful owner of the Painting and the Court must enter judgment in favor
of TBC.
Counsel shall meet and confer and prepare a joint proposed Judgment consistent with these
Findings of Fact and Conclusions of Law. The joint proposed Judgment shall be lodged with the
Court on or before May 6, 2019. In the unlikely event that counsel are unable to agree upon a joint
proposed Judgment, the parties shall each submit separate versions of a proposed Judgment
along with a declaration outlining their objections to the opposing party's version on or before May
6, 2019.

IT IS SO ORDERED.

Page 34 of 34

Initials of Deputy Clerk sr

APPENDIX C

(1 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 1 of 61

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID CASSIRER; AVA CASSIRER;
UNITED JEWISH FEDERATION OF SAN
DIEGO COUNTY, a California nonprofit corporation,
Plaintiffs-Appellees,

No. 15-55550
15-55977
D.C. No.
2:05-cv-03459JFW-E

v.
THYSSEN-BORNEMISZA COLLECTION
FOUNDATION, an agency or
instrumentality of the Kingdom of
Spain,
Defendant-Appellant.

DAVID CASSIRER; AVA CASSIRER;
UNITED JEWISH FEDERATION OF SAN
DIEGO COUNTY, a California nonprofit corporation,
Plaintiffs-Appellants,

No. 15-55951
D.C. No.
2:05-cv-03459JFW-E

v.
OPINION
THYSSEN-BORNEMISZA COLLECTION
FOUNDATION, an agency or
instrumentality of the Kingdom of
Spain,
Defendant-Appellee.

(2 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 2 of 61

2

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION
Appeal from the United States District Court
for the Central District of California
John F. Walter, District Judge, Presiding
Argued and Submitted December 5, 2016
Pasadena, California
Filed July 10, 2017
Before: Consuelo M. Callahan, Carlos T. Bea,
and Sandra S. Ikuta, Circuit Judges.
Opinion by Judge Bea

(3 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 3 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

3

SUMMARY *

Foreign Sovereign Immunities Act / Holocaust
Expropriated Art Recovery Act
The panel reversed the district court’s grant of summary
judgment, on remand, in favor of Thyssen-Bornemisza
Collection Foundation, the defendant in an action under the
Foreign Sovereign Immunities Act concerning a Camille
Pissarro painting that was forcibly taken from the plaintiffs’
great-grandmother by an art dealer who had been appointed
by the Nazi government to conduct an appraisal.
The panel held that the Holocaust Expropriated Art
Recovery Act of 2016 supplied the statute of limitations for
the plaintiffs’ claims. The claims were timely because they
were filed within six years of the date of the plaintiffs’ actual
discovery of the artwork’s location.
The panel held that when jurisdiction is based on the
FSIA, federal common law, which follows the approach of
the Restatement (Second) of Conflict of Laws, applies to the
choice of law rule determination. Under the Second
Restatement, Spain’s substantive law governed defendant
TBC’s claim that it was the rightful owner of the painting.
The panel held that the district court erred in deciding
that, as a matter of law, TBC had acquired title to the
painting through Article 1955 of the Spanish Civil Code.
The panel held that there was a triable issue of fact whether
TBC was an encubridor, or accessory, to the theft of the
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

(4 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 4 of 61

4

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

painting within the meaning of Civil Code Article 1956. In
Section III.C.1 of its opinion, the panel considered the
following Spanish rules of statutory interpretation:
(i) proper meaning of wording; (ii) context; (iii) historical
and legislative background, including (a) definition of
encubridor in the 1870 Penal Code, and (b) the 1950 Law;
and (iv) social reality at the time of enactment. The panel
concluded that an encubridor within the meaning of Article
1956 could include someone who, with knowledge that the
good had been stolen from the rightful owner, received
stolen goods for his personal benefit. The panel concluded
that TBC had not established, as a matter of law, that it
lacked actual knowledge that the painting was stolen
property. The district court therefore erred in granting
summary judgment on the grounds that, as a matter of law,
TBC acquired the painting through acquisitive prescription.
The panel rejected TBC’s other arguments for affirming
the grant of summary judgment. First, the panel held that
TBC was not entitled to summary judgment based on its
claim that Baron Hans Heinrich Thyssen-Bornemisza, from
whom it bought the painting, had lawful title under Swiss
law. The panel concluded that there was a triable issue of
fact as to the Baron’s good faith in his possession of the
painting. Second, the panel held that TBC was not entitled
to summary judgment based on a laches defense under
California law. Third, the panel held that the plaintiffs’
claims were not foreclosed by their great-grandmother’s
acceptance of a 1958 settlement agreement with the Nazi art
appraiser, the heir of another Jewish victim, and the German
government.
The panel also concluded that the plaintiffs’ other
arguments against applying Article 1955 were without merit.
The panel held that Spain’s Historical Heritage Law did not

(5 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 5 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

5

prevent TBC from acquiring prescriptive title to the painting.
The panel also affirmed the district court’s conclusion that
the application of Article 1955 to vest TBC with title to the
painting would not violate the European Convention on
Human Rights.
The panel reversed the district court’s judgment and
remanded the case to the district court for further
proceedings.

COUNSEL
David Boies (argued), Boies Schiller & Flexner LLP,
Armonk, New York; Devin Velvel Freedman and Stephen
N. Zack, Boies Schiller & Flexner LLP, Miami, Florida; for
Plaintiffs-Appellants/Cross-Appellees.
Thaddeus H. Stauber (argued), Jessica N. Walker, and Sarah
Erickson André, Nixon Peabody LLP, Los Angeles,
California, for Defendant-Appellee/Cross-Appellant.
Martin M. Ellison and Mary-Christine Sungaila, Haynes and
Boone LLP, Costa Mesa, California, for Amicus Curiae Bet
Tzedek Legal Services.
Kathleen Vermazen Radez, Associate Deputy Solicitor
General; Joshua A. Klein, Deputy Solicitor General; Edward
C. DuMont, Solicitor General; Office of the Attorney
General, San Francisco, California; for Amicus Curiae State
of California.
Sarah E. Gettings, Connie Lam, Christie P. Bahna,
Benjamin G. Schatz, and Stanley W. Levy, Manatt Phelps &
Phillips LLP, Los Angeles, California; Michael Bazyler,

(6 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 6 of 61

6

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

Dale E. Fowler School of Law, Chapman University,
Orange, California; for Amicus Curiae The 1939 Society.
Daragh M. Brehony and Bernardo M. Cremades Román, B.
Cremades & Asociados, Madrid, Spain, for Amici Curiae
Comunidad Judía de Madrid and Federación de
Comunidades Judías de España.
Kelly L. Perigoe and Jeanne A. Fugate, Caldwell Leslie &
Proctor PC, Los Angeles, California, for Amicus Curiae José
Luis de Castro.
Jackson Herndon, Kelly A. Bonner, and Owen C. Pell, White
& Case LLP, New York, New York; Agnes Peresztegi,
Soffer Avocats, Paris, France; for Amicus Curiae
Commission for Art Recovery.

OPINION
BEA, Circuit Judge, with whom Judge Callahan concurs.
Judge Ikuta concurs except as to Sections III.C.1.iii.b and
III.C.1.iv:
In 1939 Germany, as part of the “Aryanization” of the
property of German Jews, Lilly Neubauer (“Lilly”) 1 was
forced to “sell” a painting by Camille Pissarro (the
“Painting”), a French Impressionist, to Jackob
Scheidwimmer (“Scheidwimmer”), a Berlin art dealer. We
1
In our two prior opinions, this Court has referred to Lilly Neubauer,
the great-grandmother of Plaintiffs David Cassirer and Ava Cassirer, as
“Lilly.” See Cassirer v. Kingdom of Spain, 616 F.3d 1019 (9th Cir. 2010)
(en banc); Cassirer v. Thyssen-Bornemisza Collection Foundation,
737 F.3d 613 (9th Cir. 2013).

(7 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 7 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

7

use quotation marks around “sell” to distinguish the act from
a true sale because Scheidwimmer had been appointed to
appraise the Painting by the Nazi government, had refused
to allow Lilly to take the Painting with her out of Germany,
and had demanded that she sell it to him for all of $360 in
Reichsmarks, which were to be deposited in a blocked
account. Lilly justifiably feared that unless she sold the
Painting to Scheidwimmer she would not be allowed to leave
Germany. The district court found, and the parties agree,
that the Painting was forcibly taken from Lilly.
The history of how the Cassirer family came to own the
Painting, as well as the application of the Foreign Sovereign
Immunity Act (“FSIA”) which resulted in recognition of our
jurisdiction to deal with the claims to the Painting, are
detailed in our earlier en banc opinion. 2 What primarily
concerns us now is the sale of the Painting by the Baron Hans
Heinrich Thyssen-Bornemisza (the “Baron”) to the ThyssenBornemisza Collection (“TBC”) in 1993, its display at
TBC’s museum in Madrid ever since, and what effect, if any,
that possession has had on the claims of title by the parties
to this action.
In short, in this third appeal to this Court, we are called
upon to decide whether the district court correctly granted
summary judgment to TBC based on TBC’s claim that it
acquired good title to the Painting through the operation of
Spain’s law of prescriptive acquisition (or “usucaption”) as
a result of TBC’s public, peaceful, and uninterrupted
possession in the capacity as owner of the Painting from
1993 until the Cassirers filed a petition requesting the return
of the Painting in 2001. Second, although not ruled upon by
the district court, we consider whether the Baron’s purchase
2

Kingdom of Spain, 616 F.3d at 1023–24.

(8 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 8 of 61

8

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

of the Painting, and his possession of it for years, vested him
with good title under Swiss law—title he could validly pass
to TBC in the 1993 sale. Third, we consider TBC’s
arguments that the Cassirers’ claims are barred by laches or
by Lilly’s acceptance of a post-war settlement agreement
with the German government. Finally, we consider the
Cassirers’ arguments that Spain’s Historical Heritage Law
and the European Convention on Human Rights prevent
TBC from acquiring prescriptive title. Ultimately, we
reverse the order which granted summary judgment and
remand for further proceedings.
I. FACTS AND PROCEDURAL HISTORY 3
A. The 1958 Settlement Agreement
After the Nazis forced Lilly to sell the Painting to
Scheidwimmer in 1939, Scheidwimmer then forced another
Jewish collector, Julius Sulzbacher (“Sulzbacher”), to
exchange three German paintings for the Painting.
Sulzbacher was also seeking to escape Nazi Germany. After
the Sulzbacher family fled Germany, the Gestapo
confiscated the Painting.
After the war, the Allies established a process for
restoring property to the victims of Nazi looting. Military
Law No. 59 (“MGL No. 59”) authorized victims to seek
restitution of looted property. In 1948, Lilly filed a timely
claim against Scheidwimmer under MGL No. 59 for
restitution of, or compensation for, the Painting. Sulzbacher
also filed claims under MGL No. 59 seeking restitution of,
3

As noted above, much of the factual history of this case is
described in Kingdom of Spain, 616 F.3d at 1023–24. We include only
such factual background as necessary to explain our decision in this case.

(9 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 9 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

9

or compensation for, the Painting and the three German
paintings. In 1954, the United States Court of Restitution
Appeals (“CORA”) published a decision confirming that
Lilly owned the Painting.
Although they knew Lilly was the owner of the Painting,
Lilly, Sulzbacher, and Scheidwimmer believed the Painting
was lost or destroyed during the war. In 1957, after the
German Federal Republic regained its sovereignty, Germany
established a law governing claims relating to Nazi-looted
property known as the Brüg. Lilly then dropped her
restitution claim against Scheidwimmer and initiated a claim
against Germany for compensation for the wrongful taking
of the Painting. Grete Kahn, Sulzbacher’s heir, was also a
party in this action.
The parties to the action against Germany were unaware
of the location of the Painting and only two of the German
paintings originally owned by Sulzbacher were still
available for return. In 1958, the parties reached a settlement
agreement (the “1958 Settlement Agreement”). This
agreement provided that: (1) Germany would pay Lilly
120,000 Deutschmarks (the Painting’s agreed value as of
April 1, 1956); (2) Grete Kahn would receive 14,000
Deutschmarks from the payment to Lilly; and
(3) Scheidwimmer would receive two of Sulzbacher’s three
German paintings.
B. The Painting’s Post-War History
After the Nazis confiscated the Painting from
Sulzbacher, it allegedly was sold at a Nazi government
auction in Dusseldorf. In 1943, the Painting was sold by an
unknown consignor at the Lange Auction in Berlin to an
unknown purchaser for 95,000 Reichsmarks. In 1951, the
Frank Perls Gallery of Beverly Hills arranged to move the

(10 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 10 of 61

10

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

Painting out of Germany and into California to sell the
Painting to collector Sidney Brody for $14,850. In 1952,
Sydney Schoenberg, a St. Louis art collector, purchased the
Painting for $16,500. In 1976, the Baron purchased the
Painting through the Stephen Hahn Gallery in New York for
$275,000. The Baron kept the Painting in Switzerland as
part of his collection until 1992, except when it was on
public display in exhibitions outside Switzerland.
C. TBC’s Purchase of the Painting
In 1988, Favorita Trustees Limited, an entity of the
Baron, and Spain reached an agreement that the Baron would
loan his art collection (the “Collection”), including the
Painting, to Spain. Pursuant to this agreement, Spain created
TBC 4 to maintain, conserve, publicly exhibit, and promote
the Collection’s artwork. TBC’s initial board of directors
had five members acting on behalf of the Spanish
government and five members acting on behalf of the Baron
and his family. Spain agreed to display the Collection at the
Villahermosa Palace in Madrid, Spain, and to restore and
redesign the palace as a museum (the “Museum”). After the
Villahermosa Palace had been restored and redesigned as the
Museum, in 1992, pursuant to the loan agreement, the
Museum received a number of paintings from Favorita
Trustees Limited, including the Painting, and the Museum
opened to the public. In 1993, the Spanish government
passed Real Decreto-Ley 11/1993, which authorized and
funded the purchase of the Collection. Spain bought the
Collection by entering into an acquisition agreement with
Favorita Trustees Limited. The Real Decreto-Ley 11/1993
4

TBC is an agency or instrumentality of the Kingdom of Spain,
which this Court previously recognized in Cassirer v. Kingdom of Spain,
616 F.3d 1019, 1027 (9th Cir. 2010).

(11 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 11 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

11

classified the Collection as part of the Spanish Historical
Heritage, which made the property subject to the provisions
of the Spanish Historical Heritage Law. TBC paid the Baron
$350 million for the Collection. The estimated value of the
Collection at that time was somewhere between $1 billion
and $2 billion.
In 1989, after the 1988 loan agreement, Spain and TBC
investigated title to the works in the Collection. In 1993,
Spain and TBC did a second title investigation in connection
with the purchase agreement.
D. Procedural History
In 2000, Claude Cassirer, a photographer, learned from
a client that the Painting was in the Museum. TBC does not
dispute that Mr. Cassirer had “actual knowledge” of the
Painting’s location by 2000. On May 3, 2001, the Cassirer
family filed a petition in Spain seeking the return of the
Painting. After that petition was denied, in 2005, Claude
Cassirer filed this action in the United States District Court
for the Central District of California seeking the return of the
Painting. 5
As noted above, this case has been before this Court in
two prior appeals. After the second remand to the district
court, TBC filed a motion for summary adjudication. TBC
moved for summary adjudication of the following issues:
(1) Plaintiffs’ predecessor-in-interest, Lilly,
waived her rights to the Pissarro Painting in
the 1958 Settlement Agreement; (2) the
5

Claude Cassirer died in 2010. David and Ava Cassirer, his
children, and the United Jewish Federation of San Diego County succeed
to his claims. Collectively, we refer to these plaintiffs as “the Cassirers.”

(12 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 12 of 61

12

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION
Court lacks jurisdiction because any “taking
in violation of international law” has already
been remedied by Germany; and (3) the
tenets of U.S. policy on Nazi-looted art
require honoring the finality of the 1958
Settlement Agreement.

In a written order, the district court denied TBC’s motion on
the grounds that Lilly did not waive her right to physical
restitution by accepting the Settlement Agreement, which
also meant that the court retained jurisdiction under the FSIA
and the Cassirers’ claims do not conflict with federal policy.
TBC filed an interlocutory appeal of that portion of the order
which denied TBC’s claim of sovereign immunity, as to
which the district court denied TBC a certificate of
appealability on the grounds that TBC’s attempted
interlocutory appeal was frivolous and/or waived because of
this Court’s decision in 2010, which determined that the
district court could properly exercise jurisdiction pursuant to
the FSIA. The district court thereby retained jurisdiction of
the case pursuant to Chuman v. Wright, 960 F.2d 104, 105
(9th Cir. 1992). TBC now cross-appeals the district court’s
order denying its motion for summary adjudication based on
the 1958 Settlement Agreement.
After its summary adjudication motion was denied, TBC
moved for summary judgment on the grounds that it had
obtained ownership of the Painting pursuant to Spain’s law
of acquisitive prescription as stated in Spain Civil Code
Article 1955 (“Article 1955”). The Cassirers filed a motion
for summary adjudication asking the court to hold that
California law, not Spanish law, governs the merits of the
case. The district court granted summary judgment in favor
of TBC and denied the Cassirers’ motion for summary
adjudication. The district court concluded that Spanish law

(13 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 13 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

13

governed TBC’s claim that it owned the Painting pursuant to
acquisitive prescription and that TBC owned the Painting
because TBC had fulfilled the requirements of Article 1955.
Before the district court, the Cassirers argued that their
claims were timely pursuant to California Code of Civil
Procedure § 338(c)(3)(A) (“§ 338(c)(3)(A)”), California’s
special statute of limitations for actions “for the specific
recovery of a work of fine art brought against a museum . . .
in the case of an unlawful taking or theft[.]” California
enacted § 338(c)(3)(A) in 2010, five years after the Cassirers
filed suit, but § 338(c)(3)(A) states that it applies to cases
that are pending, see Cal. Civ. Proc. Code § 338(c)(3)(B).
The district court held that, since TBC had acquired
ownership of the Painting under Spanish law prior to the
California legislature’s enactment of § 338(c)(3)(A),
retroactive application of that special statute of limitations
would violate TBC’s due process rights.
The district court entered judgment in favor of TBC. The
Cassirers timely appealed.
TBC cross-appealed the summary judgment order to the
extent that it did not address two arguments advanced in
TBC’s motion for summary judgment. First, that the Baron
had acquired ownership of the Painting under Swiss law
through prescriptive acquisition and had subsequently
conveyed good title to TBC. Second, that the Cassirers’
claims are barred by the equitable defense of laches. TBC
also cross-appealed “any interlocutory decisions or orders
adverse to [TBC]” and the motions filed by TBC that were

(14 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 14 of 61

14

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

denied as moot by the district court following the district
court’s entry of judgment. 6
This Court consolidated the parties’ appeals. In
summary, the following appeals on the merits are before this
Court: (1) the Cassirers’ appeal of the order which granted
summary judgment in favor of TBC on the grounds that
under applicable Spanish law, TBC acquired title to the
Painting by prescriptive acquisition (usucaption), (2) TBC’s
appeal of the order which denied TBC’s motion for summary
adjudication, based on the assertion that Lilly waived her
ownership rights to the Painting pursuant to the 1958
Settlement Agreement and that the district court lacked
jurisdiction under the FSIA, (3) TBC’s cross-appeal of the
summary judgment order in its favor, for failure to consider
and rule upon its claim under Swiss law and its defense of
laches.

6

These motions are TBC’s Motion for Certification and TBC’s
Motion for Review and Reconsideration of the Magistrate Judge’s
Discovery Order. The motion for certification, which asked the district
court to certify for interlocutory appeal TBC’s claims relating to the 1958
Settlement Agreement are moot since we consider those claims in this
opinion. In TBC’s discovery motion, TBC sought reversal of the
magistrate judge’s denial of TBC’s motion to compel production of
thirteen letters between Lilly and her attorney. The motion is no longer
moot in light of our decision in this opinion to reverse and remand this
case. However, the district court did not consider this motion on the
merits, and trial courts have “broad discretion” to permit or deny
discovery, Hallett v. Morgan, 296 F.3d 732, 751 (9th Cir. 2002) (quoting
Goehring v. Brophy, 94 F.3d 1294, 1305 (9th Cir. 1996)). Therefore, we
will allow the district court to consider this discovery motion in the first
instance on remand. See Bermudez v. Duenas, 936 F.2d 1064, 1068 (9th
Cir. 1991) (remanding to the district court to consider in the first instance
a discovery motion that was denied as moot after a grant of summary
judgment).

(15 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 15 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

15

II. JURISDICTION AND STANDARD OF REVIEW
The FSIA, 28 U.S.C. § 1330(a), gave the district court
jurisdiction. 28 U.S.C. § 1291 gives this Court jurisdiction
over this appeal.
This Court reviews an appeal from summary judgment
de novo. Jones v. Union Pac. R.R. Co., 968 F.2d 937, 940
(9th Cir. 1992). This Court reviews a district court’s choice
of law analysis de novo. Abogados v. AT&T, Inc., 223 F.3d
932, 934 (9th Cir. 2000). A district court’s interpretation of
foreign law is a question of law that this Court reviews de
novo. Brady v. Brown, 51 F.3d 810, 816 (9th Cir. 1995). “In
determining foreign law, the court may consider any relevant
material or source, including testimony, whether or not
submitted by a party or admissible under the Federal Rules
of Evidence.” Fed. R. Civ. P. 44.1.
III. ANALYSIS
A. The Cassirers’ claims are timely within the
statute of limitations recently enacted by
Congress to govern claims involving art
expropriated during the Holocaust.
Before the district court, the parties and the district court
agreed that California, as the forum, supplied the statute of
limitations for the Cassirers’ claims. California Code of
Civil Procedure § 338(c)(3)(A) requires that “an action for
the specific recovery of a work of fine art” brought against a
museum in the case of an “unlawful taking” be commenced
within “six years of the actual discovery by the claimant” of
the “identity and whereabouts of the work of fine art” and
“[i]nformation or facts that [were] sufficient to indicate that
the claimant ha[d] a claim for a possessory interest in the
work of fine art that was unlawfully taken or stolen.” Cal.

(16 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 16 of 61

16

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

Civ. Proc. Code § 338(c)(3)(A)(i)–(ii). The primary issue
below was whether retroactive application of
§ 338(c)(3)(A), which was passed in 2010, five years after
the Cassirers filed suit, would violate TBC’s due process
rights. The district court held that, since TBC “acquired
ownership of the Painting under Spanish law prior to [the]
California Legislature’s retroactive extension of the statute
of limitations” and the Cassirers’ claims were time barred
before the legislature passed § 338(c)(3)(A), retroactive
application of § 338(c)(3)(A) would violate TBC’s due
process rights. On appeal, TBC contends that retroactive
application of § 338(c)(3)(A) would violate its due process
rights.
However, while these appeals were pending before us,
Congress passed, and the President signed, the Holocaust
Expropriated Art Recovery Act of 2016 (“HEAR”), H.R.
6130. For the reasons stated below, we conclude that HEAR
supplies the statute of limitations to be applied in this case in
federal court and that the Cassirers’ claims are timely under
this law.
HEAR states:
Notwithstanding any other provision of
Federal or State law or any defense at law
relating to the passage of time, and except as
otherwise provided in this section, a civil
claim or cause of action against a defendant
to recover any artwork or other property that
was lost during the covered period because of
Nazi persecution may be commenced not
later than 6 years after the actual discovery by
the claimant or the agent of the claimant of—
(1) the identity and location of the artwork or
other property; and (2) a possessory interest

(17 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 17 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

17

of the claimant in the artwork or other
property.
Id. § 5(a). Thus, HEAR creates a six-year statute of
limitations period that commences on the date of actual
discovery of the artwork’s location by the claimant. Id.
§ 5(a). Lilly suffered the taking of the Painting in 1939,
which is during the “covered period” of HEAR (January 1,
1933, and ending on December 31, 1945). See id. § 4(3).
The six-year statute of limitations applies to any claims that
are pending on the date of HEAR’s enactment, which was
December 16, 2016, including claims on appeal such as the
Cassirers’. See id. § 5(d)(1) (“Subsection (a) shall apply to
any civil claim or cause of action that is . . . pending in any
court on the date of enactment of this Act, including any civil
claim or cause of action that is pending on appeal . . . .”).
Viewing the facts in the light most favorable to the
Cassirers, as we must on an appeal from an order which
granted summary judgment, Am. Int’l Grp., Inc. v. Am. Int’l
Bank, 926 F.2d 829, 831 (9th Cir. 1991), the Cassirers
acquired actual knowledge of the Painting’s location in 2000
when Claude Cassirer learned from a client that the Painting
was in the Museum. 7 After the Cassirer family’s 2001
petition in Spain was denied, the family filed this action on
May 10, 2005. Since the lawsuit appears to have been filed
within six years of actual discovery, the Cassirers’ claims are
timely under the statute of limitations created by HEAR.

7

Of course, the date of acquisition of actual knowledge is a fact
subject to proof, and possible rebuttal, in proceedings before the district
court.

(18 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 18 of 61

18

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION
B. This Court applies the Second Restatement of the
Conflict of Laws to determine which state’s
substantive law applies in deciding the merits of
this case. The Second Restatement directs this
Court to apply Spain’s substantive law.

Although Congress has directed federal courts to apply
HEAR’s six-year statute of limitations for claims involving
art expropriated during the Holocaust, HEAR does not
specify which state’s substantive law will govern the merits
of such claims. Under California law, thieves cannot pass
good title to anyone, including a good faith purchaser.
Crocker Nat’l Bank v. Byrne & McDonnell, 178 Cal. 329,
332 (1918). This is also the general rule at common law.
See Kingdom of Spain, 616 F.3d at 1030, n.14 (quoting
Marilyn E. Phelan, Scope of Due Diligence Investigation in
Obtaining Title to Valuable Artwork, 23 Seattle U. L. Rev.
631, 633–34 (2000)) (“One who purchases, no matter how
innocently, from a thief, or all subsequent purchasers from a
thief, acquires no title in the property. Title always remains
with the true owner.”). This notion traces its lineage to
Roman law (nemo dat quod non habet, meaning “no one
gives what he does not have”). 8
But the application of our choice of law jurisprudence
requires that we not apply such familiar rules, under the
circumstances of this case. As we shall see, Spain’s property
8

Spanish law has some similar provisions. “Possession of movable
property acquired in good faith is equivalent to title. Notwithstanding
the foregoing, any person who has lost movable property or has been
deprived of it illegally may claim it from its possessor.” Civil Code
Article 464, Ministerio de Justicia, Spain Civil Code 66 (2009) (English
translation). However, the Spanish Civil Code must be read in its
entirety, including those articles which provide that title to chattels may
pass through qualified, extended possession, such as Article 1955.

(19 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 19 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

19

laws will determine whether the Painting has passed to TBC
via acquisitive prescription.
This Court has held that, when jurisdiction is based on
the FSIA, “federal common law applies to the choice of law
rule determination. Federal common law follows the
approach of the Restatement (Second) of Conflict of Laws.”
Schoenberg v. Exportadora de Sal, S.A. de C.V., 930 F.2d
777, 782 (9th Cir. 1991) (citations omitted). The district
court recognized this precedent, but believed that language
from this Court’s decision in Sachs v. Republic of Austria,
737 F.3d 584, 600 n.14 (9th Cir. 2013) (en banc), rev’d on
other grounds by OBB Personenverkehr AG v. Sachs, 136 S.
Ct. 390 (2015), called Schoenberg’s holding into question.
Sachs does not clearly overrule the Schoenberg
precedent. In Sachs, the plaintiff had been injured trying to
board a train in Austria operated by a railroad (“OBB”) that
was owned by the Austrian government. Id. at 587. The
district court granted OBB’s motion to dismiss on the
grounds of a lack of subject-matter jurisdiction, holding that
OBB was immune from suit under the FSIA. Id. Sitting en
banc, this Court reversed and held that it had subject matter
jurisdiction pursuant to the commercial-activity exception to
sovereign immunity in the FSIA. Id. at 603. In footnote 14
of the Sachs opinion, this Court held that California law
governed the plaintiff’s negligence claim. Id. at 600 n.14.
This Court assumed that California law applied because the
railroad ticket was purchased in California and Sachs’ action
was brought in California. Id. (“[W]e think it is a
permissible view of Supreme Court precedent to look to
California law to determine the elements of Sachs’s
claims[]” without engaging in a formal choice of law
analysis.). However, this Court then cited Schoenberg and
took into consideration the Second Restatement choice of

(20 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 20 of 61

20

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

law test. See id. (“Even if we should make a separate
conflicts analysis under the Restatement, that conflicts
analysis supports the same conclusion that California law
applies to Sachs’s claims.”). Since Sachs did not expressly
overrule Schoenberg and the Supreme Court has not
overruled or effectively overruled Schoenberg, we must
apply Schoenberg to determine which state’s substantive law
applies. See Miller v. Gammie, 335 F.3d 889, 896–900 (9th
Cir. 2003). And, as noted above, Schoenberg instructs us to
apply the Second Restatement. To the extent Sachs calls into
doubt the need to apply the Second Restatement in certain
FSIA cases, Sachs is distinguishable because in Sachs the
plaintiff purchased her railroad ticket in California, Sachs,
737 F.3d at 587, while in this case TBC purchased the
Painting in Spain and claims to have acquired prescriptive
title by possessing the Painting in Spain. Therefore, we
apply Schoenberg and the Second Restatement. 9
The Second Restatement includes jurisdiction-selecting
rules and a multi-factor inquiry in Section 6, which provides
choice of law factors that a court should apply in the absence
of a statutory directive to decide the applicable rule of law.
In addition to considering any specific jurisdiction-selecting
rule, a court is supposed to apply the Section 6 factors to

9

The district court concluded that under both the Second
Restatement and California’s choice of law test (known as the
governmental interest or comparative impairment test), Spain’s
substantive law applies to this case. Since we conclude that the Second
Restatement test applies because Schoenberg controls, we do not apply
California’s choice of law test. We note that the courts in Schoenberg
and Sachs both did not apply the forum’s choice of law test. Schoenberg,
930 F.2d at 782–83; Sachs, 737 F.3d at 600 n.14.

(21 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 21 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

21

decide which state has the most significant relationship to
the case. 10 These factors are:
(a) the needs of the interstate and
international systems, (b) the relevant
policies of the forum, (c) the relevant policies
of other interested states and the relative
interests of those states in the determination
of the particular issue, (d) the protection of
justified expectations, (e) the basic policies
underlying the particular field of law,
(f) certainty, predictability and uniformity of
result, and (g) ease in the determination and
application of the law to be applied.
Second Restatement § 6(2). These factors are not listed in
order of importance. Second Restatement § 6, cmt. C.
Instead, “varying weight will be given to a particular factor,
or to a group of factors, in different areas of choice of law.”
Id.
Chapter 9 of the Second Restatement is focused on the
choice of law considerations most relevant to property cases.
Section 222 sets forth how the general choice of law
principles stated in § 6 are applicable to real and personal
property:
The interest of the parties in a thing are
determined,
depending
upon
the
circumstances, either by the “law” or by the
“local law” of the state which, with respect to
the particular issue, has the most significant
10

For this reason, the Second Restatement’s approach is often called
the “most significant relationship” test.

(22 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 22 of 61

22

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION
relationship to the thing and the parties under
the principles stated in § 6.

Second Restatement § 222. This general principle is
“applicable to all things, to all interests in things and to all
issues involving things. Topic 2 (§§ 223–243) deals with
interests in immovables and Topic 3 (§§ 244–266) with
interests in movables.” Second Restatement § 222, cmt. a.
Section 222 thus clarifies the subject of the § 6 “most
significant relationship” inquiry: A court should consider
which state “has the most significant relationship to the thing
and the parties under the principles in § 6.” 11 Second
Restatement § 222 (emphasis added). Moreover, the
commentary to § 222 notes the following about this “most
significant relationship” inquiry:
In judging a given state’s interest in the
application of one of its local law rules, the
forum should concern itself with the question
whether the courts of that state would have
applied this rule in the decision of the case.
The fact that these courts would have applied
this rule may indicate that an important
interest of that state would be served if the
rule were applied by the forum.
Second Restatement § 222, cmt. e. In addition, the
commentary to § 222 clarifies that “[i]n contrast to torts,
protection of the justified expectations of the parties is of

11

In addition to citing § 6 in the text itself, the commentary to § 222
also clarifies that “the principles stated in § 6 underlie all rules of choice
of law . . . .” Second Restatement § 222, cmt. b.

(23 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 23 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

23

considerable importance in the field of property.” Second
Restatement § 222, cmt. b (citation omitted).
The Second Restatement also has a specialized rule for a
claim of acquisition by adverse possession or prescription of
an interest in chattel. Second Restatement § 246 states,
“Whether there has been a transfer of an interest in a chattel
by adverse possession or by prescription and the nature of
the interest transferred are determined by the local law of the
state where the chattel was at the time the transfer is claimed
to have taken place.” The Second Restatement provides the
following rationale for this rule:
The state where a chattel is situated has the
dominant interest in determining the
circumstances under which an interest in the
chattel will be transferred by adverse
possession or by prescription. The local law
of this state is applied to determine whether
there has been such a transfer and the nature
of the interest transferred.
Second Restatement, § 246, cmt. a (emphasis added).
After considering these sections of the Second
Restatement and the relevant interests at stake, we conclude
that this Court ought to apply Spanish law to decide whether
TBC has title to the Painting. Although some of the § 6
factors suggest California law should apply, on balance,
these factors indicate Spanish law should apply because
Spain is the “state which, with respect to the particular issue,
has the most significant relationship to the thing and the
parties under the principles stated in § 6.” Second
Restatement § 222. We note at the outset that the courts of
Spain would apply their own property laws to adjudicate
TBC’s claim that it owns the Painting because Spain uses a

(24 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 24 of 61

24

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

law of the situs rule for movable property. See Civil Code
Article 10.1, Ministerio de Justicia, Spain Civil Code 4
(2009) (English translation). As the commentary to § 222
notes, the fact that Spain would apply its own law suggests
that an important interest of Spain may be served by
applying Spanish law.
Also, as the district court recognized, the situs rule
furthers the needs of the international system by encouraging
certainty, predictability, and uniformity of result.
Considering the relevant policies of “interested states,”
Spain’s interest in having its substantive law applied is
significant. In a highly publicized sale, Spain provided TBC
public funds to purchase the Collection, including the
Painting. TBC, an instrumentality of Spain, has possessed
the Painting for over twenty years and displayed it in the
Museum. In terms of protecting justified expectations, the
1993 Acquisition Agreement between TBC and the Baron
states that English law governs the purchase of the
Collection. But, the legal opinion provided by TBC’s
counsel stated that, under English law, Spanish law would
govern the effect of the transfer. The Cassirers do not
dispute this reading of English law.
Cutting in favor of the choice of California law is the fact
that the forum, California, has a strong interest in protecting
the rightful owners of fine arts who are dispossessed of their
property. In fact, as noted in Part III.A, California has
created a specific statute of limitations for cases involving
an unlawful taking or theft of fine art. We also acknowledge
that it is more difficult for a federal court to discern,
determine, and apply Spanish law than California law.
Factor 6(e), which requires a court to consider the basic
policies underlying property law, is arguably inconclusive.
The property laws of both Spain and California seek to create

(25 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 25 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

25

certainty of title, discourage theft, and encourage owners of
stolen property to seek return of their property in a timely
fashion. Although these states have chosen different rules
for movable property, both sets of rules further the basic
polices underlying property law.
On the other hand, § 246 indicates that Spain has the
“dominant interest” in determining whether the Painting was
transferred to TBC via acquisitive prescription because the
Painting was bought in Spain and has remained in Spain.
The Cassirers’ arguments to the contrary are not persuasive.
First, the Cassirers argue there is a bad faith exception to the
law of the situs rule when an adverse possessor acquired
property “which was known or should have been known to
have been stolen.” However, since the Cassirers rely only
on a 1980 English court decision in support of this
proposition, the argument is unpersuasive. Second, the
Cassirers argue that the law of the situs rule is “outdated (not
revised in 45 years), and is now inconsistent with modern
choice of law principles.” However, the Cassirers cite cases
in which courts have abolished the law of the situs rule for
tort actions. As a district court stated when applying § 246
in a stolen art case:
The refusal by the New York Court of
Appeals to apply the “place of injury” test in
the tort field does not dictate a different result
here. This is because the choice of law rule
advanced in the cited cases and adopted in
Section 246 of the Restatement incorporates
the concept of the “significant relationship.”
Kunstammlungen Zu Wimar v. Elicofon, 536 F. Supp. 829,
846 (E.D.N.Y. 1981) (citation omitted).

(26 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 26 of 61

26

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

In sum, after applying the Second Restatement § 6
factors and the law of the situs rule of § 246, we conclude
that Spanish law governs TBC’s claim that it is the rightful
owner of the Painting.
The Cassirers argue in a letter submitted to this Court
pursuant to Federal Rule of Appellate Procedure 28(j) that
we should not apply Spain’s law because of HEAR.
According to the Cassirers, HEAR indicates that the
application of Spain’s substantive law in this case would be
“truly obnoxious” to federal policy. However, HEAR does
not specify which state’s rules of decision should govern the
merits of claims involving art expropriated during the
Holocaust. HEAR simply supplies a statute of limitations
during which such claims are timely. Thus, HEAR does not
alter the choice of law analysis this Court uses to decide
which state’s law will govern TBC’s claim of title to the
Painting based on acquisitive prescription.
C. The district court erred in deciding that, as
matter of law, TBC had acquired title to the
Painting through Article 1955 of the Spanish Civil
Code because there is a triable issue of fact
whether TBC is an encubridor (an “accessory”)
within the meaning of Civil Code Article 1956. 12
1. An encubridor can be a knowing receiver of
stolen goods.
After correctly determining that Spanish substantive law
applied, the district court granted summary judgment in
12

In interpreting Spanish law, we have relied on the record below,
submissions from the parties and amici, and our own independent
research. See Federal Rule of Civil Procedure 44.1 (“In determining

(27 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 27 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

27

favor of TBC based on the district court’s analysis of Spain’s
law of acquisitive prescription. Summary judgment is
proper when “the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). As
noted above, we view the evidence “in the light most
favorable to the party opposing the motion,” here, the
Cassirers. Am. Int’l Grp., 926 F.2d at 831.
The district court concluded that TBC had acquired title
to the Painting because TBC had fulfilled the requirements
of Article 1955, which states in relevant part, “Ownership of
movable property prescribes by three years of uninterrupted
possession in good faith. Ownership of movable property
also prescribes by six years of uninterrupted possession,
without any other condition.” Ministerio de Justicia, Spain
Civil Code 220 (2009) (English translation). Possession is
defined in Civil Code Article 1941, which states,
“Possession must be in the capacity of the owner, and must
be public, peaceful, and uninterrupted.” Ministerio de
Justicia, Spain Civil Code 219 (2009) (English translation).
As an initial matter, we reject the Cassirers’ argument
that TBC’s defense of acquisition of prescriptive title
through usucaption based on Article 1955 is foreclosed by
HEAR. HEAR addresses when a suit may be commenced
and creates a six-year statute of limitations that applies
“notwithstanding any defense at law relating to the passage
of time.” HEAR § 5(a). Because of the time periods
mentioned in Article 1955, TBC’s defense based on Article
1955 could be at first glance considered “a defense at law
foreign law, the court may consider any relevant material or source,
including testimony, whether or not submitted by a party or admissible
under the Federal Rules of Evidence.”)

(28 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 28 of 61

28

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

relating to the passage of time.” However, TBC’s Article
1955 defense is a defense on the merits: that TBC has
acquired title to the Painting based on Spain’s property
laws. See Article 1955 (“Ownership of personal property
prescribes by . . .”) (emphasis added), Ministerio de Justicia,
Spain Civil Code 220 (2009) (English translation). Read in
context, HEAR’s § 5(a) language that the six-year statute of
limitations applies “notwithstanding any defense at law
relating to the passage of time” is meant to prevent courts
from applying defenses that would have the effect of
shortening the six-year period in which a suit may be
commenced. HEAR does not bar claims based on the
substantive law that vests title in a possessor, that is, the
substantive law of prescription of title. Therefore, HEAR
does not foreclose the possibility that TBC is entitled to
summary judgment because TBC has acquired title to the
Painting via Article 1955.
Read alone, Article 1955 would seem to vest title in one
who gained possession, even absent good faith, after six
years, so long as the possession was in the capacity as owner,
public, peaceful, and uninterrupted. TBC took possession of
the Painting in the capacity of an owner in 1993. TBC’s
claim was not challenged until the Cassirers’ petition was
filed in 2001. Although the Cassirers argue otherwise, TBC
has established the “public” element because it is undisputed
TBC publicly displayed the Painting in the Museum as part
of the permanent collection it owned. Also, information
about the Painting’s location appeared in multiple
publications between 1993 and 1999, the relevant six-year
period. The parties agree TBC’s possession was peaceful
from 1993 until 1999. Finally, TBC’s possession was
uninterrupted during this time period. Thus, Article 1955,
read in isolation, would seem to bar the Cassirers’ action for
recovery of the Painting.

(29 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 29 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

29

But the very next article in the Spanish Civil Code,
Article 1956, modifies how acquisitive prescription
operates. Article 1956 reads:
Movable property purloined or stolen may
not prescribe in the possession of those who
purloined or stole it, or their accomplices or
accessories [encubridores], until the crime or
misdemeanor or its sentence, and the action
to claim civil liability arising therefrom,
should have become barred by the statute of
limitations.
Ministerio de Justicia, Spain Civil Code 220 (2009) (English
translation). Therefore, as to any principals, accomplices, or
accessories (encubridores) to a robbery or theft, Article 1956
extends the period of possession necessary to vest title to the
time prescribed by Article 1955 plus the statute of
limitations on the original crime and the action to claim civil
liability. See Spanish Supreme Court decision of 15 July
2004 (5241/2004).
The Cassirers argue that TBC is an accessory
(encubridor) to the theft of the Painting because TBC knew
the Painting had been stolen when TBC acquired the
Painting from the Baron. For the crime of encubrimiento
(accessory after the fact) and the crime of receiving stolen
property, the two crimes the Cassirers argue TBC committed
when it purchased the Painting from the Baron in 1993, the
criminal limitations period is five years, 1973 Penal Code
Articles 30, 113, 546(bis)(a) and 1995 Penal Code Articles
131, 298, and the civil limitations period is fifteen years,
Judgment of January 7, 1982 (RJ 1982/184) and Judgment
of July 15, 2004 (no. 5241/2004). Thus, if Article 1956
applies, including the six-year period from Article 1955,

(30 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 30 of 61

30

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

TBC would need to possess the Painting for twenty six years
after 1993, until 2019, to acquire title via acquisitive
prescription. Since the Cassirers petitioned TBC for the
Painting in 2001 and filed this action in 2005, if Article 1956
applies, TBC has not acquired prescriptive title to the
Painting. 13
Article 1956 extends the time of possession required for
acquisitive prescription only as to those chattels (1) robbed
or stolen from the rightful owner (2) as to the principals,
accomplices or accessories after the fact (“encubridores”)14
with actual knowledge of the robbery or theft.
The parties agree the first requirement is satisfied
because the forced sale of the Painting by Scheidwimmer
and the Nazis is a misappropriation crime within the
meaning of Article 1956. As for the second requirement, no
one claims that TBC had any hand in that forced sale; TBC
is not a principal or accomplice to the 1939 misappropriation
of the Painting.

13

The Cassirers also argue that TBC has not acquired title because,
under Spanish law, there is no statute of limitations for a crime against
humanity and a crime against property during armed conflict. Since
resolving this claim would not change the result in this case, we decline
to decide this issue.
14

When Article 1956 was adopted in 1889, the contemporary
dictionary meaning of encubridor was “one who covers something up.”
See 1884 Diccionario de la Lengua Castellana, Real Academia Española.
The 1888 General Etymological Dictionary of the Spanish Language by
the prestigious linguist Eduardo Echegaray mirrors the definition of the
Real Academia. No legal meaning appears in the dictionaries. However,
in an official translation of Article 1956 from Spain’s Ministry of Justice,
“encubridores” is translated as “accessories.”

(31 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 31 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

31

The primary dispute between the parties is whether TBC
is an accessory (encubridor) as that term is used in Article
1956. The district court accepted TBC’s interpretation of
Spanish law and found that TBC was not an encubridor. The
district court decided that the term “encubridor” in Civil
Code Article 1956 should be defined by reference to the
Penal Code that was in effect when TBC acquired the
Painting. In 1993, Article 17 of the Penal Code of 1973 (the
Penal Code then in effect) defined encubridor to include
only persons who, after the commission of the underlying
crime, acted in some manner to aid those who committed the
crime avoid penalties or prosecutions. 15 Before the district
court, the Cassirers argued that TBC was an encubridor
because TBC concealed the looting of the Painting to
prevent the 1939 crime from being discovered. The district
court held that TBC was not an encubridor within the
meaning of Article 1956 because “there is absolutely no
evidence that the Foundation purchased the Painting (or
performed any subsequent acts) with the intent of preventing
15
Article 17 of the 1973 Spanish Criminal Code defines
encubridores:

[T]hose who, aware of the perpetration of a punishable
offense, without having had involvement in it as
principals or accessories, are involved subsequent to
its execution in any of the following ways:
1. Aiding and abetting the principals or accomplices to
benefit from the felony or misdemeanors.
2. Hiding or destroying the evidence, effects or
instruments of the felony or misdemeanor, to prevent
it being discovered.
3. Harboring, concealing, or aiding the escape of
suspected criminals . . . .

(32 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 32 of 61

32

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

Scheidwimmer’s or the Nazis’ criminal offenses from being
discovered.” The district court concluded that, since Article
1956 did not apply, TBC had acquired title to the Painting
under Article 1955.
On appeal, the Cassirers offer a new reason TBC is an
Article 1956 accessory [encubridor]: According to the
Cassirers, TBC knowingly received stolen property when
TBC acquired the Painting from the Baron. The Cassirers
advocate using the definition of encubridor from the 1870
Spanish Penal Code, which was in force when Article 1956
of the Civil Code was enacted in 1889. Article 16 of the
1870 Penal Code stated:
Those who, with knowledge of the
perpetration of the felony, and not having
participated in it as perpetrators or
accomplices, intervene after its execution in
any of the following modes, are guilty of
concealment: . . .
2. By obtaining benefit for themselves, or
aiding the perpetrators to benefit from the
effects of the crime. 16
That definition of encubridor includes one who knowingly
benefits himself from stolen property. The Cassirers argue
that the 1889 legislature had the 1870 Penal Code definition

16
“Son encubridores los que, con conocimiento de la perpetracion
del delito, sin haber tenido participacion en él como autores ní cómplices,
intervienen con posterioridad á su ejecucíon de alguno de los modos
siguientes. Aprovechándose por si mismos ó auxiliando á los
delincuentes para que se aprovechen de los efectos del delito.”

(33 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 33 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

33

in mind when the legislature enacted Article 1956. Article
1956 has not been modified since 1889.
TBC asserts that the Cassirers’ new argument on appeal,
that TBC is an encubridor based on the 1870 Penal Code
definition because TBC, knowing of the theft, received the
stolen painting, is “waived” because the Cassirers not did
present it below. However, the Cassirers’ new argument
asks this Court to interpret the term “encubridor” in Article
1956. To do so, this Court must interpret the relevant
sources of Spanish law. Therefore, the meaning of
encubridor is a pure issue of law. Under this Court’s
precedent, we may consider a new argument on appeal
which presents a pure issue of law even though it was not
raised below. In re Mercury Interactive Corp. Sec. Lit.,
618 F.3d 988, 992 (9th Cir. 2010).
For the reasons stated below, we agree with the Cassirers
that the term “encubridor” in Article 1956 has the meaning
that term was given it in the 1870 Penal Code. We thus
conclude that a person can be encubridor within the meaning
of Article 1956 if he knowingly receives and benefits from
stolen property. 17
Since our jurisprudence requires us to apply Spanish
substantive law, it stands to reason we should apply Spanish
rules of statutory interpretation. Article 3.1 of the Spanish
Civil Code (“Article 3.1”) states, “Rules shall be construed
according to the proper meaning of their wording and in
connection with the context, with their historical and
17

Article 1956 requires that the encubridor must have actual
knowledge the chattel was the product of robbery or theft. See Spanish
Supreme Court decision of 23 December 1986 (RJ 1986/7982).

(34 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 34 of 61

34

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

legislative background and with the social reality of the time
in which they are to be applied, mainly attending to their
spirit and purpose.” 18 Ministerio de Justicia, Spain Civil
Code 1 (2009) (English translation).
i. Proper Meaning of Wording
To determine the definition of “encubridor” in Article
1956, Article 3.1 first directs us to consider the “proper
meaning of [its] wording.” As noted above, dictionaries
contemporary to the 1889 Civil Code shed little light on any
legal meaning for the term encubridor.
The 1884
Diccionario de la Lengua Castellana, Real Academia
Española defines “encubridor” as one who practices
“encubrimiento,” which in turn is defined as “the action and
effect of hiding a thing or not manifesting it.” 19 The 1888
General Etymological Dictionary of the Spanish Language
by the prestigious linguist Eduardo Echegaray mirrors the
definition of the Real Academia. 20 Neither discusses the
meaning of encubridor in legal terms or as used in the law.
There is no mention of such elements as whether to be an
encubridor the person need have knowledge of a prior crime
or be motivated by a desire to help others or only himself.

18

“Las normas se intepretarán según el sentido propio de sus
palabras, en relación con el contexto, los antecedentes históricos y
legislativos, y la realidad social del tiempo en que han de ser aplicadas,
atendiendo fundamentalmente al espíritu y finalidad de aquellas.”
19

Encubridor: Que encubre. Encubrir: Ocultar una cosa ó no
manifestarla.
20

Encubridor, ra: Que encubre alguna cosa. Usase también como
sustantivo. Encubrir: Ocultar una cosa ó no manifestarla.

(35 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 35 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

35

Of course, if an encubridor hides the chattel, he cannot
fulfill the open, public display of the chattel, in the capacity
of an owner, which Article 1955 requires for usucaption.
Does it follow that if he displays the chattel sufficiently to
satisfy usucaption possession he is not an encubridor?
Certainly, TBC displayed the Painting to the public and
acted as the owner of the Painting.
This logic could be accepted if the word encubridor was
used in Spanish law to mean only a person who conceals or
hides or fails to manifest. But that is not what has been found
to be the case, as we will see when we apply the second rule
of interpretation prescribed by Article 3.1.
ii. Context
Second, Article 3.1 instructs us to determine the meaning
of a rule “in connection with the context.” “Encubridor” in
Article 1956 is used in a legal context. Hence, what does
encubridor mean in Spanish law?
Both parties agree that the Penal Code is the proper place
to look for the legal meaning of the term encubridor.
However, while the Cassirers urge this Court to use the 1870
Penal Code definition, which includes a receiver of stolen
goods who acts for his own benefit, TBC urges this Court to
use the 1973 Penal Code definition, which TBC claims
excludes such a receiver. Under the 1973 Penal Code, only
accessories after the fact acting in aid of the perpetrators or
accomplices of the original crime are expressly declared
encubridores under Article 17.1.

(36 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 36 of 61

36

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION
iii. Historical and Legislative Background

These conflicting positions require us to go to the third
canon of interpretation stated in Article 3.1: “the historical
and legislative background.”
a. Definition of “encubridor” in the 1870
Penal Code
Looking to “the historical and legislative background” of
Article 1956, we conclude that the term “encubridor” should
be construed consistently with the definition of “encubridor”
in the 1870 Penal Code. The parties agree that the content
of the term “encubridor” in the Civil Code should be
determined by reference to the Penal Code. The 1870 Penal
Code was in effect when Article 1956 of the Civil Code was
enacted in 1889, and Article 1956 has not been amended
since its enactment. Under the 1870 Penal Code, “[t]hose
who, with knowledge of the perpetration of a crime,”
intervene after its execution “[b]y obtaining benefit for
themselves, or aiding the perpetrators to benefit from the
effects of the crime” are encubridores. Thus, if the 1870
Penal Code definition of “encubridor” applies for Civil Code
Article 1956, an encubridor includes someone who
knowingly benefits from stolen property, including a person
who knowingly receives stolen property.
However, TBC claims that the Law of May 9, 1950
(“1950 Law”) removed from the Penal Code’s definition of
encubridor a person who, with knowledge of the theft or
robbery which produced the stolen chattel, took the chattel
into his possession solely for his own benefit and not for the
benefit of the perpetrators of the theft or robbery and that this
law changed the definition of “encubridor” in Civil Code
Article 1956 as well. There are two reasons this is not so.

(37 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 37 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

37

First, Article 3.1’s instruction to evaluate a statute’s
“historical and legislative background,” Ministerio de
Justicia, Spain Civil Code 1 (2009) (English translation),
refers to the history that occurred before Article 1956 was
enacted in 1889, not subsequent developments. Although
the Spanish legislature modified the Penal Code through the
1950 Law, it did not alter the Civil Code, including Article
1956. Therefore, the 1870 Penal Code provides the pertinent
definition of the term “encubridor” in Article 1956.
b. The 1950 Law
Second, even if the 1950 Law should affect how we
interpret the term “encubridor” in Article 1956, we reject
TBC’s suggestion that the enactment of the 1950 Law
changed the definition of “encubridor.” True, in its
enactment of Article 17.1, the 1950 Law eliminated Article
16.1 of the 1870 Penal Code and that portion of the definition
of encubridor that included an accessory after the fact acting
for his own benefit. The 1950 law enacted Article 17.1,
which restricted encubridor to include only accessories after
the fact acting on behalf or in aid of the original thieves and
accomplices. But the 1950 Law did not eliminate altogether
from the Penal Code the 1870 definition of encubridor that
included a person acting for his own benefit, motivated by
lucre. First, the 1950 Law recited in its preamble an
intention not to change the venerable law regarding
accessories: “[I]t does not seem prudent to radically change
this institution, that is now in Division I of the common
Criminal Code, a penalizing law that is a homogeneous piece
mounted on a venerable and correct classic. And it does not
seem advisable until one day the general lines of our old
Code are changed, if need be.” Second, it simply moved the
1870 definition of encubridor elsewhere in enacting the new
statute that made it a crime to receive goods known to be

(38 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 38 of 61

38

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

stolen. Article 2 of the 1950 Law created the crime of
receiving stolen property as Article 546(bis)(a) of the Penal
Code with the title “Del encubrimiento con ánimo de lucro
y de la receptación” (meaning “Regarding acting as the
accessory [encubrimiento] with the purpose of obtaining
profit or receiving stolen property [receptación]”). Thus,
encubrimiento in the Penal Code was still described as
including acting as an accessory by receiving stolen goods
for one’s own benefit.
The preamble to the 1950 Law in fact also states that the
purpose of the law is procedural: to allow independent
criminal prosecutions for receivers of stolen goods even
when the principals of, or accomplices to, the theft or
robbery cannot be located. Under Spanish law at the time,
accessories after the fact could not be charged by
themselves. They were subject only to a joint proceeding in
which they were joined as defendants with principals and
accessories, if any.
The language of Article 546(bis)(a) of the Penal Code,
as adopted at the time, reflects the fact that receiving stolen
goods had long been considered a form of encubrimineto
(acting as an accessory):
Who with knowledge of the commission of a
felony against property takes advantage for
himself of the product of the [felony], will be
punished with minor jail and fined from
5,000 to 50,000 pesetas. In no case can a
sentence which deprives one of liberty
exceed that established for the felony
concealed [“al delito encubierto”].
Specifically, the use of the adjective “encubierto” to
describe the activities of a receiver of stolen goods acting for

(39 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 39 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

39

his own benefit implies that the receiver is himself an
encubridor. Thus, the historical and legislative background
of the term encubridor in the Spanish Penal Code suggests
that someone who knowingly receives and benefits from
stolen property can qualify as an encubridor for purposes of
Civil Code Article 1956.
iv. Social Reality at Time of Enactment
Turning to the fourth canon in Article 3.1, this Court
should consider “the social reality of the time” in which
Article 1956 is to be applied. In 1993, when TBC acquired
the Painting, the crime of receiving property known to be
stolen and the crime of acting as accessory after the fact of
theft by possessing such property were interchangeable in
practice. This fact is demonstrated by the Judgment
1678/1993 of July 5 (RJ 1993/5881) that is cited in the
amicus brief of Comunidad Judía de Madrid and Federación
de Comunidades Judías de España. In that case, the appeal
to the Supreme Court of Spain was on the basis of what we
call a “variance” between the indictment and the crime of
conviction. The appellant had been accused of receiving
stolen goods, but was convicted of being an accessory after
the fact. The Spanish Supreme Court found that the
perpetrator’s actions in receiving stolen jewelry to sell and
keep the proceeds were sufficiently laid out in the accusatory
pleading to allow the defendant to mount an adequate
defense to the charge of being an accessory after the fact,
even if he was convicted of a crime strictly not charged.
There was no mention of the defendant acting in aid of the
persons who had committed the original jewelry theft. As
the court stated, “Thus then, we must say that here we find
ourselves before two homogeneous felonies, with identity of
rights protected and in fact adjudged, and as the sentence
imposed was less [than that of the crime laid out in the

(40 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 40 of 61

40

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

accusation] it is clear that the principle of [fair notice]
accusation was lawfully respected.”
The Spanish Supreme Court also recognized the
interchangeability of the crimes of receiving stolen goods
and of being an accessory after the fact (encubridor) in
Judgment 77/2004, of 21 January (RJ2004/485). 21 In this
case, a boat was stolen in Germany and the defendant knew
it was stolen. After trying to sell the boat to a good faith
purchaser, the defendant was accused of being a receiver of
stolen goods (receptador) by accusatory pleading, but then
was convicted under Article 17.1 as an accessory after the
fact (encubridor). The court found no fatal “variance”
between the accusatory pleading under Article 546(bis)(a)
and the conviction under Article 17.1 because the defendant
was given fair notice of all the “points” on which conviction
would depend at trial, and hence could mount a complete
defense. According to the Supreme Court, both crimes
require (1) knowledge of the prior felony and the stolen
nature of the goods in question and (2) possession of those
goods by the accused. Again, there was no mention that the
defendant acted as an accessory after the fact by concealing,
in aid of the boat’s thief.

21
In 1995, the Penal Code was updated and the crime of receiving
stolen goods was moved to Article 298 of the Penal Code. Of note, in
specifying sentencing, Article 298 retains the language used in the old
Article 546(bis)(a), “Under no circumstances whatsoever may a sentence
of imprisonment be imposed that exceeds that set for the felony
concealed.” In Spanish, “En ningún caso podrá imponerse pena
privativa de libertad que exceda de la señalada al delito encubierto.”
This was the same language that was used in Article 546(bis)(a) in force
from 1950 to 1995.

(41 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 41 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

41

Our conclusion that the terms “accessory motivated by
lucre” and “receiver of stolen goods” are interchangeable
and have been preserved in the Spanish Penal Code
following the 1950 Law is not novel. This seems to have
been the interpretation given that portion of the 1950 Law by
Cuello Calón in his annual report on criminal law: “Anuario:
Annual of Penal Law and Penal Sciences (1951),
modifications introduced in the Penal Code as to accessory
[liability] by the Law of 9 May, 1950.” 22 As Calón states,
“Better fortune [as to the survival of the terms after the 1950
law] has occurred to the so-called ‘receptación’ or
‘encubrimiento’ for both expressions are used as synonyms
by the new law.” 23
In sum, after applying the four methods of interpretation
set forth in Article 3.1, we conclude that the meaning of
encubridor (accessory after the fact) in the 1889 Civil Code
is that of the 1870 Penal Code and that later legislation has
not changed that meaning. Thus, an Article 1956 encubridor
can be someone who acts as accessory after the fact of the
crime committed, and who acts for his own benefit—to gain
lucre. A detailed reading of the 1950 Law tells us this
meaning of encubridor was not intended to be changed nor
was in fact changed by that Law. That law rearranged the
22

Anuario de Derecho Penal y Ciencias Penales (1950),
Modificaciones introducidas en el Codigo penal en materia de
encubrimiento por la Ley de 9 de Mayo, 1950, p. 346, Eugenio Cuello
Calón (“Anuario, 1950”). See also Cuello Calón, Derecho Penal 672
(C. Camargo Hernandez rev. 18th ed. 1981) (explaining that
concealment is a crime separate and distinct from the original theft and
robbery which provided the stolen chattel).
23

“Mejor suerte ha cabido a la llamada ‘receptación o
encubrimiento, con ánimo de lucro’ pues ambas expresiones son usadas
como sinónimas por la nueva ley.”

(42 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 42 of 61

42

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

concept of an accessory after the fact acting for his own
benefit into the receipt of stolen goods for procedural
convenience: to allow prosecution of the suspect without the
necessity of a joint prosecution of the principals and
accomplices, if any, of the underlying crime. But a knowing
receiver of stolen goods could still be prosecuted as an
accessory after the fact to the theft even if he benefited only
himself. The meaning of “encubridor” is considered
interchangeable with “receptador” (receiver of goods
known to be stolen) as shown by the title and text of Article
2 of the 1950 Law. Also, this reading of the Law of May 9,
1950, is confirmed by Spanish Supreme Court decisions
which describe the two terms as interchangeable and
homogeneous. Last, this homogeneity is recognized by the
official annual report written by Cuello Calón
contemporaneously with the adoption of the 1950 Law.
2. TBC has not established, as a matter of law,
that it did not have actual knowledge the
Painting was stolen property.
Assuming Article 1956 applies to someone who
knowingly benefits from stolen property, TBC has not
established as a matter of law that it acquired title to the
Painting through acquisitive prescription. Clearly, TBC
benefited from having the Painting in its museum. As for
the required actual knowledge element of Article 1956, we
review the evidence proffered by the Cassirers with all
inferences in their favor as required by our summary
judgment rules, to see if the Cassirers have produced
sufficient evidence to create a triable issue of fact that TBC
knew the Painting had been stolen from its rightful owner(s)
when TBC acquired the Painting from the Baron.
Dr. Jonathan Petropoulos, the Cassirers’ expert and a
professor of European History who has published on the

(43 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 43 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

43

subject of Nazi art looting, declared that numerous so-called
“red flags” would have indicated to TBC (and to the Baron)
that the Painting was stolen. 24 The provenance information
given by the Stephen Hahn Gallery to the Baron in 1976 did
not mention a previous owner, only the gallery Durand-Ruel
in Paris, where the painting was said to have been exhibited
in 1898 and 1899. 25 The Painting contained a partial label
on the back that said “Berlin” and part of two words “Kunst–
und Ve . . .” that may be German for “art and publishing
establishment” (“Kunst und Verlagsanstalt”). This label
may be from the Cassirers’ art gallery. Although this label
was on the back of the Painting, the Painting had no
documentation showing a voluntary transfer of the Painting
out of Berlin. Also, according to Dr. Petropoulos, Pissarro
paintings were “immediately suspect” because they were
favored by European Jewish collectors and often looted by
the Nazis. Dr. Petropoulos noted that the French Ministry of
Culture in 1947 published a compendium of French cultural
losses during World War II that includes forty-six works by
Pissarro that were looted by the Nazis and have yet to be
recovered. The CORA decision confirming Lilly’s rightful
ownership of the Painting had been published and made
available to the public. 26

24

TBC started investigating the Baron’s collection in 1989. Thus,
TBC had time to discover these red flags before the 1993 purchase.
25
Julius Cassirer, who was Lilly’s father-in-law, bought the Painting
from Paul Durand-Ruel in Paris in 1898.
26

Dr. Petropoulos provided some evidence that suggests TBC may
have been aware of this decision: the CORA decision was cited in a 1974
book about Allied restitution laws published by a prestigious German
publisher that received reviews in English language periodicals.

(44 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 44 of 61

44

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

How TBC purchased the Painting also provides some
evidence that TBC knew the Painting was stolen. While
TBC held the collection on loan, in an official publication in
1992, Modern Masters by Jose Alvarez Lopera, TBC
published incorrect provenance history that stated the Baron
had acquired the Painting through the Joseph Hahn Gallery
in Paris when in fact the Baron purchased the Painting
through the Stephen Hahn Gallery in New York. The
Cassirers argue that TBC sought to conceal the Painting’s
provenance because the Stephen Hahn Gallery sold at least
one other work looted by the Nazis.
Also, when
investigating the Baron’s collection, TBC’s lawyers decided
to assume the Baron acquired his collection in good faith.
By assuming good faith, TBC chose to investigate only
artwork that was acquired by the Baron after 1980. One
possible inference is that TBC knew the Painting was stolen
and did not want to create documentation that reflected this
history.
TBC paid $338 million for the Baron’s Collection that
included the Painting when the Collection’s estimated value
was between one and two billion dollars. Although TBC
offers a number of innocent explanations for this belowmarket price, this fact may indicate that TBC knew the
Painting and other works in the collection were stolen.
William Smith, an expert in 16th to 20th century European
paintings who filed a declaration on behalf of the Cassirers,
opined that the Painting was sold to the Baron at a discount
of 41.2%–50% of the estimated gallery retail price. TBC
argues that the Baron did not purchase the Painting at a
suspiciously low cost, but we must consider this clash of
evidence in the light most favorable to the Cassirers. TBC’s
knowledge of the below-market price the Baron acquired the
Painting for may also suggest TBC knew the Painting was
stolen.

(45 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 45 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

45

In conclusion, when all of the evidence is considered in
the light most favorable to the Cassirers, the Cassirers have
created a triable issue of fact whether TBC knew the Painting
was stolen from Lilly when TBC purchased the Painting
from the Baron. TBC acquired the Painting for its own
benefit, and TBC may have known the Painting was stolen.
If so, TBC can be found by the trier of fact to be an
encubridor who could not have acquired title to the Painting
through acquisitive prescription until 2019 since an Article
1956 encubridor can be someone who knowingly benefits
from the receipt of stolen property. Therefore, the district
court erred in granting summary judgment on the grounds
that, as a matter of law, TBC acquired the Painting through
acquisitive prescription. 27
D. TBC is not entitled to summary judgment based
on its claim that the Baron had lawful title to the
Painting under Swiss law.
In TBC’s cross-appeal of the summary judgment order,
TBC argues that “it is the lawful owner of the Painting
because [TBC] purchased the Painting in a lawful
conveyance from a party (the Baron) who had valid title to
convey.” Since the district court granted summary judgment
in favor of TBC on the basis of Spanish law, the district court
did not consider TBC’s argument that the Baron gained
27

The Cassirers make a similar argument that TBC “purloined” the
Painting within the meaning of Article 1956 and therefore could not have
acquired the Painting through acquisitive prescription. In support of this
argument, the Cassirers cite Spanish authorities suggesting the term
“purloin” in Article 1956 can include knowing receipt of stolen goods.
Therefore, whether interpreting “encubridor” or “purloin,” the
Cassirers’ argument turns on whether someone who receives and
benefits from goods known by him to be stolen is delayed in taking
prescriptive title because of Article 1956.

(46 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 46 of 61

46

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

lawful title before transferring the Painting to TBC.
Nonetheless, “if the district court’s order can be sustained on
any ground supported by the record that was before the
district court at the time of the ruling, we are obliged to
affirm the district court.” Jewel Cos., Inc. v. Pay Less Drugs
Stores Nw. Inc., 741 F.2d 1555, 1564–65 (9th Cir. 1984)
(citing Calnetics Corp v. Volkswagen of Am., Inc., 532 F.2d
674, 682 (9th Cir. 1976)).
We begin our analysis by considering which state’s law
governs the effect of the conveyance from the Baron to TBC.
As noted in Part III.B, based on the principles set forth in the
Second Restatement of the Conflict of Laws, this Court
should apply Spanish property law to adjudicate TBC’s
claim that it is the rightful owner of the Painting. Also, § 245
of the Second Restatement states, “The effect of a
conveyance [from the Baron to TBC] upon a pre-existing
interest in a chattel of a person [Cassirer] who was not a
party to the conveyance will usually be determined by the
law that would be applied by the courts of the state where
the chattel was at the time of the conveyance.” The Painting
was in Spain when TBC and the Baron entered into the
acquisition agreement on June 21, 1993, because TBC had
held the Painting as part of the prior loan agreement. As
noted in Part III.B, Spain uses the law of the situs rule for
movable property. See Civil Code Article 10.1, Ministerio
de Justicia, Spain Civil Code 4 (2009) (English translation).
This means Spain would apply its own property laws to
decide the effect of the conveyance from the Baron to TBC.
Thus, the Second Restatement directs us to apply Spanish
law to determine whether TBC acquired ownership of the
Painting via the 1993 acquisition agreement.
Under Spanish law, a consensual transfer of ownership
requires title and the transfer of possession. See Civil Code

(47 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 47 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

47

Article 609, Ministerio de Justicia, Spain Civil Code 83
(2009) (English translation). As noted, when the acquisition
agreement was entered into, possession of the Painting had
already been transferred to TBC pursuant to the loan
agreement. Therefore, if the Baron had good title to the
Painting when he sold it to TBC, then TBC became the
lawful owner of the Painting through the acquisition
agreement.
TBC argues that the Baron had good title to convey
because the Baron acquired good title to the Painting either
through the Baron’s purchase of the Painting in 1976 from
the Stephen Hahn Gallery in New York or through
Switzerland’s law of acquisitive prescription. Since Spain
applies the law of the situs for movable property, Spanish
law would look to New York law to determine the effect of
the 1976 conveyance in New York, and Swiss law to
determine whether the Baron acquired title to the Painting
when he possessed it in Switzerland between 1976 and 1992.
Under New York law, “a thief cannot pass good title.”
See Bakalar v. Vavra, 619 F.3d 136, 140 (2d. Cir. 2010)
(citing Menzel v. List, 267 N.Y.S. 2d 804 (N.Y. Sup. Ct.
1966)). “This means that, under New York law, . . . absent
other considerations an artwork stolen during World War II
still belongs to the original owner, even if there have been
several subsequent buyers and even if each of those buyers
was completely unaware that she was buying stolen
goods.” Id. (internal quotation marks omitted). Here, even
if the Stephen Hahn Gallery (the gallery from which TBC
alleges the Baron purchased the Painting) had no knowledge
that the Nazis stole the Painting, the conveyance did not
confer good title on the Baron under New York law.
As noted, TBC also argues that the Baron acquired title
to the Painting through the Swiss law of acquisitive

(48 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 48 of 61

48

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

prescription. Under Swiss law, to acquire title to movable
property through acquisitive prescription, a person must
possess the chattel in good faith for a five-year period. Swiss
Civil Code Article 728. The Baron completed the five-year
period of possession between 1976 and 1981. Even though
the Baron exhibited the Painting during a tour of Australia
and New Zealand in 1979 and 1981, TBC’s Swiss law expert
stated that this exhibition abroad “did not create a legally
relevant interruption, since the Painting was bound to return
to [Switzerland].” In briefing to this Court, the Cassirers do
not dispute that the Baron possessed the Painting for a
sufficient amount of time.
However, the Baron acquired title through acquisitive
prescription only if he possessed the Painting in good faith.
The Cassirers assert there is a triable issue of fact as to
whether the Baron possessed the Painting in good faith.
Swiss law presumes good faith. See Swiss Civil Code
Article 3.1. But good faith can be rebutted by showing that
a person “failed to exercise the diligence required by the
circumstances.”
See Swiss Civil Code Article 3.2.
According to Dr. Wolfgang Ernst, TBC’s Swiss law expert,
the finding of good faith or bad faith in an individual case is
considered to be an issue of fact.
In determining whether a purchaser acted in good faith
or not, the Swiss Supreme Court has considered factors such
as: (1) whether the purchaser should have considered the
stolen or looted origin of the object at least as a possibility;
(2) the fact that specific circumstances, such as war, required
a high degree of attention; and (3) the general public
knowledge of the circumstances in which the works of art
were taken from their legitimate owners. See Paul
Rosenberg v. Theodore Fisher et al., Swiss Supreme Court
June 3, 1948. Thus, a good faith purchaser is one who is

(49 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 49 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

49

honestly and reasonably convinced that the seller is entitled
to transfer ownership.
After reviewing the record developed before the district
court, we conclude that there is a triable issue of fact as to
the Baron’s good faith. As noted in Part III.C, the Stephen
Hahn Gallery from which the Baron purchased the Painting
sold at least one other work looted by the Nazis. William
Smith, the Cassirers’ expert in European paintings, stated
that the $275,000 price the Baron paid for the Pissarro in
1976 “was approximately half of what would have been
expected in a dealer sale, and that there is no reasonable
explanation for this price other than dubious provenance.” 28
Furthermore, Dr. Jonathan Petropoulos’ “red flags”
analysis of the Painting’s background provides some
evidence that suggests the Baron did not possess the Painting
in good faith. 29 To recap these alleged “red flags,” the Nazis
looted many Pissarro paintings, which were a favorite
among European Jewish collectors. Moreover, the Painting
had a torn label on the back from a gallery in Berlin (the
Cassirers’ gallery), but no documentation showing a
voluntary transfer of the Painting out of Berlin. The
published CORA decision identified Lilly’s ownership of
28

Although TBC’s expert, Dr. Ernst, stated that he was “not aware
of any evidence that this price was conspicuously low so as to indicate
eventual problems regarding the provenance/title situation[,]” we must
view this conflict of evidence in the light most favorable to the nonmoving party, the Cassirers.
29
As Dr. Petropoulos declared, “In my opinion, if the Baron and
TBC did not in fact know of the faulty provenance of the Painting and
the high likelihood that they were trafficking in Nazi looted art, they
were willfully blind to this risk and ignored very obvious ‘red flags’ that
no reasonable buyer would have ignored.”

(50 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 50 of 61

50

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

the Painting. Also, Dr. Petropoulos stated that Ardelia Hall
and Ely Maurer at the United States State Department
collected CORA decision reports and warned museums,
university art facilities, and art dealers about looted artworks
entering the United States and that, had the Baron contacted
these individuals about the Painting, the CORA decision
would have been discovered. When the Baron purchased the
Painting, the Stephen Hahn Gallery provided minimal
provenance information: no previous owner was mentioned,
only the gallery Durand-Ruel in Paris, where the painting
was said to have been exhibited in 1898 and 1899. Dr.
Petropoulos states that the Baron’s “highly distinguished
cohort of experts” failed to “undertake a serious
investigation” to determine the provenance of the Painting.
Another expert for the Cassirers, Marc-André Renold, a
professor at the University of Geneva Law School who
specializes in international art law, stated that he “would
have expected someone of the Baron’s sophistication to have
undertaken a more diligent search into the provenance of the
Painting.”
This evidence indicates there is a triable issue of fact
whether the Baron was a good faith possessor under Swiss
law. Therefore, we cannot affirm the district court’s grant of
summary judgment on the basis that, as a matter of law, the
Baron acquired title to the Painting under Swiss law. 30

30

The triable issue of fact whether the Baron held the Painting in
good faith is another reason TBC cannot establish as a matter of law that
the Baron acquired title to the Painting through the 1976 conveyance
from the Stephen Hahn Gallery. Even if the Painting was purchased in
Switzerland and the conveyance was governed by Swiss law, under
Swiss law, only a good faith purchaser can acquire title to a chattel
through a conveyance. See Swiss Civil Code Article 936 (“A person that

(51 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 51 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

51

E. TBC is not entitled to summary judgment based
on its laches defense.
TBC also argues in its cross-appeal of the summary
judgment order that the Cassirers’ claims are barred by
laches. TBC raises its laches argument under California law.
Since the district court granted summary judgment on the
basis of Spanish law, the district court did not consider
TBC’s laches defense. As noted above, we also conclude
that Spanish law applies.
However, even if California law applied, this Court has
stated: “To establish laches a defendant must prove both an
unreasonable delay by the plaintiff and prejudice to itself.
Because the application of laches depends on a close
evaluation of all the particular facts in a case, it is seldom
susceptible to resolution by summary judgment.” Couveau
v. Am. Airlines, Inc., 218 F.3d 1078, 1083 (9th Cir. 2000)
(per curiam) (citations omitted). There is at least a genuine
dispute of material fact as to whether any delay was
unreasonable.
After the war, Lilly sought physical
restitution of the Painting, but her unsuccessful efforts
involving litigation lasting a decade ended with the 1958
Settlement Agreement. Thus, Claude Cassirer could have
reasonably believed the Painting was lost or destroyed in the
war.
Thus, TBC is not entitled to summary judgment based on
its laches defense.

has not acquired a chattel in good faith may be required by the previous
possessor to return it at any time.”).

(52 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 52 of 61

52

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION
F. Lilly’s acceptance of the 1958 Settlement
Agreement does not foreclose the Cassirers’
claims.

In TBC’s appeal of the district court’s order denying its
motion for summary adjudication on the grounds that Lilly
waived her ownership rights to the Painting in the 1958
Settlement Agreement, TBC repeats the same arguments that
the district court rejected. As noted in Part I.A, the 1958
Settlement Agreement was between Lilly, Scheidwimmer
(the Nazi art appraiser), Grete Kahn (the heir of the other
Jewish victim, Sulzbacher), and the German government.
The Settlement Agreement provided that: (1) Germany
would pay Lilly 120,000 Deutschmarks (the Painting’s
estimated value as of April 1, 1956); (2) Grete Kahn would
receive 14,000 Deutschmarks from the payment to Lilly; and
(3) Scheidwimmer would receive the two German paintings.
Grete Kahn expressly waived any right to restitution of the
Painting. However, Lilly did not expressly waive her right
to physical restitution. Instead, as for Lilly, the Settlement
Agreement just notes that the settlement settles “all mutual
claims among the parties.” The whereabouts of the Painting
was unknown, no party possessed it.
Neither party has expressly argued which sovereign’s
law should be used to interpret the Settlement Agreement.
However, the district court applied German law, and the
parties do not contest this conclusion on appeal.
Accordingly, any choice-of-law issue has been waived,
Martinez-Serrano v. I.N.S., 94 F.3d 1256, 1259 (9th Cir.
1996), and we apply German law in interpreting the
Settlement Agreement.
TBC argues that Lilly’s acceptance of the Settlement
Agreement defeats the Cassirers’ claims for three reasons.
First, TBC argues that Lilly implicitly waived her right to

(53 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 53 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

53

seek physical restitution when she accepted the Settlement
Agreement. Second, TBC argues the Settlement Agreement
remedied and resolved the “taking in violation of
international law,” and pending litigation of a claim
involving a taking is required for FSIA jurisdiction. Third,
TBC argues that federal policy on Nazi-looted art requires
honoring the finality of the Settlement Agreement.
In support of its first argument, TBC notes that the
Settlement Agreement states that it “settles all mutual claims
among the parties.” However, Lilly knew that none of the
parties had possession of the Painting or knowledge of its
whereabouts, and the agreement purported to settle claims
only among the parties. Also, the Settlement Agreement
expressly waives Grete Kahn’s right to physical restitution,
but not Lilly’s.
The district court noted that the Bundesgerichtshof
(Germany’s Supreme Court) recently issued a ruling
favorable to the Cassirers’ interpretation of the Settlement
Agreement. In that case, the Nazis misappropriated a
valuable poster collection belonging to a German Jew, Dr.
Sachs. Peter Sachs v. Duetsches Historisches Museum,
BGH, Mar. 16, 2012, V ZR (279/10) (Ger.). In 1961, Dr.
Sachs accepted a settlement agreement through the same
program that Lilly had used, the Brüg, and Dr. Sachs’
settlement agreement stated that it provided “compensation
for all claims asserted in this proceeding.” When Dr. Sachs’
son discovered the posters still existed and were being held
by the German Historical Museum in East Berlin, he sought
physical restitution. The German high court ordered the
German Historical Museum to return the poster collection
even though Dr. Sachs had accepted his settlement
agreement. The German Supreme Court held that Dr. Sachs’
claim for physical restitution was not waived by accepting

(54 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 54 of 61

54

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

his settlement agreement because his property was
considered lost at the time he accepted the payment. The
court also held that Sachs’ right to physical restitution was
not waived because he had not made an “unambiguous act”
renouncing the right.
The Sachs precedent is on all fours with Lilly’s case.
Therefore, Lilly too did not waive her right to physical
restitution of the Painting by accepting the 1958 Settlement
Agreement. Two other sources of German law support this
conclusion. First, Germany’s Commissioner of the Federal
Government for Matters of Culture and the Media has stated
that, for claims of restitution of artwork in which an earlier
payment under the Brüg was provided, “earlier
compensation payments are not an obstacle to the return of
cultural assets, provided that the amount paid earlier is
reimbursed[.]” Second, the Cassirers provided a declaration
from a German attorney specializing in restitution law who
stated his expert opinion that the Settlement Agreement did
not waive Lilly’s right to physical restitution.
TBC cites to the District Court of Munich’s decision
acknowledging the 1958 Agreement as evidence Neubauer
waived her ownership rights to the painting. But this
decision undermines, rather than advances, TBC’s
argument. The District Court of Munich specifically noted
that Lilly “only waived the restitution claim against
Scheidwimmer as a result of the settlement of 2.28.1958”
(emphasis added). Thus, the German court acknowledged
that Lilly waived any claims against Scheidwimmer, who
was determined not to have possession of the Painting, but it
noted that was the only claim Neubauer waived. This further
supports our conclusion that Lilly did not waive her right to
physical restitution of the Painting.

(55 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 55 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

55

TBC’s second argument is that the Settlement
Agreement remedied and resolved the “taking in violation of
international law,” which means this Court does not have
subject matter jurisdiction under the FSIA expropriation
exception to sovereign immunity, 28 U.S.C. § 1605(a)(3).
This section states that a foreign government’s sovereign
immunity is abrogated when:
Rights in property taken in violation of
international law are in issue and . . . that
property or any property exchanged for such
property is owned or operated by an agency
or instrumentality of the foreign state and that
agency or instrumentality is engaged in a
commercial activity in the United States.
28 U.S.C. § 1605(a)(3). According to TBC, the Settlement
Agreement deprives this court of jurisdiction under the FSIA
because the Settlement Agreement provided Lilly
compensation for the loss of the Painting, and therefore no
right in property is still at issue because the Settlement
Agreement resolved the taking in violation of international
law.
TBC is wrong because one of the Cassirers’ “rights in
property taken in violation of international law” remains at
issue. As explained above, the 1958 Settlement Agreement
did not extinguish Lilly’s right to physical restitution of the
Painting. Therefore, the Cassirers still have a property right
(physical restitution) that remains at issue.
TBC’s third argument starts from the premise that this
Court has recognized that U.S. federal policy favors
respecting the finality of appropriate actions taken in foreign
countries to restitute Nazi-confiscated artwork. See Von
Saher v. Norton Simon Museum of Art at Pasadena, 754 F.3d

(56 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 56 of 61

56

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

712, 721 (9th Cir. 2014). According to TBC, allowing the
Cassirers to continue their suit would “disregard” the
German restitution proceedings and therefore conflict with
federal policy. However, this argument mistakenly assumes
Lilly waived her right to seek physical restitution of the
Painting when she accepted the Settlement Agreement and
that Germany considers the Settlement Agreement to have
extinguished her claim to physical restitution.
G. Spain’s Historical Heritage Law does not prevent
TBC from acquiring prescriptive title to the
Painting.
The Cassirers make yet another new argument on appeal:
TBC could not have acquired title to the Painting through
acquisitive prescription because of Spain’s Historical
Heritage Law (“SHHL”). TBC argues that the Cassirers’
new argument based on the SHHL is also waived because it
too was not argued below. However, this argument is also
not waived because this Court may consider pure issues of
law on appeal even when not raised below. Mercury,
618 F.3d at 992.
The SHHL law creates a comprehensive program for
ensuring that cultural artifacts (including buildings, artwork,
and archeological artifacts) are maintained in Spain for
viewing by future generations of Spaniards. See Preliminary
Title, General Clauses. The Painting was designated part of
Spain’s historical heritage in Real Decreto-Ley 11/1993,
which also authorized and funded the purchase of the
Collection.
Article 28 of the SHHL contains restrictions on the
transfer of movable property that is part of the Spanish
Historical Heritage. Article 28 has three parts. Article 28.1
states, “Movable property declared of cultural interest and

(57 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 57 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

57

included in the General Inventory that is in the possession of
ecclesiastical institutions . . . may not be transferred,
whether with consideration or as a gift, or ceded to
individuals or commercial entities. Such property may only
be transferred or ceded to the State, to entities that are a
creation of Public Law, or to other ecclesiastical
institutions.” Article 28.2 and 28.3 state:
2. Movable property that forms part of the
Spanish Historical Heritage may not be
transferred by the Public Administration,
except for transfers between public
administrative entities and as provided for in
articles 29 and 34 of this Law.
3. The property that this article refers to will
not be subject to the statute of limitations.
Under no circumstance shall the provisions
of Article 1955 of the Civil Code be applied
to this property.
According to the Cassirers, SHHL Article 28.3 prevents
TBC from using Civil Code Article 1955 to acquire title to
the Painting.
The phrase in Article 28.3, “[t]he property that this
article refers to” references property described in Article
28.1 and 28.2. Article 28.1 regulates “movable property”
that has two qualities. First, that property must be “declared
of cultural interest and included in the General Inventory[.]”
Second, that property must be “in the possession of
ecclesiastical institutions, in any of their facilities or
branches[.]” Article 28.1 prohibits ecclesiastical institutions
from transferring that property to individuals or commercial
entities. Article 28.2 regulates “movable property that forms

(58 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 58 of 61

58

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

part of the Spanish Historical Heritage.” Article 28.2
prohibits public administrations from transferring this
property, except via specific transfers authorized by Articles
29 and 34.
Read in context, Article 28.3 constitutes an additional
limitation on the ability of ecclesiastical institutions and
state institutions to alienate movable property of Spanish
historical heritage. Article 28.3 prevents churches or state
entities from losing title to historical heritage property
through the expiration of the statute of limitations, which
confers a substantive right under Spanish law, or through
Article 1955 acquisitive prescription. Therefore, churches
and state institutions cannot evade the restrictions on transfer
described in Articles 28.1 and 28.2 by allowing a private
individual to take possession of the regulated property for
the statutory period. Article 28.3 also preserves public
access to historical heritage property in case churches or
state administrations carelessly fail to take or maintain
possession of that property in a timely fashion. Since Article
28.3 is designed to prevent churches and state institutions
from losing title to historical heritage property, the provision
should not be interpreted to prevent TBC, a state institution,
from asserting title to the Painting through acquisitive
prescription.
H. The district court correctly found that the
application of Article 1955 to vest TBC with title
to the Painting would not violate the European
Convention on Human Rights.
As a last salvo, the Cassirers argue, “[a]sssuming
Spanish law strips the Cassirers’ ownership of the Painting,
the law is void under Article 1 of Protocol 1 (“Article 1”) of
the European Convention on Human Rights (the
“Convention”).” Spain is a party to the Convention,

(59 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 59 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

59

including Protocol 1. The Convention is supreme over
Spanish domestic law. Article 1 of Protocol 1 states:
Every natural or legal person is entitled to the
peaceful enjoyment of his possession. No
one shall be deprived of his possession except
in the public interest and subject to the
conditions provided for by law and by
general principles of international law.
The preceding provisions shall not, however,
in any way impair the right of a State to
enforce such laws as it deems necessary to
control the use of property in accordance with
the general interest or to secure the payment
of taxes or other contributions or penalties.
In Case of J.A. Pye (Oxford) Ltd and J.A. Pye (Oxford) Land
Ltd v. The United Kingdom, 46 EHRR 1083 (2007) (“Pye”),
a British court had awarded title through adverse possession
to land on which the Grahams had grazed their animals for
twelve years after the grazing agreement with neighboring
real estate developers had expired. Pye ¶ 10–22. The former
landowners asked the European Court of Human Rights
(“ECHR”) to review this decision, and the ECHR, sitting en
banc, ruled that the prescriptive acquisition did not violate
Article I. Specifically, the court held that the application of
Britain’s adverse possession law amounted to a permissible
“control of use” of land within the meaning of the second
paragraph of Article 1. Pye ¶ 66. The court also held that
this adverse possession law was legitimate and in the
“general” (public) interest. Pye ¶ 75. The court further
considered whether the decision struck a fair balance
between “the demands of the general interest and the interest
of the individuals concerned.” Pye ¶ 75. After considering

(60 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 60 of 61

60

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

many factors, including the fact that English adverse
possession laws are long established and support reasonable
social policies, the ECHR concluded that the British court
decision did strike a fair balance. Pye ¶ 75–85. The court
noted that “the State enjoys a wide margin of appreciation”
in setting rules for its property system unless these rules
“give rise to results which are so anomalous as to render the
legislation unacceptable.” Pye ¶ 83.
The district court correctly applied Pye and correctly
concluded that “Spain’s laws of adverse possession do not
violate [Article 1].” As in Pye, the operation of Spain’s
acquisitive prescription laws is a permissible “control of
use” of property under Article I that serves the general or
public interest by ensuring certainty of property rights.
Finally, deciding that TBC has acquired title to the
Painting through acquisitive prescription would have struck
a “fair balance” between “the demands of the general interest
and the interest of the individuals concerned.” Admittedly,
the Pye decision was close (ten to seven), and some of the
factors considered by the Pye court do not favor TBC’s
position that Spain’s acquisitive prescription laws strike a
“fair balance.” Nonetheless, Article 1955 is over a century
old and supports reasonable social policies, including
providing a level of protection for possessors. Spain’s
acquisitive prescription laws are not so anomalous as to
render them unacceptable under the European Convention
on Human Rights. But they must be taken as a whole and
when one applies Article 1956, as we must, there is a triable
issue of fact whether title in the Painting vested in TBC.
IV. CONCLUSION
The district court correctly determined that Spain’s
substantive law determines whether TBC can claim title to

(61 of 66)
Case: 15-55977, 07/10/2017, ID: 10502017, DktEntry: 127-1, Page 61 of 61

CASSIRER V. THYSSEN-BORNEMISZA COLLECTION

61

the Painting via acquisitive prescription. However, we
conclude that the district court interpreted Spain Civil Code
Article 1956 too narrowly. An encubridor within the
meaning of Article 1956 can include someone who, with
knowledge that the goods had been stolen from the rightful
owner, received stolen goods for his personal benefit. Since
there is a genuine dispute of material fact whether TBC knew
the Painting had been stolen when TBC acquired the
Painting from the Baron, the district court erred in granting
summary judgment in favor of TBC on the basis of Spain’s
law of acquisitive prescription since the longer period for an
encubridor to acquire title had not yet run when the Cassirers
brought this action for restitution of the Painting. At the
same time, we conclude that TBC’s other arguments for
affirming the grant of summary judgment that are raised in
TBC’s cross-appeals are without merit. Finally, we
conclude that the Cassirers’ other arguments against
applying Article 1955 in this case are without merit. Given
these holdings, we REVERSE and REMAND to the district
court for proceedings consistent with this opinion.

APPENDIX D

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 1 of 20 Page ID #:18752

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES -- GENERAL
Case No.

CV 05-3459-JFW (Ex)

Title:

David Cassirer -v- Thyssen-Bornemisza Collection Foundation

Date: June 4, 2015

PRESENT:
HONORABLE JOHN F. WALTER, UNITED STATES DISTRICT JUDGE
Shannon Reilly
Courtroom Deputy

None Present
Court Reporter

ATTORNEYS PRESENT FOR PLAINTIFFS:
None
PROCEEDINGS (IN CHAMBERS):

ATTORNEYS PRESENT FOR DEFENDANTS:
None

ORDER GRANTING THYSSEN-BORNEMISZA
COLLECTION FOUNDATION’S MOTION FOR
SUMMARY JUDGMENT [filed 3/23/2015; Docket No.
249];
ORDER DENYING PLAINTIFFS’ MOTION FOR
SUMMARY ADJUDICATION RE: CHOICE OF
CALIFORNIA LAW [filed 3/23/2015; Docket No. 251]

On March 23, 2015, Defendant Thyssen-Bornemisza Collection Foundation (the
“Foundation”) filed a Motion for Summary Judgment [Docket No. 249]. On April 20, 2015, Plaintiffs
David Cassirer, Ava Cassirer, and United Jewish Federation of San Diego County (collectively,
“Plaintiffs”) filed their Opposition [Docket No. 273]. On May 4, 2015, the Foundation filed a Reply
[Docket No. 289].1 On March 23, 2015, Plaintiffs filed a Motion for Summary Adjudication Re
Choice of California Law [Docket No. 251]. On April 20, 2015, the Foundation filed an Opposition
[Docket No. 271]. On May 4, 2014, Plaintiffs filed a Reply [Docket No. 288].
Pursuant to Rule 78 of the Federal Rules of Civil Procedure and Local Rule 7-15, the Court
found these matters appropriate for submission on the papers without oral argument. The matters
were, therefore, removed from the Court’s May 18, 2015 hearing calendar and the parties were
1

On May 11, 2015, Plaintiffs filed an Ex Parte Application for Leave to File Supplemental
Declaration of Alfredo Guerrero and to Respond to Defendant’s Evidentiary Objections to Plaintiffs’
Expert Declarations (“Ex Parte Application”) [Docket No. 298]. On May 12, 2015, the Foundation
filed an Opposition [Docket No. 300]. On May 12, 2015, Plaintiffs filed a Reply [Docket No. 301].
For good cause shown and because there is no prejudice to the Foundation, the Court
GRANTS Plaintiff’s Ex Parte Application.
Page 1 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 2 of 20 Page ID #:18753

given advance notice. After considering the moving, opposing, and reply papers, and the
arguments therein, the Court rules as follows:
I.

FACTUAL AND PROCEDURAL BACKGROUND2

In this action, Plaintiffs seek to recover the painting, Rue St. Honoré, après midi, effet de
pluie, by French impressionist Camille Pissarro (the “Painting”), that was wrongfully taken from
their ancestor, Lilly Cassirer Neubauer (“Lilly”),3 by the Nazi regime.
Lilly inherited the Painting in 1926. As a Jew, she was subjected to increasing persecution
in Germany after the Nazis seized power in 1933. In 1939, in order for Lilly and her husband Otto
Neubauer to obtain exit visas to flee Germany, Lilly was forced to transfer the Painting to Jakob
Scheidwimmer, a Nazi art appraiser. In “exchange,” Scheidwimmer transferred 900 Reichsmarks
(around $360 at 1939 exchange rates), well below the actual value of the painting, into a blocked
account that Lilly could never access. After the war, Lilly filed a timely restitution claim. Because
the location of the Painting was unknown, Lilly ultimately settled her claim for monetary
compensation with the German government, but did not waive her right to seek restitution or return
of the Painting. See Order dated March 13, 2015 [Docket No. 245].
Without Lilly’s knowledge, the Painting surfaced in the United States in 1951. In July 1951,
the Painting was sold to collector Sydney Brody in Los Angeles, California through art dealers M.
Knoedler & Co. in New York and Frank Perls Gallery in Beverly Hills, California. The Frank Perls
Gallery earned a commission of $3,105 for arranging the sale of the Painting to Sydney Brody.
Less than a year later, in May 1952, Sydney Schoenberg, an art collector in St. Louis, Missouri,
purchased the Painting from M. Knoedler & Co., on consignment from the Frank Perls Gallery, for
$16,500.4
More than twenty years later, on November 18, 1976, Baron Hans-Heinrich ThyssenBornemisza of Lugano, Switzerland (the “Baron”) purchased the Painting through New York art
dealer Stephen Hahn for $275,000. The Painting was maintained as part of the ThyssenBornemisza Collection in Switzerland until 1992, except when on public display in exhibitions
outside Switzerland.

2

Because of the narrow focus of the parties’ motions, the Court only discusses the
undisputed facts relevant to its decision on the present motions. To the extent any of these facts
are disputed, they are not material to the disposition of these motions. In addition, to the extent
that the Court has relied on evidence to which the parties have objected, the Court has considered
and overruled those objections. As to the remaining objections, the Court finds that it is
unnecessary to rule on those objections because the disputed evidence was not relied on by the
Court.
3

The Court adopts Plaintiffs’ preferred designation and refers to Lilly Cassirer Neubauer as
“Lilly” in this Order.
4

Brody apparently only kept the Painting a few months before returning the painting to the
Frank Perls Gallery for re-sale.
Page 2 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 3 of 20 Page ID #:18754

In 1988, the Baron and Spain agreed that the Baron (through one of his entities, Favorita
Trustees Limited) would loan his art collection (the “Collection”), including the Painting, to the
Kingdom of Spain. Pursuant to the 1988 Loan Agreement, Spain established the Foundation, a
non-profit, private cultural foundation to maintain, conserve, publicly exhibit, and promote artwork
from the Collection. The Spanish government agreed to display the Collection at the Villahermosa
Palace in Madrid, Spain, which would be restored and redesigned for its new purpose as the
Thyssen-Bornemisza Museum (the “Museum”). On June 22, 1992, the Museum received the
Painting, and, on October 10, 1992, opened to the public with the Painting on display.
Spain later sought to purchase the Collection. On June 18, 1993, the Spanish cabinet
passed Real Decreto-Ley 11/1993, authorizing the government to sign a contract allowing the
Foundation to purchase the 775 artworks that comprised the Collection. In accordance with Real
Decreto-Ley 11/1993, on June 21, 1993, the Kingdom of Spain, the Foundation, and Favorita
Trustees Limited entered into an Acquisition Agreement, by which Favorita Trustees Limited sold
the Collection to the Foundation.5 The Foundation’s purchase of the Collection for $338 million
was entirely funded by Spain.
The Painting has been on public display at the Foundation’s Museum in Madrid, Spain since
the Museum’s opening on October 10, 1992, except when on public display in a 1996 exhibition
outside of Spain and while on loan at the Caixa Forum in Barcelona, Spain from October 2013 to
January 2014. Since the Foundation purchased the Painting in 1993, the Painting’s location and
the Foundation’s “ownership” have been identified in several publications including: (1) Wivel,
Mikael: Ordrupgaard. Selected Works. Copenhague, Ordrupgaard, 1993, p. 44; (2) Rosenblum,
Robert: “Impressionism. The City and Modern Life”. En Impressionists in Town. [Cat. Exp.].
Copenhague, Ordrupgaard, 1996, n. 17, pp. 16-17, il. 61.; (3) Llorens, Tomas; Borobia, Mar y
Alarcó, Paloma: Obras Maestras. Museo Thyssen-Bornemisza. Madrid, Fundación Collectión
Thyssen-Bornemisza, 2000, p. 156, il. p. 157; and (4) Perez-Jofre, T.: Grandes obras de arte.
Museo Thyssen-Bornemisza. Colonia, Tascnen, 2001, p. 540, il. p. 541. Declaration of Evelio
Acevedo Carrero [Docket No. 249-2] at ¶ 18.
Neither Lilly nor any of her heirs attempted to locate the Painting between 1958 and late
1999, and Claude Cassirer, Lilly’s heir, did not discover that the Painting was on display at the
Museum until sometime in 2000. On May 3, 2001, he filed a Petition with the Kingdom of Spain
and the Foundation, seeking return of the Painting. On May 10, 2005, after his Petition to return
the Painting was rejected, Claude Cassirer filed this action against the Kingdom of Spain and the

5

In 1989 and 1993, in connection with the loan and ultimate purchase of the Collection,
Spain and the Foundation commissioned an investigation of title to verify that the Baron and his
relevant entities had clear and marketable title to the Collection. Plaintiffs claim that the
investigation was incomplete and that Spain and the Foundation ignored red flags concerning the
Painting’s provenance, including, for example, that: (1) the Stephen Hahn Gallery had been
affiliated with Nazi looting; (2) paintings by Pissarro were known to be the frequent subjects of Nazi
looting; and (3) the back of the Painting has a “Berlin” label traceable to the Cassirer Gallery and
the provenance documentation provided no explanation for that label. However, this disputed
issue as to the Foundation’s alleged “bad faith” is not material or relevant to the Court’s decision on
these motions.
Page 3 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 4 of 20 Page ID #:18755

Foundation,6 seeking the return of the Painting, or an award of damages in the event the Court is
unable to order the return of the Painting. From 1980 to the time of his death on September 25,
2010, Claude Cassirer lived in California.
After extensive motion practice, including two appeals to the Ninth Circuit, the Foundation
now moves for summary judgment on the grounds that: (1) under Swiss or Spanish law, the
Foundation is the owner of the Painting; (2) California Code of Civil Procedure § 338(c), as
amended in 2010, violates the Foundation’s due process rights by retroactively depriving the
Foundation of its vested property rights; and (3) Plaintiffs’ claims are barred by laches. Plaintiffs
move for summary adjudication, seeking an order declaring that the substantive law of the State of
California governs, and that the law of Spain does not govern, the merits of this dispute.
II.

LEGAL STANDARD

Summary judgment is proper where “the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). The moving party has the burden of demonstrating the absence of a genuine issue of fact
for trial. See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 256 (1986). Once the moving party
meets its burden, a party opposing a properly made and supported motion for summary judgment
may not rest upon mere denials but must set out specific facts showing a genuine issue for trial.
Id. at 250; Fed. R. Civ. P. 56(c), (e); see also Taylor v. List, 880 F.2d 1040, 1045 (9th Cir. 1989)
(“A summary judgment motion cannot be defeated by relying solely on conclusory allegations
unsupported by factual data.”). In particular, when the non-moving party bears the burden of
proving an element essential to its case, that party must make a showing sufficient to establish a
genuine issue of material fact with respect to the existence of that element or be subject to
summary judgment. See Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). “An issue of fact is
not enough to defeat summary judgment; there must be a genuine issue of material fact, a dispute
capable of affecting the outcome of the case.” American International Group, Inc. v. American
International Bank, 926 F.2d 829, 833 (9th Cir. 1991) (Kozinski, dissenting).
An issue is genuine if evidence is produced that would allow a rational trier of fact to reach a
verdict in favor of the non-moving party. Anderson, 477 U.S. at 248. “This requires evidence, not
speculation.” Meade v. Cedarapids, Inc., 164 F.3d 1218, 1225 (9th Cir. 1999). The Court must
assume the truth of direct evidence set forth by the opposing party. See Hanon v. Dataproducts
Corp., 976 F.2d 497, 507 (9th Cir. 1992). However, where circumstantial evidence is presented,
the Court may consider the plausibility and reasonableness of inferences arising therefrom. See
Anderson, 477 U.S. at 249-50; TW Elec. Serv., Inc. v. Pacific Elec. Contractors Ass’n, 809 F.2d
626, 631-32 (9th Cir. 1987). Although the party opposing summary judgment is entitled to the
benefit of all reasonable inferences, “inferences cannot be drawn from thin air; they must be based
on evidence which, if believed, would be sufficient to support a judgment for the nonmoving party.”

6

Unfortunately, Claude Cassirer died on September 25, 2010, and David Cassirer, Ava
Cassirer, and United Jewish Federation of San Diego County were substituted as plaintiffs in this
action. In addition, pursuant to the stipulation of the parties, the Kingdom of Spain was dismissed
without prejudice in August 2011.
Page 4 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 5 of 20 Page ID #:18756

American International Group, 926 F.2d at 836-37. In that regard, “a mere ‘scintilla’ of evidence
will not be sufficient to defeat a properly supported motion for summary judgment; rather, the
nonmoving party must introduce some ‘significant probative evidence tending to support the
complaint.’” Summers v. Teichert & Son, Inc., 127 F.3d 1150, 1152 (9th Cir. 1997).
III.

DISCUSSION

Based on the undisputed facts, the Court concludes that the Foundation is the owner of the
Painting pursuant to Spain’s laws governing adverse possession. Because the Court concludes
that the Foundation acquired ownership of the Painting by adverse possession under Spanish law,
it need not address whether the Baron acquired ownership of the Painting by adverse possession
under Swiss law (and thus conveyed good title to the Foundation) or whether Plaintiffs’ claims are
barred by laches.
A.

Choice of Law

As an initial matter, the Court must determine whether California law or Spanish law
governs the Foundation’s claim that it acquired ownership of the Painting by adverse possession.
In order to make this determination, the Court must first determine whether it should apply
California or federal common law choice-of-law rules. See Schoenberg v. Exportadora de Sal,
S.A. de C.V., 930 F.2d 777, 782 (9th Cir, 1991). Where, as here, federal court jurisdiction is
premised on the Foreign Sovereign Immunities Act (“FSIA”), 28 U.S.C. § 1330, et seq., the Ninth
Circuit has held that federal common law choice-of-law rules govern. See, e.g., Schoenberg, 930
F.2d at 782. However, the Ninth Circuit recently called its holding into question in an en banc
decision in Sachs v. Republic of Austria, 737 F.3d 584 (9th Cir. 2013), stating that it may be
permissible to apply the forum state’s choice-of-law rules. Id. at 600 n.14 (en banc), cert. granted
sub nom. OBB Personenverkehr AG v. Sachs, 135 S. Ct. 1172 (2015). Although the Ninth Circuit
in Sachs did not overrule its prior case law, the Court, out of an abundance of caution, will conduct
a choice-of-law analysis under both federal common law and California law.
1.

Federal Common Law Choice-of-Law Rules

Federal common law follows the approach of the Restatement (Second) of Conflict of Laws
(the “Restatement”). See, e.g., Schoenberg, 930 F.2d at 782. Restatement § 222 sets forth the
general choice-of-law principle applicable to interests in both real and personal property:
The interest of the parties in a thing are determined depending upon the
circumstances, either by the “law” or by the “local law” of the state which, with
respect to the particular issue, has the most significant relationship to the thing and
the parties under the principles in § 6.
Restatement § 222. The factors relevant to the determination of which state has the most
significant relationship to the “thing and the parties” are set forth in § 6, which include:
(a)
(b)
(c)

the needs of the interstate and international systems,
the relevant policies of the forum,
the relevant policies of other interested states and the relative interests of
Page 5 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 6 of 20 Page ID #:18757

(d)
(e)
(f)
(g)

those states in the determination of the particular issue,
the protection of justified expectations,
the basic policies underlying the particular field of law,
certainty, predictability and uniformity of result, and
ease in the determination and application of the law to be applied.

Restatement § 6. In addition to these general principles, the Restatement also provides
specialized conflict of law rules for specific legal issues, that “courts have evolved in
accommodation” of the factors in § 6. Restatement, § 6 (comment on Subsection (2)).
Restatement § 246 sets forth the specialized conflict of law rule for a claim of “acquisition by
adverse possession or prescription of interest in chattel”:
Whether there has been a transfer of an interest in a chattel by adverse possession
or by prescription and the nature of the interest transferred are determined by the
local law of the state where the chattel was at the time the transfer is claimed to have
taken place.
Restatement § 246. The Restatement’s comment to this section provides the following rationale
for this rule: “The state where a chattel is situated has the dominant interest in determining the
circumstances under which an interest in the chattel will be transferred by adverse possession or
by prescription. The local law of this state is applied to determine whether there has been such a
transfer and the nature of the interest transferred.” Restatement § 246, comment.
Applying the Restatement’s principles and rules, the Court concludes that, under federal
common law, the law of Spain governs the Foundation’s claim that it acquired ownership of the
Painting by adverse possession. The Court finds no reason to depart from the rule set forth in
Restatement § 246, i.e., that the “local law of the state where the chattel was at the time the
transfer is claimed to have taken place” should apply. In accordance with that rule, Spain has the
dominant interest in determining the circumstances under which ownership of the Painting may be
acquired by adverse possession or prescription. Indeed, “[i]n contrast to torts . . ., protection of the
justified expectations of the parties is of considerable importance in the field of property” and “[t]he
situs [of the property] . . . plays an important role in the determination of the law governing the
transfer of interests in tangible . . . movables.” Restatement § 222, comment. Applying the “local
law of the state where the chattel was at the time the transfer is claimed to have taken place”
facilitates simple identification of the applicable law and leads to certainty, predictability, and
uniformity of result. See Declaration of Professor Alfonso-Luis Calvo Caravaca [Docket No. 24924], Exhibit 50 at ¶ 5.
Moreover, in this case, the Painting has been in the possession of the Foundation, an
instrumentality of the Kingdom of Spain, and it has been located in Madrid, Spain for more than
twenty years. In contrast to Spain’s significant relationship to the Painting and the Foundation,
California’s relationship to the Painting and the parties is limited to the following facts: (1) Claude
Cassirer moved to California in 1980; (2) the Frank Perls Gallery in Beverly Hills, California
arranged a sale of the Painting to Sydney Brody in Los Angeles, California in July 1951; and (3)
less than a year later, in May 1952, the Frank Perls Gallery in Beverly Hills, California was involved
in the sale of the Painting to Sydney Schoenberg in St. Louis, Missouri. Although Plaintiffs’
relationship to California is significant, the Painting’s relationship to California is not.
Page 6 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 7 of 20 Page ID #:18758

After balancing all of the factors (including the factors discussed infra under the California
governmental interest test), the Court concludes that Spain has the most significant relationship to
the Painting and the parties. Accordingly, the Court concludes that, under federal common law,
the law of Spain governs the Foundation’s claim of ownership by adverse possession.
2.

California Governmental Interest Test

The Court also concludes that the application of California’s choice-of-law rules leads to the
same result, i.e., the law of Spain governs the Foundation’s claim that it acquired ownership of the
Painting by adverse possession. California applies the three-step “governmental interest” test to
resolve choice-of-law issues:
First, the court determines whether the relevant law of each of the potentially affected
jurisdictions with regard to the particular issue in question is the same or different.
Second, if there is a difference, the court examines each jurisdiction’s interest in the
application of its own law under the circumstances of the particular case to determine
whether a true conflict exists. Third, if the court finds that there is a true conflict, it
carefully evaluates and compares the nature and strength of the interest of each
jurisdiction in the application of its own law to determine which state’s interest would
be more impaired if its policy were subordinated to the policy of the other state, and
then ultimately applies the law of the state whose interest would be more impaired if
its law were not applied.
Kearney v. Salomon Smith Barney, Inc., 39 Cal. 4th 95, 107-108 (2006) (quotations and citations
omitted). “The party advocating the application of a foreign state’s law bears the burden of
identifying the conflict between that state’s law and California’s law on the issue, and establishing
that the foreign state has an interest in having its law applied.” Pokorny v. Quixtar, 601 F.3d 987,
995 (9th Cir. 2010) (citing Wash. Mutual Bank, FA v. Superior Court, 24 Cal. 4th 906, 920 (2001)).
a.

Spanish law differs from California law.

First, the Court concludes that the Spanish law differs from California law regarding the
acquisition of personal property by adverse possession or prescription. California has not
extended the doctrine of adverse possession to personal property. See San Francisco Credit
Clearing House v. C.B. Wells, 196 Cal. 701, 707-08 (1925); Society of Cal. Pioneers v. Baker, 43
Cal. App. 4th 774, 784 n.13 (“The court in [San Francisco Credit Clearing House v. Wells, 196 Cal.
701, 707 (1925)] suggested that the doctrine of adverse possession would not apply to personal
property, and no California case has been cited in support of such an application.”).7 In contrast,
Spain, as discussed infra, has adopted laws that expressly permit the acquisition of ownership of
personal property by adverse possession (or acquisitive prescription or usucapio). Spanish Civil
Code Article 1955 provides in relevant part: “Ownership of movable property prescribes by three

7

Even if California were to recognize the applicability of the doctrine of adverse possession
to personal property, the elements of such a claim, and the time period necessary for a possessor
to acquire ownership, would be significantly different than the elements and time period under
Spanish law. See Cal. Civ. Code § 1006; Cal. Civ. Proc. Code § 338(c)(3).
Page 7 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 8 of 20 Page ID #:18759

years of uninterrupted possession in good faith. Ownership of movable property also prescribes by
six years of uninterrupted possession, without any other condition.” See Declaration of Javier
Martínez Bavíere [Docket No. 249-22] at ¶ 5, Exhibit 38.
b.

A true conflict exists.

Second, the Court concludes that a true conflict exists, i.e., each jurisdiction has an interest
in having its own law applied.
“To assess whether either or both states have an interest in applying their policy to the
case, we examine the governmental policies underlying each state’s laws.” Scott v. Ford Motor
Company, 224 Cal. App. 4th 1492, 1504 (2014) (quotations and citations omitted). “In conducting
this inquiry, we may make our own determination of the relevant policies and interest, without
taking evidence as such on the matter.” Sullivan v. Oracle Corp., 51 Cal. 4th 1191, 1203 (2011)
(quotations and citations omitted).
Generally, laws relating to adverse possession of personal property serve the important
interests of certainty of title, protecting defendants from stale claims, and encouraging plaintiffs not
to sleep on their rights. See, e.g., Declaration of Carlos M. Vazquez in Support of Plaintiffs’ Motion
for Summary Adjudication, at Exhibit 510 [Docket No. 251-5]; Scottish Law Commission,
Discussion Paper on Prescription and Title to Moveable Property, available at
http://www.scotlawcom.gov.uk/files/5413/3666/0832/rep228.pdf. Spain unquestionably has an
interest in serving these policy goals and applying its law of adverse possession to the
Foundation’s claim of ownership, especially given that the Foundation is an instrumentality of the
Kingdom of Spain and the Painting has been located within its borders for over twenty years.
Likewise, California unquestionably has an interest in applying its law to this action.
California’s decision not to extend the doctrine of adverse possession to personal property
recognizes the difficulties faced by owners in discovering the whereabouts of personal property
even when held openly and notoriously, and serves to protect the interests of the “rightful owner”
over subsequent possessors. It also serves to encourage subsequent purchasers to determine the
true owner of property before purchasing that property. California’s interest in serving these policy
goals is especially strong in the context of stolen art. Indeed, in 2010, the California Legislature
amended its general statute of limitations governing personal property -- California Code of Civil
Procedure § 338 -- to provide greater protections for the recovery of stolen art.8 In amending the

8

Specifically, California Code of Civil Procedure § 338, as amended, (1) retroactively
extends the statute of limitations for specific recovery of a work of fine art from three to six years if
the action is brought against a museum, gallery, auctioneer or dealer; and (2) clarifies that such
claims do not accrue until “actual discovery” rather than “constructive discovery” of both the identity
and whereabouts of the work and information supporting a claim of ownership. The amended
statute also exempts claims for the specific recovery of a work of fine art from California’s
borrowing statute, California Code of Civil Procedure § 361, which directs California courts to
borrow the statute of limitations or statute of repose of a foreign jurisdiction under certain
circumstances. See Cal. Civ. Proc. Code § 361 (“When a cause of action has arisen in another
State, or in a foreign country, and by the laws thereof an action thereon cannot there be
Page 8 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 9 of 20 Page ID #:18760

statute, the California Legislature expressly found and declared, in relevant part: (1) “California’s
interest in determining the rightful ownership of fine art is a matter of traditional state competence,
responsibility, and concern;” (2) “Because objects of fine art often circulate in the private
marketplace for many years before entering the collections of museums or galleries, existing
statutes of limitation, which are solely the creatures of the Legislature, often present an inequitable
procedural obstacle to recovery of these objects by parties that claim to be their rightful owner;”
and (3) “The application of statutes of limitations and any affirmative defenses to actions for the
recovery of works of fine art . . . should provide incentives for research and publication of
provenance information about these works, in order to encourage the prompt and fair resolution of
claims.” See 2010 Cal. Stat. ch. 691, § 1.
In addition, California has a legitimate interest in applying its laws governing personal
property to “rightful owners” who reside within its borders. See, e.g., McCann v. Foster Wheeler
LLC, 48 Cal.4th 68, 95 (2010) (“California has an interest in having this statute applied to a person,
like plaintiff, who is a California resident at the time the person discovers that he or she is suffering
from an asbestos-related injury or illness, even when the person’s exposure to asbestos occurred
outside California.”); Castro v. Budget Rent-A-Car System, Inc., 154 Cal. App. 4th 1162, 1182
(2007) (“California . . . does have a legitimate governmental interest in having its . . . statute
applied based on Castro’s status as a California resident.”). Given that Claude Cassirer resided in
California from 1980 until the time of his death in September 2010, discovered the whereabouts of
the Painting while he was a resident of California, and filed this action while he was a resident of
California, California clearly has in interest in the application of its laws concerning adverse
possession and stolen art in this case.9
Accordingly, the Court concludes that each jurisdiction (Spain and California) has an interest
in having its own laws apply.
c.

Spain’s interest would be substantially more impaired if its policy
were subordinated to the policy of California.

Third, and finally, the Court concludes that Spain’s interest would be substantially more
impaired if its policy were subordinated to the policy of California.
Under the third step of California’s governmental interest test, the Court must “carefully
evaluate and compare the nature and strength of the interest of each jurisdiction in the application
of its own law to determine which state’s interest would be more impaired if its policy were
subordinated to the policy of the other state.” McCann v. Foster Wheeler LLC, 48 Cal.4th 68, 9697 (2010) (quotations and citations omitted). In conducting this evaluation, the California Supreme
Court has instructed:
maintained against a person by reason of the lapse of time, an action thereon shall not be
maintained against him in this State, except in favor of one who has been a citizen of this State,
and who has held the cause of action from the time it accrued.”).
9

The substituted Plaintiffs also have strong ties to California. See Declaration of David
Cassirer in Support of Plaintiffs’ Motion for Summary Adjudication [Docket No. 251-2] at ¶¶ 2-5,
11.
Page 9 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 10 of 20 Page ID #:18761

[I]t is important to keep in mind that the court does not “weigh” the conflicting
governmental interests in the sense of determining which conflicting law manifested
the “better” or the “worthier” social policy on the specific issue. An attempted
balancing of conflicting state policies in that sense is difficult to justify in the context of
a federal system in which, within constitutional limits, states are empowered to mold
their policies as they wish. Instead, the process can accurately be described as a
problem of allocating domains of law-making power in multi-state contexts—by
determining the appropriate limitations on the reach of state policies—as
distinguished from evaluating the wisdom of those policies. Emphasis is placed on
the appropriate scope of conflicting state policies rather than on the “quality” of those
policies.
Id. at 97 (quotations and citations omitted). The emphasis, on the appropriate scope of conflicting
policies, rather than on the quality of those policies, is equally as important, if not more important,
in the context of international disputes. Moreover, “[a]lthough California no longer follows the old
choice-of-law rule that generally called for application of the law of the jurisdiction in which a
defendant’s allegedly tortious conduct occurred without regard to the nature of the issue that was
before the court, California choice-of-law cases nonetheless continue to recognize that a
jurisdiction ordinarily has ‘the predominant interest’ in regulating conduct that occurs within its
borders, and in being able to assure individuals and commercial entities operating within its
territory that applicable limitations on liability set forth in the jurisdiction’s law will be available to
those individuals and businesses in the event they are faced with litigation in the future.” McCann,
48 Cal.4th at 97-98 (internal citations omitted).
In this case, the original unlawful taking of the Painting occurred in Germany from Plaintiffs’
ancestor, Lilly, who, at the time, resided there. Although the Painting passed through California in
1951, it was present in California for less than a year before it was sent to Missouri. In contrast,
the Painting was located in Switzerland for sixteen years and Spain for more than twenty years.
Most importantly, the Painting has been in the possession of an instrumentality of the Kingdom of
Spain in Madrid, Spain since 1992, and that possession in Spain provides the basis for the
Foundation’s claim of ownership. Spain has a strong interest in regulating conduct that occurs
within its borders, and in being able to assure individuals and entities within its borders that, after
they have possessed property uninterrupted for more than six years, their title and ownership of
that property are certain.
If Spain’s interest in the application of its law were subordinated to California’s interest, it
would rest solely on the fortuitous decision of Lilly’s successor-in-interest to move to California long
after the Painting was unlawfully taken by the Nazis and the fact that he happened to reside there
at the time the Foundation took possession of the Painting. Subjecting a defendant within Spain to
a different rule of law based on the unpredictable choice of residence of a successor-in-interest
would significantly undermine Spain’s interest in certainty of title. Cf. McCann, 48 Cal. 4th at 98
(“Because a commercial entity protected by the Oklahoma statute of repose has no way of
knowing or controlling where a potential plaintiff may move in the future, subjecting such a
defendant to a different rule of law based upon the law of a state to which a potential plaintiff
ultimately may move would significantly undermine Oklahoma's interest in establishing a reliable
rule of law governing a business's potential liability for conduct undertaken in Oklahoma.”).

Page 10 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 11 of 20 Page ID #:18762

In contrast, if the Court applies Spanish law, the impairment of California’s interest is
significantly less based on the facts and circumstances of this case. Although California has a
fundamental interest in protecting its residents and specifically has an interest in protecting its
residents claiming to be rightful owners of stolen art, that interest is far less significant where the
original victim did not reside in California, where the unlawful taking did not occur within its borders,
and where the defendant and the entity from which the defendant purchased the property were not
located in California. Moreover, California’s interest in the application of its laws related to adverse
possession of personal property (or lack thereof) is not as strong as Spain’s interest, given that
neither a California statute nor case law expressly prohibits a party from obtaining ownership of
personal property through adverse possession. In contrast, Spain has enacted laws, as part of its
Civil Code, that specifically and clearly govern adverse possession of movable property.
Furthermore, although the California Legislature’s 2010 amendment to California Code of Civil
Procedure § 338 is certainly relevant to demonstrate California’s interest in protecting “rightful
owners” of stolen art, the Court considers it significant that the California Legislature did not create
a new claim for relief or attempt to statutorily restrict the Court’s choice of substantive law in this
area. Instead, the California Legislature merely expressed its interest in eliminating inequitable
procedural obstacles to recovery of fine art by extending the statute of limitations for claims
seeking such recovery. Unlike a statute of limitations, the law of adverse possession does not
present a procedural obstacle, but rather concerns the merits of an aggrieved party’s claim.
Accordingly, the Court concludes that, under the California governmental interest test as
well as federal common law, Spanish law governs the Foundation’s claim of ownership by adverse
possession.10
B.

Under Spain’s Laws of Adverse Possession, the Foundation is the Owner of
the Painting.

The Court concludes that, based on the undisputed facts, the Foundation acquired
ownership of the Painting by adverse possession (also known as usucapio or acquisitive
prescription) under Spanish law.11
Spain’s adverse possession laws regarding “movable property” require that the possessor:
(1) possess the property for the statutory period, i.e. three years if in “good faith” (“ordinary
adverse possession”) or six years if in “bad faith” (“extraordinary adverse possession”) (Spanish
Civil Code Article 1955); (2) possess the property as owner (Article 1941), and (3) possess the

10

Under Spain’s choice of law rules, ownership of the Painting is likewise governed by
Spanish law. See Declaration of Professor Alfonso-Luis Calvo Caravaca [Docket No. 249-24],
Exhibit 50 at ¶¶ 3-10; Spanish Civil Code Article 10.1.
11

Pursuant to Federal Rule of Civil Procedure 44.1, “[i]n determining foreign law, the court
may consider any relevant material or source, including testimony, whether or not submitted by a
party or admissible under the Federal Rule of Evidence. The court’s determination must be treated
as a ruling on a question of law.”
Page 11 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 12 of 20 Page ID #:18763

property publicly, peacefully and without interruption (Articles 1941-1948).12 See Declaration of
Javier Martínez Bavíere [Docket No. 249-22] at ¶ 5, Exhibit 38.
Plaintiffs do not seriously dispute that the Foundation has met the general requirements for
extraordinary adverse possession (under the longer six-year period). Indeed, in their Opposition to
the Foundation’s Motion for Summary Judgment, Plaintiffs do not even address the Foundation's
arguments that it possessed the Painting as owner publicly, peacefully, and without interruption for
more than six years. Nonetheless, the Court will examine each required element.
1.

Possession as Owner

“Anyone who projects an external image of being the owner has possession as owner. The
person may believe that he is the owner or know that he is not (this is a question of good faith or
bad faith), but, even if a person knows that he is not the owner of what he bought (precisely
because he bought it from someone who was not the owner either), a person who performs acts
relating to the asset which those that witness them will see as typical of ownership possesses said
asset as the owner.” Declaration of Professor Alfonso-Luis Calvo Caravaca [Docket No. 249-24],
Exhibit 50 (“Foundation’s Spanish Report”) at ¶ 35; see also Isabel V. González Pacanowska &
Carlos Manuel Díez Soto, National Report on the Transfer of Movables in Spain, in National Report
on the Transfer of Movables in Europe, Volume 5: Sweden, Norway and Denmark, Finnland, Spain
393, 646 (Wolfgang Faber & Brigitta Lurger eds. 2011) (“[T]he requirement of possession in the
capacity of owner does not relate to the internal intention of the subject, but external behaviour
consistent with the character of being the actual owner.”).
The Court concludes that the Foundation has possessed the Painting as owner since June
21, 1993, when it purchased the Painting from Favorita Trustees Limited, because it has projected
an external image of ownership since that date. Indeed, the Foundation has publicly displayed the
Painting in its Museum without any contrary indication of ownership, and loaned the Painting to
others for public exhibition consistent with its claim of ownership.
2.

Possession of the Painting Publicly, Peacefully, and Without Interruption

In addition, the Court concludes that the Foundation’s possession of the Painting as owner
has been “public, peaceful, and uninterrupted.” Spanish Civil Code Article 1941.
First, the Court concludes that, under Spanish law, the Foundation’s possession has been
“public.” “[T]he possessor must show by means of ostensible acts that he possesses the asset:
without supreme effort but with reasonable and ongoing publicity, said reasonableness being

12

Generally, in order to validly transfer ownership under Spanish law, there must be: (1)
“title,” usually a contract evidencing the sale or exchange (in this case, the Acquisition Agreement
dated June 21, 1993 by which Favorita Trustees Limited sold the Collection to the Foundation);
and (2) a “mode” or “means,” which is the transfer of possession in a variety of forms permitted by
the law. See Declaration of Professor Alfonso-Luis Calvo Caravaca [Docket No. 249-24], Exhibit
50 at ¶¶ 10, 20-21. When the seller does not have ownership of the goods that he purports to
sell, the buyer may obtain ownership through the “mode” of usucapio or adverse possession. Id.
Page 12 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 13 of 20 Page ID #:18764

considered based on the nature of use of the asset in question.” Foundation’s Spanish Report at ¶
36. “The requirement of publicity regards not only possession as such, but also the capacity in
which it is held, and is considered necessary so that the real owner has the possibility of defending
his or her right against another’s acts.” González Pacanowska & Díez Soto, supra, at 647. “On
the other hand, it is not necessary for the person claiming to be ‘the real owner’ to have full
knowledge of third party possession, but such knowledge is at least possible for that person using
average diligence.” Foundation’s Spanish Report at ¶ 36; see also Declaration of Alfredo Guerrero
[Docket No. 279], Exhibit 55 (“Plaintiffs’ Spanish Report”) at p. 39 (“[I]t must be noted that a
possession has public character when the actual owner would be able to have knowledge of such
possession using a standard diligence although it does not have any knowledge in the reality.”).
In this case, the Painting has been on public display at the Museum from October 10, 1992 until
the present (except when on public display in a 1996 exhibition outside of Spain and while on loan
at the Caixa Forum in Barcelona, Spain from October 2013 to January 2014). Moreover, since the
Foundation’s purchase of the Painting in 1993, the Foundation’s “ownership” and the Painting’s
location in Spain have been identified in the several publications including: (1) Wivel, Mikael:
Ordrupgaard. Selected Works. Copenhague, Ordrupgaard, 1993, p. 44; (2) Rosenblum, Robert:
“Impressionism. The City and Modern Life”. En Impressionists in Town. [Cat. Exp.]. Copenhague,
Ordrupgaard, 1996, n. 17, pp. 16-17, il. 61.; (3) Llorens, Tomas; Borobia, Mar y Alarcó, Paloma:
Obras Maestras. Museo Thyssen-Bornemisza. Madrid, Fundación Collectión Thyssen-Bornemisza,
2000, p. 156, il. p. 157; and (4) Perez-Jofre, T.: Grandes obras de arte. Museo ThyssenBornemisza. Colonia, Tascnen, 2001, p. 540, il. p. 541. Declaration of Evelio Acevedo Carrero
[Docket No. 249-2] at ¶ 18. As a result, the Court concludes, as a matter of Spanish law, that the
Foundation’s possession was sufficiently public to satisfy this element of adverse possession.
Indeed, as the Foundation’s experts in Spanish law state, the permanent exhibition of the Painting
at the Museum “is the best example of publicity imaginable in cases of items like the one in
question. Precisely for a case of adverse possession of works of art, the Judgment of the
Supreme Court of 28 November 2008 based the ‘manifest publicity’ on appearances in the press
and public exhibitions.” Foundation’s Spanish Report at ¶ 36; see also STS 6657/2008, Nov. 28,
2008 (ECLI:ES:TS: 2008:6657).
Second, the Court concludes that the Foundation’s possession as owner was “peaceful”
from June 21, 1993 until at least May 3, 2001. Indeed, the Foundation acquired the Painting in a
peaceful manner and possessed the Painting without any challenge or dispute as to its “ownership”
until May 3, 2001 (when Claude Cassirer filed a Petition with the Kingdom of Spain and the
Foundation, seeking return of the Painting).
Third, and finally, the Court concludes that the Foundation’s possession as owner was
“uninterrupted” from June 21, 1993 until at least May 3, 2001. Possession may be interrupted
when: (1) for any reason, such possession should cease for more than one year; (2) as a result of
the judicial summons to the possessor; (3) “an act of conciliation”; and (4) “[a]ny express or implied
recognition by the possessor of the owner’s right. Spanish Civil Code Articles 1943 to 1948. None
of these events occurred during the time period between June 21, 1993 and May 3, 2001.
3.

Possession of the Property for the Statutory Period

Spanish Civil Code Article 1955 provides in relevant part:

Page 13 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 14 of 20 Page ID #:18765

Ownership of movable property prescribes by three years of uninterrupted
possession in good faith. Ownership of movable property also prescribes by six years
of uninterrupted possession, without any other condition. . . .13
Declaration of Javier Martínez Bavíere [Docket No. 249-22] at ¶ 5, Exhibit 38. The Court finds it
unnecessary to address whether the Foundation acquired ownership of the Painting under the
shorter three-year time period for ordinary adverse possession, because it concludes that, even if
the Foundation acquired the Painting in “bad faith,” i.e., knowing that there was a defect which
invalidates its title or manner of acquisition (Spanish Civil Code Article 433), the Foundation
acquired ownership under the longer six-year time period for extraordinary adverse possession.
Indeed, as discussed supra, the Foundation has possessed the property as owner publicly,
peacefully, and without interruption from at least June 21, 1993 until at least May 3, 2001.
As noted, Plaintiffs fail to argue that the Foundation has not satisfied these general
requirements for adverse possession. Instead, Plaintiffs' only arguments in opposition to the
Foundation's claim that it obtained ownership by extraordinary adverse possession are that: (1)
Spanish Civil Code Article 1956 bars the application of adverse possession because the
Foundation was an “accessory” to a crime against humanity or a crime against property in the
event of armed conflict; and (2) Spain’s adverse possession laws violate the European Convention
on Human Rights. The Court addresses each of these arguments infra.
4.

Spanish Civil Code Article 1956 is inapplicable.

Plaintiffs argue that, pursuant to Spanish Civil Code Article 1956, the Foundation cannot
obtain ownership of the Painting by adverse possession because the Foundation was an
“accessory” to a crime against humanity or a crime against property in the event of armed conflict.
Spanish Civil Code Article 1956 provides: “Movable property purloined or stolen may not
prescribe in the possession of those who purloined or stole it, or their accomplices or accessories,
unless the crime or misdemeanor or its sentence, and the action to claim civil liability arising

13

Spanish Civil Code Article 1955 further provides: “The provisions of article 464 of this
Code shall apply as related to the owner’s right to claim movable property which has been lost or
of which he has been unlawfully deprived . . . .” Declaration of Javier Martínez Bavíere [Docket
No. 249-22] at ¶ 5, Exhibit 38. Article 464 provides in relevant part: “Possession of movable
property, acquired in good faith, is equivalent to title. Notwithstanding the foregoing, any person
who has lost movable property or has been deprived of it illegally may claim it from its possessor.”
Declaration of Javier Martínez Bavíere [Docket No. 249-22] at ¶ 5, Exhibit 31. Despite the
language in Article 464, the Spanish Civil Code clearly contemplates, and both parties’ Spanish
law experts apparently agree, that a possessor of stolen or lost property can acquire ownership of
that property by adverse possession under Article 1955. Indeed, the very next article of the
Spanish Civil Code provides: “Movable property purloined or stolen may not prescribe in the
possession of those who purloined or stole it, or their accomplices or accessories, unless the crime
or misdemeanor or its sentence, and the action to claim civil liability arising therefrom, should have
become barred by the statute of limitations.” Spanish Civil Code Article 1956 (emphasis added)
(Declaration of Javier Martínez Bavíere [Docket No. 249-22] at ¶ 5, Exhibit 38).
Page 14 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 15 of 20 Page ID #:18766

therefrom, should have become barred by the statute of limitations.” Spanish Civil Code Article
1956 (Declaration of Javier Martínez Bavíere [Docket No. 249-22] at ¶ 5, Exhibit 38). In order for
Article 1956 to bar the acquisition of ownership by adverse possession, three requirements must
be satisfied: (1) there must be a crime of theft or robbery (or other similar crime relating to the
misappropriation of movable property); (2) the possessor of the movable property must be a
principal, accomplice, or accessory of the crime committed; and (3) the statute of limitations for the
crime committed or for an action claiming civil liability arising from that crime must not have
expired. Plaintiffs’ Spanish Report at p. 45.
The parties agree that the looting of the Painting by Scheidwimmer and the Nazis
constitutes a misappropriation crime for the purposes of Article 1956, and that, under the current
Spanish Criminal Code, it would be considered a crime against humanity or crime against property
in the event of armed conflict which has no statute of limitations.14 However, in order for Article
1956 to have any application, the Foundation must also be a principal, accomplice, or accessory to
the crime committed. In other words, the Foundation must be “criminally responsible” for the
offense committed by the Nazis in looting the Painting. See 1973 Spanish Criminal Code Article
12 (“Those criminally responsible for felonies and misdemeanours are the following: 1. Principals.
2. Accomplices. 3. Accessories.”). It is undisputed that the Foundation was not a “principal” or
“accomplice” to the crime committed by the Nazis. Accordingly, the Court will only address
whether the Foundation can be considered an “accessory” to the crime committed by the Nazis
under Spanish law.
Assuming the facts in the light most favorable to Plaintiffs, the Court concludes, as a matter
of Spanish law, that the Foundation was not an “accessory” to the crime committed by the Nazis.
Under the 1973 Spanish Criminal Code, in effect at the time the Foundation acquired the Painting,
“accessories” (or accessories after the fact) were defined as follows:
Accessories are those who, aware of the perpetration of a punishable offence,
without having had involvement in it as principals or accomplices, are involved
subsequent to its execution in any of the following ways:
1.

Aiding and abetting the principals or accomplices to benefit from the felony or
misdemeanour.

2.

Hiding or destroying the evidence, effects or instruments of the felony or
misdemeanour, to prevent it being discovered.

3.

Harbouring, concealing or aiding the escape of suspected criminals, whenever
any of the following circumstances concur:
One. When the accessory has acted in abuse of his public functions.

14

The parties disagree as to whether the statute of limitations (or, more accurately, lack
thereof) can be applied retroactively to crimes committed prior to the effective date of the current
Spanish Criminal Code. The Court finds it unnecessary to resolve this question, because it
concludes that Article 1956 is inapplicable on other grounds.
Page 15 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 16 of 20 Page ID #:18767

Two. When the principal has committed the offences of treason, murder of the
head of State or his successor, parricide, murder, unlawful detention for
ransom or imposing any other condition, unlawful detention with simulation of
public functions, deposit of weapons or ammunition, possession of explosives
and criminal damage.
1973 Spanish Civil Code Article 17 (Declaration of Adriana De Buerba [Docket No. 289-1] at
Exhibit 111A).15
Plaintiffs argue that the Foundation was an “accessory” to the looting of the Painting by
Scheidwimmer and the Nazis, because the Foundation hid the evidence, effects or instruments of
the crime “to prevent it being discovered.” However, as the clear and unambiguous language of
the Spanish Criminal Code provides, and as the relevant Spanish case law holds, the intent or
purpose of the accessory’s misconduct must be to prevent the offense or crime from being
discovered. See 1973 Spanish Criminal Code Article 17 (emphasis added) (“Accessories are
those who, aware of the perpetration of a punishable offence, without having had involvement in it
as principals or accomplices, are involved subsequent to its execution in . . . [h]iding or destroying
the evidence, effects or instruments of the felony or misdemeanour, to prevent it being
discovered.”; Declaration of Adriana De Buerba [Docket No. 289-1], Exhibit 111 (“De Buerba
Expert Report”) at ¶ 4 (translation of Judgment of the Spanish Supreme Court no. 62/2013,
January 29, 2013) (“The action must have an impact on the evidence, effects or instruments of the
criminal offence and the intent of these misconducts must be to prevent the criminal offence or its

15

Under the current Spanish Criminal Code, “accessories,” as defined in the 1973 Spanish
Criminal Code, are no longer considered “criminally responsible” for the original criminal offense.
Rather, similar participation or involvement subsequent to the execution of the original offense is
now defined as an independent criminal offense, i.e., “covering up,” which is defined in Article 451.
Article 451 provides in relevant part:
Whoever has knowledge of a felony committed and, without having intervened in it as
a principal, subsequently intervenes in its execution, in any of the following manners,
shall be punished with a sentence of imprisonment of six months to three years:
1.

Aiding the principals or accomplices to benefit from the gains, product or price
of the offence, without intended personal profit;

2.

Hiding, altering or destroying the evidence, effects or instruments of an
offence, to prevent it being discovered;

3.

Aiding the suspected criminals to avoid investigation by the authority or its
agents, or to escape search or capture, whenever any of the following
circumstances concur . . .

Spanish Criminal Code Article 451 (Declaration of Adrian De Buerba [Docket No. 289-1] at Exhibit
111B).
Page 16 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 17 of 20 Page ID #:18768

relevant legal aspects from being discovered.”).16 In this case, there is absolutely no evidence that
the Foundation purchased the Painting (or performed any subsequent acts) with the intent of
preventing Scheidwimmer’s or the Nazis’ criminal offenses from being discovered. Indeed,
Scheidwimmer had already been convicted and sentenced after the war, and the 1939 forced sale
had already been the subject of civil proceedings in Germany from 1948 to 1958 in which both Lilly
and Scheidwimmer were parties. See Declaration of Jonathan Petropoulos [Docket No. 277],
Exhibit 71, at ¶¶ 55-56; Court’s Order Denying Thyssen-Bornemisza Collection Foundation’s
Motion for Summary Adjudication filed on March 13, 2015 [Docket No. 245].
Contrary to the clear definition of “accessory” in the Spanish Criminal Code, Plaintiffs’
Spanish legal expert, Alfredo Guerrero Righetto, creatively opines that one who has committed the
independent crime of receiving stolen property is “included within” the concept of an “accessory”.
Supplemental Declaration of Alfredo Guerrero [Docket 298-1], Exhibit 1 at 7. The Court disagrees.
As clearly explained by the Foundation’s expert in Spanish criminal law, the receipt of stolen goods
is an independent crime, and one who commits that crime is not necessarily “criminally
responsible” for the previous crime perpetrated by others as an “accessory”.17 De Buerba Expert
Report at ¶¶ 21-26.
Because the Foundation was not an accessory to the crimes committed by Scheidwimmer
and the Nazis, as defined in the Spanish Criminal Code, the Court concludes that Article 1956 of
the Spanish Civil Code is inapplicable.

5.

Spain’s Adverse Possession Laws Do Not Violate the European Convention

16

The Court rejects the contrary conclusion reached by Plantiffs’ Spanish legal expert,
Alfredo Guerrero Righetto. In his initial declaration filed on April 20, 2015 [Docket No. 279], he
relied on the following inaccurate translation of Spanish Criminal Code Article 451: “Those who
with knowledge of the commission of a crime and without having participated in it as a perpetrator
or accomplice, intervene after execution of any of the following ways . . . concealing, altering or
disabling the body, effects or instruments of a crime, to prevent their detection”. In contrast, the
official translation by the Spanish Ministry of Justice provides: “Whoever has knowledge of a felony
committed and, without having intervened in it as a principal, subsequently intervenes in its
execution, in any of the following manners . . . [h]iding, altering or destroying the evidence, effects
or instruments of an offence, to prevent it being discovered.” Guerrero Righetto’s inaccurate
translation results in his erroneous opinion that the Foundation is an “accessory” to the Nazis’
crime, because he believes that the intent of the misconduct under Article 451 must be to prevent
the evidence, effects or instruments of the offense from being discovered rather than to prevent the
criminal offense itself from being discovered. Although Mr. Guerrero Righetto adheres to his
opinion in his Supplemental Declaration filed on May 11, 2015 [Docket No. 298-1] even after his
translation error was pointed out by the Foundation’s expert, the Court, after conducting its own
research, concludes that his interpretation of Article 451 (and Article 17 in the 1973 Spanish
Criminal Code) is plainly wrong.
17

It does not appear, nor do the parties argue, that the crime of receiving stolen property is
itself a misappropriation crime covered by Article 1956.
Page 17 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 18 of 20 Page ID #:18769

on Human Rights
Lastly, Plaintiffs, in an effort to avoid summary judgment, urge the Court to take the
unprecedented and drastic step of invalidating Spain's adverse possession laws under Article 1 of
Protocol No. 1 of the European Convention on Human Rights. Although Plaintiffs devote less than
half of a page in their Opposition to this argument, the Court concludes that it is appropriate to
address this argument.
Spain is a party to the European Convention on Human Rights, including its Protocol No. 1.
Article 1 of Protocol No. 1 provides:
Every natural or legal person is entitled to the peaceful enjoyment of his possessions.
No one shall be deprived of his possessions except in the public interest and subject
to the conditions provided for by law and by the general principles of international
law.
The preceding provisions shall not, however, in any way impair the right of a State to
enforce such laws as it deems necessary to control the use of property in accordance
with the general interest or to secure the payment of taxes or other contributions or
penalties.
As the European Court of Human Rights summarized:
Article 1 of Protocol No. 1, which guarantees the right to the protection of property,
contains three distinct rules: “the first rule, set out in the first sentence of the first
paragraph, is of a general nature and enunciates the principle of the peaceful
enjoyment of property; the second rule, contained in the second sentence of the first
paragraph, covers deprivation of possessions and subjects it to certain conditions;
the third rule, stated in the second paragraph, recognises that the Contracting States
are entitled, amongst other things, to control the use of property in accordance with
the general interest . . . The three rules are not, however, ‘distinct’ in the sense of
being unconnected. The second and third rules are concerned with particular
instances of interference with the right to peaceful enjoyment of property and should
therefore be construed in the light of the general principle enunciated in the first rule.”

Case of J.A. Pye (Oxford) Ltd and J.A. Pye (Oxford) Land Ltd v. The United Kingdom, no.
44302/02 (/sites/eng/pages/search.aspx#{“appno”:[“44302/02"]}), § 52, ECHR 30 August 2007
(hereinafter “Pye”) (citations omitted). “In order to be compatible with the general rule set forth in
the first sentence of the first paragraph of Article 1, an interference with the right to the peaceful
enjoyment of possessions must strike a ‘fair balance’ between the demands of the general interest
of the community and the requirements of the protection of the individual’s fundamental rights.” Id.
at § 53 (citations omitted). “In respect of interferences which fall under the second paragraph of
Article 1 of Protocol No. 1, with its specific reference to ‘the right of a State to enforce such laws as
it deems necessary to control the use of property in accordance with the general interest . . .’, there
must also exist a reasonable relationship of proportionality between the means employed and the
aim sought to be realised. In this respect, States enjoy a wide margin of appreciation with regard
Page 18 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 19 of 20 Page ID #:18770

both to choosing the means of enforcement and to ascertaining whether the consequences of
enforcement are justified in the general interest for the purpose of achieving the object of the law in
question.” Id. at § 55.
In Pye, the European Court of Human Rights held that the English adverse possession law
applicable to land did not violate Article 1 of Protocol No. 1 of the European Convention on Human
Rights. Specifically, it held in relevant part: (1) the loss of ownership pursuant to a generally
applicable English land law was properly characterized as a “control of use” of land within the
meaning of the second paragraph of Article 1, rather than a “deprivation of possessions” within the
meaning of the second sentence of the first paragraph of Article 1; (2) the law pursued a legitimate
aim in the general interest; and (3) the law struck a fair balance between the general interest of the
community and the requirements of the protection of the individual’s fundamental rights, and there
existed a reasonable relationship of proportionality between the means employed and the aim
sought to be realized. Id. at §§ 64-84.
The Court likewise concludes that Spain’s laws of adverse possession do not violate Article
1 of Protocol No. 1 of the European Convention on Human Rights. “It is characteristic of property
that different countries regulate its use and transfer in a variety of ways. The relevant rules reflect
social policies against the background of the local conception of the importance and role of
property.” Id. at § 74. As discussed above, Spain’s adverse possession laws serve the legitimate
interests of certainty of title, protecting defendants from stale claims, and encouraging plaintiffs not
to sleep on their rights. Moreover, in determining that a fair balance exists, the Court recognizes
that Spain enjoys a “wide margin of appreciation,” with regard both to choosing the means of
enforcement and to ascertaining whether the consequences of enforcement are justified in the
general interest for the purpose of achieving the object of the law in question. Spain’s adverse
possession laws are long-standing, generally applicable laws, which fall within Spain’s margin of
appreciation, “unless they give rise to results which are so anomalous as to render the legislation
unacceptable.” Id. at § 83. The Court concludes that the results are not so anomalous as to
render Spain’s laws of adverse possession unacceptable.
Accordingly, the Court concludes that, under Spain’s adverse possession laws, the
Foundation acquired ownership of the Painting as of June 21, 1999, six years after it purchased
the Painting from the Baron.
C.

To the Extent that Amended California Code of Civil Procedure § 338(c) Would
Result in Depriving the Foundation of its Ownership of the Painting, It Violates
the Foundation’s Due Process Rights.

The Due Process Clause of the Fourteenth Amendment provides that “[n]o State shall . . .
deprive any person of life, liberty or property, without due process of law.” U.S. Const. amend.
XIV, § 1. The Fourteenth Amendment “forbids the government to infringe . . . ‘fundamental’ liberty
interests at all, no matter what process is provided, unless the infringement is narrowly tailored to
serve a compelling state interest.” Reno v. Flores, 507 U.S. 292, 302 (1993); see also Washington
v. Glucksberg, 521 U.S. 702, 721 (1997). As the Supreme Court stated in Campbell v. Holt:
It may . . . very well be held that in an action to recover real or personal property,
where the question is as to the removal of the bar of the statute of limitations by a
Page 19 of 20

Initials of Deputy Clerk sr

Case 2:05-cv-03459-JFW-E Document 315 Filed 06/04/15 Page 20 of 20 Page ID #:18771

legislative act passed after the bar has become perfect, that such act deprives the
party of his property without due process of law. The reason is that, by the law in
existence before the repealing act, the property had become the defendant's. Both
the legal title and the real ownership had become vested in him, and to give the act
the effect of transferring this title to plaintiff would be to deprive him of his property
without due process of law.
Campbell v. Holt, 115 U.S. 620, 623 (1885).
In this case, the Court has concluded that the Foundation acquired ownership of the
Painting under Spanish law prior to California Legislature’s retroactive extension of the statute of
limitations in 2010. Moreover, it is undisputed that, before the California Legislature retroactively
extended the statute of limitations in 2010, Plaintiffs’ claims were time-barred under the prior
version of California Code of Civil Procedure § 338. Accordingly, to the extent that application of
amended California Code of Civil Procedure § 338(c) would result in depriving the Foundation of its
ownership of the Painting, the statute violates the Foundation’s due process rights.18 Indeed, there
is no persuasive argument that the statute is narrowly tailored to serve a compelling state interest.

IV.

CONCLUSION

For the foregoing reasons, the Foundation’s Motion for Summary Judgment is GRANTED.
Plaintiffs’ Motion for Summary Adjudication Re Choice of California Law is DENIED. The parties
are ordered to meet and confer and prepare a joint proposed Judgment which is consistent with
this Order. The parties shall lodge the joint proposed Judgment with the Court on or before June
11, 2015. In the unlikely event that counsel are unable to agree upon a joint proposed Judgment,
the parties shall each submit separate versions of a proposed Judgment along with a declaration
outlining their objections to the opposing party's version no later than June 11, 2015.
Although the Foundation has now prevailed in this prolonged and bitterly contested
litigation, the Court recommends that, before the next phase of litigation commences in the Ninth
Circuit, the Foundation pause, reflect, and consider whether it would be appropriate to work
towards a mutually-agreeable resolution of this action, in light of Spain’s acceptance of the
Washington Conference Principles and the Terezin Declaration, and, specifically, its commitment
to achieve “just and fair solutions” for victims of Nazi persecution.

IT IS SO ORDERED.

18

In any event, under California law, it does not appear that the retroactive extension of the
statute of limitations would result in depriving the Foundation of ownership of the Painting. See,
e.g., In re Marriage of Klug, 130 Cal. App. 4th 1389, 1399 (2005) (“Statutes of limitation are
legislative enactments that limit the time period in which a plaintiff can bring his or her cause of
action in court. They do not alter the legal obligation and injury underlying plaintiff’s claim.”).
Page 20 of 20

Initials of Deputy Clerk sr

APPENDIX E

Case: 19-55616, 12/07/2020, ID: 11916485, DktEntry: 71, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
DEC 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DAVID CASSIRER et al.,
Plaintiffs-Appellants,
v.

No. 19-55616
D.C. No. 2:05-cv-03459-JFW-E
ORDER

THYSSEN-BORNEMISZA COLLECTION
FOUNDATION, an agency or
instrumentality of the Kingdom of Spain,
Defendant-Appellee.
Before: CALLAHAN, BEA, and IKUTA, Circuit Judges.
The panel has unanimously voted to deny the petition for panel rehearing and
rehearing en banc. The full court has been advised of the petition for rehearing en
banc and no judge has requested a vote on whether to rehear the matter en banc. Fed.
R. App. P. 35.
Accordingly, the petition for panel rehearing and rehearing en banc (Dkt No.
67) is DENIED.

APPENDIX F

§ 1602. Findings and declaration of purpose, 28 USCA § 1602

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 97. Jurisdictional Immunities of Foreign States
28 U.S.C.A. § 1602
§ 1602. Findings and declaration of purpose
Currentness
The Congress finds that the determination by United States courts of the claims of foreign states to immunity from the jurisdiction
of such courts would serve the interests of justice and would protect the rights of both foreign states and litigants in United
States courts. Under international law, states are not immune from the jurisdiction of foreign courts insofar as their commercial
activities are concerned, and their commercial property may be levied upon for the satisfaction of judgments rendered against
them in connection with their commercial activities. Claims of foreign states to immunity should henceforth be decided by
courts of the United States and of the States in conformity with the principles set forth in this chapter.
CREDIT(S)
(Added Pub.L. 94-583, § 4(a), Oct. 21, 1976, 90 Stat. 2892.)

Notes of Decisions (110)
28 U.S.C.A. § 1602, 28 USCA § 1602
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1603. Definitions, 28 USCA § 1603

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 97. Jurisdictional Immunities of Foreign States
28 U.S.C.A. § 1603
§ 1603. Definitions
Effective: February 18, 2005
Currentness
For purposes of this chapter-(a) A “foreign state”, except as used in section 1608 of this title, includes a political subdivision of a foreign state or an
agency or instrumentality of a foreign state as defined in subsection (b).
(b) An “agency or instrumentality of a foreign state” means any entity-(1) which is a separate legal person, corporate or otherwise, and
(2) which is an organ of a foreign state or political subdivision thereof, or a majority of whose shares or other ownership
interest is owned by a foreign state or political subdivision thereof, and
(3) which is neither a citizen of a State of the United States as defined in section 1332(c) and (e) of this title, nor created
under the laws of any third country.
(c) The “United States” includes all territory and waters, continental or insular, subject to the jurisdiction of the United States.
(d) A “commercial activity” means either a regular course of commercial conduct or a particular commercial transaction
or act. The commercial character of an activity shall be determined by reference to the nature of the course of conduct or
particular transaction or act, rather than by reference to its purpose.
(e) A “commercial activity carried on in the United States by a foreign state” means commercial activity carried on by such
state and having substantial contact with the United States.
CREDIT(S)

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1603. Definitions, 28 USCA § 1603

(Added Pub.L. 94-583, § 4(a), Oct. 21, 1976, 90 Stat. 2892; amended Pub.L. 109-2, § 4(b)(2), Feb. 18, 2005, 119 Stat. 12.)

Notes of Decisions (376)
28 U.S.C.A. § 1603, 28 USCA § 1603
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1604. Immunity of a foreign state from jurisdiction, 28 USCA § 1604

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 97. Jurisdictional Immunities of Foreign States
28 U.S.C.A. § 1604
§ 1604. Immunity of a foreign state from jurisdiction
Currentness
Subject to existing international agreements to which the United States is a party at the time of enactment of this Act a foreign
state shall be immune from the jurisdiction of the courts of the United States and of the States except as provided in sections
1605 to 1607 of this chapter.
CREDIT(S)
(Added Pub.L. 94-583, § 4(a), Oct. 21, 1976, 90 Stat. 2892.)

Notes of Decisions (157)
28 U.S.C.A. § 1604, 28 USCA § 1604
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1605. General exceptions to the jurisdictional immunity of a..., 28 USCA § 1605

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 97. Jurisdictional Immunities of Foreign States
28 U.S.C.A. § 1605
§ 1605. General exceptions to the jurisdictional immunity of a foreign state
Effective: December 16, 2016
Currentness
(a) A foreign state shall not be immune from the jurisdiction of courts of the United States or of the States in any case-(1) in which the foreign state has waived its immunity either explicitly or by implication, notwithstanding any withdrawal of
the waiver which the foreign state may purport to effect except in accordance with the terms of the waiver;
(2) in which the action is based upon a commercial activity carried on in the United States by the foreign state; or upon an
act performed in the United States in connection with a commercial activity of the foreign state elsewhere; or upon an act
outside the territory of the United States in connection with a commercial activity of the foreign state elsewhere and that act
causes a direct effect in the United States;
(3) in which rights in property taken in violation of international law are in issue and that property or any property exchanged
for such property is present in the United States in connection with a commercial activity carried on in the United States
by the foreign state; or that property or any property exchanged for such property is owned or operated by an agency or
instrumentality of the foreign state and that agency or instrumentality is engaged in a commercial activity in the United States;
(4) in which rights in property in the United States acquired by succession or gift or rights in immovable property situated
in the United States are in issue;
(5) not otherwise encompassed in paragraph (2) above, in which money damages are sought against a foreign state for personal
injury or death, or damage to or loss of property, occurring in the United States and caused by the tortious act or omission of
that foreign state or of any official or employee of that foreign state while acting within the scope of his office or employment;
except this paragraph shall not apply to-(A) any claim based upon the exercise or performance or the failure to exercise or perform a discretionary function
regardless of whether the discretion be abused, or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1605. General exceptions to the jurisdictional immunity of a..., 28 USCA § 1605

(B) any claim arising out of malicious prosecution, abuse of process, libel, slander, misrepresentation, deceit, or interference
with contract rights; or
(6) in which the action is brought, either to enforce an agreement made by the foreign state with or for the benefit of a private
party to submit to arbitration all or any differences which have arisen or which may arise between the parties with respect to a
defined legal relationship, whether contractual or not, concerning a subject matter capable of settlement by arbitration under
the laws of the United States, or to confirm an award made pursuant to such an agreement to arbitrate, if (A) the arbitration
takes place or is intended to take place in the United States, (B) the agreement or award is or may be governed by a treaty
or other international agreement in force for the United States calling for the recognition and enforcement of arbitral awards,
(C) the underlying claim, save for the agreement to arbitrate, could have been brought in a United States court under this
section or section 1607, or (D) paragraph (1) of this subsection is otherwise applicable.
(b) A foreign state shall not be immune from the jurisdiction of the courts of the United States in any case in which a suit in
admiralty is brought to enforce a maritime lien against a vessel or cargo of the foreign state, which maritime lien is based upon
a commercial activity of the foreign state: Provided, That-(1) notice of the suit is given by delivery of a copy of the summons and of the complaint to the person, or his agent, having
possession of the vessel or cargo against which the maritime lien is asserted; and if the vessel or cargo is arrested pursuant
to process obtained on behalf of the party bringing the suit, the service of process of arrest shall be deemed to constitute
valid delivery of such notice, but the party bringing the suit shall be liable for any damages sustained by the foreign state as
a result of the arrest if the party bringing the suit had actual or constructive knowledge that the vessel or cargo of a foreign
state was involved; and
(2) notice to the foreign state of the commencement of suit as provided in section 1608 of this title is initiated within ten days
either of the delivery of notice as provided in paragraph (1) of this subsection or, in the case of a party who was unaware that
the vessel or cargo of a foreign state was involved, of the date such party determined the existence of the foreign state's interest.
(c) Whenever notice is delivered under subsection (b)(1), the suit to enforce a maritime lien shall thereafter proceed and shall
be heard and determined according to the principles of law and rules of practice of suits in rem whenever it appears that, had the
vessel been privately owned and possessed, a suit in rem might have been maintained. A decree against the foreign state may
include costs of the suit and, if the decree is for a money judgment, interest as ordered by the court, except that the court may
not award judgment against the foreign state in an amount greater than the value of the vessel or cargo upon which the maritime
lien arose. Such value shall be determined as of the time notice is served under subsection (b)(1). Decrees shall be subject to
appeal and revision as provided in other cases of admiralty and maritime jurisdiction. Nothing shall preclude the plaintiff in any
proper case from seeking relief in personam in the same action brought to enforce a maritime lien as provided in this section.
(d) A foreign state shall not be immune from the jurisdiction of the courts of the United States in any action brought to foreclose
a preferred mortgage, as defined in section 31301 of title 46. Such action shall be brought, heard, and determined in accordance
with the provisions of chapter 313 of title 46 and in accordance with the principles of law and rules of practice of suits in rem,
whenever it appears that had the vessel been privately owned and possessed a suit in rem might have been maintained.
[(e), (f) Repealed. Pub.L. 110-181, Div. A, Title X, § 1083(b)(1)(B), Jan. 28, 2008, 122 Stat. 341.]

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1605. General exceptions to the jurisdictional immunity of a..., 28 USCA § 1605

(g) Limitation on discovery.-(1) In general.--(A) Subject to paragraph (2), if an action is filed that would otherwise be barred by section 1604, but for
section 1605A or section 1605B, the court, upon request of the Attorney General, shall stay any request, demand, or order for
discovery on the United States that the Attorney General certifies would significantly interfere with a criminal investigation
or prosecution, or a national security operation, related to the incident that gave rise to the cause of action, until such time as
the Attorney General advises the court that such request, demand, or order will no longer so interfere.
(B) A stay under this paragraph shall be in effect during the 12-month period beginning on the date on which the court issues
the order to stay discovery. The court shall renew the order to stay discovery for additional 12-month periods upon motion by
the United States if the Attorney General certifies that discovery would significantly interfere with a criminal investigation
or prosecution, or a national security operation, related to the incident that gave rise to the cause of action.
(2) Sunset.--(A) Subject to subparagraph (B), no stay shall be granted or continued in effect under paragraph (1) after the
date that is 10 years after the date on which the incident that gave rise to the cause of action occurred.
(B) After the period referred to in subparagraph (A), the court, upon request of the Attorney General, may stay any request,
demand, or order for discovery on the United States that the court finds a substantial likelihood would-(i) create a serious threat of death or serious bodily injury to any person;
(ii) adversely affect the ability of the United States to work in cooperation with foreign and international law enforcement
agencies in investigating violations of United States law; or
(iii) obstruct the criminal case related to the incident that gave rise to the cause of action or undermine the potential for
a conviction in such case.
(3) Evaluation of evidence.--The court's evaluation of any request for a stay under this subsection filed by the Attorney
General shall be conducted ex parte and in camera.
(4) Bar on motions to dismiss.--A stay of discovery under this subsection shall constitute a bar to the granting of a motion
to dismiss under rules 12(b)(6) and 56 of the Federal Rules of Civil Procedure.
(5) Construction.--Nothing in this subsection shall prevent the United States from seeking protective orders or asserting
privileges ordinarily available to the United States.
(h) Jurisdictional immunity for certain art exhibition activities.-(1) In general.--If--

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 1605. General exceptions to the jurisdictional immunity of a..., 28 USCA § 1605

(A) a work is imported into the United States from any foreign state pursuant to an agreement that provides for the temporary
exhibition or display of such work entered into between a foreign state that is the owner or custodian of such work and the
United States or one or more cultural or educational institutions within the United States;
(B) the President, or the President's designee, has determined, in accordance with subsection (a) of Public Law 89-259
(22 U.S.C. 2459(a)), that such work is of cultural significance and the temporary exhibition or display of such work is
in the national interest; and
(C) the notice thereof has been published in accordance with subsection (a) of Public Law 89-259 (22 U.S.C. 2459(a)),
any activity in the United States of such foreign state, or of any carrier, that is associated with the temporary exhibition
or display of such work shall not be considered to be commercial activity by such foreign state for purposes of subsection
(a)(3).
(2) Exceptions.-(A) Nazi-era claims.--Paragraph (1) shall not apply in any case asserting jurisdiction under subsection (a)(3) in which
rights in property taken in violation of international law are in issue within the meaning of that subsection and-(i) the property at issue is the work described in paragraph (1);
(ii) the action is based upon a claim that such work was taken in connection with the acts of a covered government
during the covered period;
(iii) the court determines that the activity associated with the exhibition or display is commercial activity, as that term
is defined in section 1603(d); and
(iv) a determination under clause (iii) is necessary for the court to exercise jurisdiction over the foreign state under
subsection (a)(3).
(B) Other culturally significant works.--In addition to cases exempted under subparagraph (A), paragraph (1) shall not
apply in any case asserting jurisdiction under subsection (a)(3) in which rights in property taken in violation of international
law are in issue within the meaning of that subsection and-(i) the property at issue is the work described in paragraph (1);
(ii) the action is based upon a claim that such work was taken in connection with the acts of a foreign government as
part of a systematic campaign of coercive confiscation or misappropriation of works from members of a targeted and
vulnerable group;

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

§ 1605. General exceptions to the jurisdictional immunity of a..., 28 USCA § 1605

(iii) the taking occurred after 1900;
(iv) the court determines that the activity associated with the exhibition or display is commercial activity, as that term
is defined in section 1603(d); and
(v) a determination under clause (iv) is necessary for the court to exercise jurisdiction over the foreign state under
subsection (a)(3).
(3) Definitions.--For purposes of this subsection-(A) the term “work” means a work of art or other object of cultural significance;
(B) the term “covered government” means-(i) the Government of Germany during the covered period;
(ii) any government in any area in Europe that was occupied by the military forces of the Government of Germany
during the covered period;
(iii) any government in Europe that was established with the assistance or cooperation of the Government of Germany
during the covered period; and
(iv) any government in Europe that was an ally of the Government of Germany during the covered period; and
(C) the term “covered period” means the period beginning on January 30, 1933, and ending on May 8, 1945.
CREDIT(S)
(Added Pub.L. 94-583, § 4(a), Oct. 21, 1976, 90 Stat. 2892; amended Pub.L. 100-640, § 1, Nov. 9, 1988, 102 Stat. 3333;
Pub.L. 100-669, § 2, Nov. 16, 1988, 102 Stat. 3969; Pub.L. 101-650, Title III, § 325(b)(8), Dec. 1, 1990, 104 Stat. 5121; Pub.L.
104-132, Title II, § 221(a), Apr. 24, 1996, 110 Stat. 1241; Pub.L. 105-11, Apr. 25, 1997, 111 Stat. 22; Pub.L. 107-77, Title VI,
§ 626(c), Nov. 28, 2001, 115 Stat. 803; Pub.L. 107-117, Div. B, § 208, Jan. 10, 2002, 115 Stat. 2299; Pub.L. 109-304, § 17(f)
(2), Oct. 6, 2006, 120 Stat. 1708; Pub.L. 110-181, Title X, § 1083(b)(1), Jan. 28, 2008, 122 Stat. 341; Pub.L. 114-222, § 3(b)
(2), Sept. 28, 2016, 130 Stat. 853; Pub.L. 114-319, § 2(a), Dec. 16, 2016, 130 Stat. 1618.)

Notes of Decisions (1101)
28 U.S.C.A. § 1605, 28 USCA § 1605
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

§ 1605. General exceptions to the jurisdictional immunity of a..., 28 USCA § 1605

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

§ 1606. Extent of liability, 28 USCA § 1606

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 97. Jurisdictional Immunities of Foreign States
28 U.S.C.A. § 1606
§ 1606. Extent of liability
Effective: November 26, 2002
Currentness
As to any claim for relief with respect to which a foreign state is not entitled to immunity under section 1605 or 1607 of
this chapter, the foreign state shall be liable in the same manner and to the same extent as a private individual under like
circumstances; but a foreign state except for an agency or instrumentality thereof shall not be liable for punitive damages; if,
however, in any case wherein death was caused, the law of the place where the action or omission occurred provides, or has
been construed to provide, for damages only punitive in nature, the foreign state shall be liable for actual or compensatory
damages measured by the pecuniary injuries resulting from such death which were incurred by the persons for whose benefit
the action was brought.
CREDIT(S)
(Added Pub.L. 94-583, § 4(a), Oct. 21, 1976, 90 Stat. 2894; amended Pub.L. 105-277, Div. A, § 101(h) [Title I, § 117(b)],
Oct. 21, 1998, 112 Stat. 2681-480, 2681-491; Pub.L. 106-386, Div. C, § 2002(g)(2), formerly § 2002(f)(2), Oct. 28, 2000, 114
Stat. 1543, renumbered § 2002(g)(2), Pub.L. 107-297, Title II, § 201(c)(3), Nov. 26, 2002, 116 Stat. 2337.)

Notes of Decisions (102)
28 U.S.C.A. § 1606, 28 USCA § 1606
Current through PL 117-11 with the exception of PL 116-283. Incorporation of changes from PL 116-283 are in progress. Some
statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

